<html>
<title> - H.R. 588, VIETNAM VETERANS DONOR ACKNOWLEDGMENT ACT OF 2013; H.R. 716, TO DIRECT DOI TO CONVEY CERTAIN FEDERAL LAND TO THE CITY OF VANCOUVER, WASHINGTON; AND H.R. 819, PRESERVING ACCESS TO CAPE HATTERAS NATIONAL SEASHORE RECREATIONAL AREA ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
H.R. 588, VIETNAM VETERANS DONOR ACKNOWLEDGMENT ACT OF 2013; H.R. 716, 
TO DIRECT DOI TO CONVEY CERTAIN FEDERAL LAND TO THE CITY OF VANCOUVER, 
WASHINGTON; AND H.R. 819, PRESERVING ACCESS TO CAPE HATTERAS NATIONAL 
                    SEASHORE RECREATIONAL AREA ACT 

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON PUBLIC LANDS

                      AND ENVIRONMENTAL REGULATION

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, March 14, 2013

                               __________

                            Serial No. 113-4

                               __________

       Printed for the use of the Committee on Natural Resources

         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

79-967 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F. H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Jim Costa, CA
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Dan Benishek, MI                     Niki Tsongas, MA
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Paul A. Gosar, AZ                    Tony Cardenas, CA
Raul R. Labrador, ID                 Steven A. Horsford, NV
Steve Southerland, II, FL            Jared Huffman, CA
Bill Flores, TX                      Raul Ruiz, CA
Jon Runyan, NJ                       Carol Shea-Porter, NH
Mark E. Amodei, NV                   Alan S. Lowenthal, CA
Markwayne Mullin, OK                 Joe Garcia, FL
Chris Stewart, UT                    Matt Cartwright, PA
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Vacancy

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON PUBLIC LANDS AND ENVIRONMENTAL REGULATION

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Niki Tsongas, MA
Doug Lamborn, CO                     Rush Holt, NJ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Scott R. Tipton, CO                  Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 Colleen W. Hanabusa, HI
Mark E. Amodei, NV                   Steven A. Horsford, NV
Chris Stewart, UT                    Carol Shea-Porter, NH
Steve Daines, MT                     Joe Garcia, FL
Kevin Cramer, ND                     Matt Cartwright, PA
Doug LaMalfa, CA                     Edward J. Markey, MA, ex officio
Doc Hastings, WA, ex officio


                              ----------                              
                               CONTENTS
                              ----------                              
                                                                   Page

Hearing held on Thursday, March 14, 2013.........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah, Prepared statement of.............................     1
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     2
        Prepared statement of....................................     2
    Young, Hon. Don, a Representative in Congress for the State 
      of Alaska..................................................     7
        Prepared statement on H.R. 588...........................     8

Statement of Witnesses:
    Carter, Derb. S., Jr., Director, Chapel Hill Office, Southern 
      Environmental Law Center...................................    57
        Prepared statement on H.R. 819...........................    59
    Frost, Dr. Herbert C., Associate Director, Natural Resource 
      Stewardship and Science, National Park Service, U.S. 
      Department of the Interior.................................     9
        Prepared statement on H.R. 588...........................    10
        Prepared statement on H.R. 716...........................    11
        Prepared statement on H.R. 819...........................    13
    Herrera Beutler, Hon. Jaime, a Representative in Congress 
      from the State of Washington...............................     3
        Prepared statement on H.R. 716...........................     4
    Jones, Hon. Walter B., a Representative in Congress from the 
      State of North Carolina....................................     5
        Prepared statement on H.R. 819...........................     7
    Judge, Warren, Chairman, Dare County Board of Commissioners, 
      County of Dare, North Carolina.............................    47
        Prepared statement on H.R. 819...........................    49
        Questions submitted for the record to....................    56
    Scruggs, Jan D., Esq., President, Vietnam Veterans Memorial 
      Fund.......................................................    16
        Prepared statement on H.R. 588...........................    17
    Strahan, Elson, President and CEO, Fort Vancouver National 
      Trust......................................................    23
        Prepared statement on H.R. 716...........................    25
        Letter submitted for the record on H.R. 716..............    28
        Questions submitted for the record to....................    32

Additional Materials Submitted for the Record:
    Bader, Jeanette M., M.P.A., Program & Policy Development 
      Manager, City of Vancouver, Washington, Letter submitted 
      for the record on H.R. 716.................................    72
    Cook, Senator Bill, District 1, North Carolina General 
      Assembly, Letter submitted for the record on H.R. 819......    70
    County of Currituck, Statement submitted for the record on 
      H.R. 819...................................................    71
    Holmes, Eric J., City Manager, City of Vancouver, Washington, 
      Letter submitted for the record on H.R. 716................    70
    Sullivan, Gordon R., General, USA Retired, Association of the 
      United States Army, Letter submitted for the record on H.R. 
      588........................................................    73
    Tine, Representative Paul, 6th District, North Carolina 
      General Assembly, Letter submitted for the record on H.R. 
      819........................................................    70
    Town of Manteo, Statement submitted for the record on H.R. 
      819........................................................    71
    Veterans of Foreign Wars of the United States, Letter 
      Submitted for the Record...................................    75
    Yakama Nation, Statement submitted for the record on H.R. 716    73
                                     

LLEGISLATIVE HEARING ON H.R. 588, TO PROVIDE FOR DONOR 
CONTRIBUTION ACKNOWLEDGMENTS TO BE DISPLAYED AT THE VIETNAM 
VETERANS MEMORIAL VISITOR CENTER, AND FOR OTHER PURPOSES. 
``VIETNAM VETERANS DONOR ACKNOWLEDGMENT ACT OF 2013''; H.R. 
716, TO DIRECT THE SECRETARY OF THE INTERIOR TO CONVEY CERTAIN 
FEDERAL LAND TO THE CITY OF VANCOUVER, WASHINGTON, AND FOR 
OTHER PURPOSES; H.R. 819, TO AUTHORIZE PEDESTRIAN AND MOTORIZED 
VEHICULAR ACCESS IN CAPE HATTERAS NATIONAL SEASHORE 
RECREATIONAL AREA, AND FOR OTHER PURPOSES. ``PRESERVING ACCESS 
TO CAPE HATTERAS NATIONAL SEASHORE RECREATIONAL AREA ACT.''
                              ----------                              


                        Thursday, March 14, 2013

                     U.S. House of Representatives

       Subcommittee on Public Lands and Environmental Regulation

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 1334, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Stewart, Young, Tipton, 
Grijalva, Holt, Bordallo, Hanabusa, Horsford, Shea-Porter, and 
Garcia.
    Also Present: Representatives Jones and Herrera Beutler.
    Mr. Stewart [presiding]. The hearing will come to order. 
The Chair notes the presence of a quorum. The Subcommittee on 
Public Lands and Environmental Regulation is meeting today to 
hear testimony on three bills.
    Under the Rules, opening statements are limited to the 
Chairman and Ranking Member. However, I ask unanimous consent 
to include any other Members' opening statements in the hearing 
record, if submitted to the Clerk by the close of business 
today.
    [No response.]
    Mr. Stewart. Hearing no objection, so ordered.
    Chairman Bishop is delayed, due to work on another 
Committee. But he may provide his statement later in the 
briefing.
    [The prepared statement of Mr. Bishop follows:]
       Prepare Statement of The Honorable Rob Bishop, Chairman, 
       Subcommittee on Public Lands and Environmental Regulation
    I would like to thank the Members that are here today to explain 
their legislation, as well as the witnesses who have travelled here to 
help us better understand the issues involved. Your comments are 
appreciated.
    I am concerned that today we find ourselves investigating separate 
issues where there has been a failing of a federal agency to work 
cooperatively with local residents. We have two situations where locals 
feel betrayed by those that have been entrusted to care for the 
nationally significant resources in their community.
    We will hear stories, facts and figures, some more convincing than 
others, but the net result is a breakdown in the relationships which 
are critical to the success of these parks. While the temptation is to 
point fingers and assign blame, I hope we come out of this with a 
better understanding of how things can be done better in the future, 
and how to best serve the communities' interest.
    I believe that people visit our national parks, seashores and 
historic sites to experience the resources, not to experience the park 
service. When situations erupt to a point where congressional action is 
the best solution, it seems to me that somewhere along the line we lost 
sight of that point.
    Again, thank you for being here and providing testimony to the 
committee.
                                 ______
                                 
    Mr. Stewart. Today's hearing will consist of four panels. 
The first panel we are pleased to hear testimony from the 
sponsors. Ms. Herrera Beutler will provide comments on H.R. 
716, a bill to direct the Secretary of the Interior to convey 
land to the City of Vancouver, Washington; Mr. Jones, on H.R. 
819, to authorize pedestrian vehicular access in Cape Hatteras 
National Seashore; and Mr. Young, the distinguished past 
Chairman of the Resources Committee--thank you, sir--will 
provide testimony on H.R. 588 to permit donor recognition at 
the Vietnam Veterans Memorial Visitors Center. Thank you all 
for being here today.
    First, I would like to recognize the gentleman from 
Arizona, Mr. Grijalva, for his opening statement.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you very much, Mr. Chairman, and I want 
to thank the panelists. This is the Subcommittee's first 
legislative hearing of this 113th Congress. I thank the 
witnesses, and look forward to hearing your views and testimony 
on the legislation before us.
    Traditionally, as this Committee works, the Minority on the 
Committee, Democrats, have been provided a level of courtesy, 
in terms of including some of the bills sponsored by Members of 
the Minority. One of the bills that we requested inclusion was 
H.R. 885, the San Antonio Missions bill, which passed the House 
on a bipartisan vote in the 111th Congress, on a bipartisan 
vote in the 112th Congress. Once sponsored by a former 
colleague, a Democrat, and the second time sponsored by a 
former colleague, a Republican. We again would encourage the 
Chair to consider bills as we see some before us today that 
have passed in the past and have received bipartisan support, 
that we would be extended that courtesy, as we go forward. And 
I hope that the Majority would consider this approach.
    I also want to say each of the bills today really deserve 
our attention. With the drastic cuts coming and being proposed 
for the Park Service budget, we need to understand how to 
balance the demand for the Park experience, and the increased 
reliance of the National Park Service on private money, and 
look forward to those discussions, as well.
    Thank you again, Mr. Chairman, and let me thank our 
witnesses. And I yield back.
    [The prepared statement of Mr. Grijalva follows:]
 Prepared Statement of The Honorable Raul M. Grijalva, Ranking Member, 
       Subcommittee on Public Lands and Environmental Regulation
    Today is the subcommittee's first legislative hearing of the 113th 
Congress.
    I want to thank the witnesses and look forward to hearing your 
views on the testimony before us today.
    Traditionally, when hearings are scheduled, Democrats are provided 
the courtesy of including their bill of choice in the hearing agenda. 
We requested the inclusion of H.R. 885, the San Antonio Missions bill 
which passed the House by a bipartisan vote in the 111th Congress and 
the 112th Congress. This request was denied. We also requested that the 
bill be included in next week's hearing agenda and were denied again. 
While I appreciate the comity the Chairman has afforded the minority, 
this is not a positive way to begin a new Congress and I hope the 
Majority will reconsider their approach.
    Each of the bills on the agenda today deserve our attention. With 
drastic cuts to the Park Service budget we need to understand how to 
balance the demand for park experiences and the increased reliance of 
NPS on private money. Thank you again to our witnesses.
                                 ______
                                 
    Mr. Stewart. Thank you, sir. We will now turn to the first 
panel. I would ask my colleagues to please keep their testimony 
to 5 minutes.
    Ms. Herrera Beutler, welcome, ma'am. And you are now 
recognized.

 STATEMENT OF THE HON. JAIME HERRERA BEUTLER, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF WASHINGTON

    Ms. Herrera Beutler. Thank you, Mr. Chairman and Ranking 
Member Grijalva. It is a pleasure to be here. I would like to 
consider--or I would like to thank the Committee. You guys are 
considering H.R. 716, which is a really important bill to my 
neck of the woods. It has got a pretty innocuous title. It is a 
land conveyance of the Pearson Air Museum and surrounding land 
from the National Park Service to the City of Vancouver, 
Washington.
    Here is what this bill is not. It is not an ideological-
driven bill attacking the Park Service, Federal ownership of 
land, the Administration, or the preservation of history. That 
is not what this bill is. In fact, it is the opposite. The bill 
is designed to maintain the quality and level of management 
that has made the site nationally renowned, an example of 
public-private partnership, and community access for almost the 
last 20 years.
    The Fort Vancouver National Historic Reserve was 
established in the Omnibus Parks and Public Lands Management 
Act of 1996. Bordered by freeways, an airport, a busy rail 
line, this Reserve includes a seven-acre complex described in 
the bill on which the Pearson Air Museum is located.
    For all intents and purposes, the caretaker and the manager 
of the museum has been the nonprofit Fort Vancouver National 
Trust. It has raised virtually all of the funds, privately, 
mostly from my community for the museum's upkeep, which totals 
nearly $10 million. Until the last month, the museum was filled 
with privately owned planes that highlighted the rich history 
of aviation in southwest Washington. It has also housed 
countless education programs as one of the region's most 
popular venues, and has hosted more than 100 community events 
each year.
    The shining example of a well-maintained community treasure 
contrasts sharply with the shell of a museum that now sits on 
the Fort Vancouver land. In the last year, since I became 
involved in this unfortunate situation, our community has 
watched their access to this venue disappear. Over a period of 
a few months, the National Park Service unilaterally began 
denying local community events, a charity concert to benefit 
military veterans, an annual all-church picnic and a youth 
soccer fair among them.
    I struggle to describe the Park Service's approach as 
anything but anti-public. Over the last year, my staff and I 
organized and attended countless meeting with staff from every 
level of the Park Service, from Director John Jarvis to the 
local level. And despite these talks, last month the Park 
Service decided to terminate a 30-year cooperative management 
agreement.
    When I say sudden, the Park Service sent a letter to the 
Trust, once its partner, demanding the immediate handover of 
the museum's alarm code and keys in a 24-hour turnaround. This 
is a situation Congress never intended. When the Park Service 
ended the agreement, the museum transformed into something 
completely unrecognizable by our community. It has been well-
documented on cover after cover of my district's largest 
newspaper.
    At the owner's request, the contents were removed and the 
educational classes were either moved or canceled. And for 
weeks the aviation museum sat empty, and it now houses an old 
sailboat and a covered wagon.
    Perhaps the most concerning is that it now appears that the 
Park Service was intending to take sole control of the museum. 
An internal Park Service document unearthed by the Vancouver 
Columbian newspaper through a FOIA request suggests that the 
Park Service was planning this takeover as early as 2009. In 
the document I have given to the Committee and staff--I will 
submit for the record, the Park Service refers to the eventual 
ownership and management of the museum and its assets. I look 
forward to Mr. Frost's clarification on these comments.
    And for my last point I would like to illustrate for the 
Committee the benefit of maintaining the successful local 
partnership in managing the Pearson Air Museum. Compare the 
difference in the photos that you all have on your desk. The 
first is Fort Vancouver's East Barracks, which has been, for 
years, managed by the Park Service. They are boarded and shut. 
Compare that to the museum, when it was still under the Trust 
management. This is why this--at a time when we need these 
public-private partnerships, we need those funds to operate, as 
you can clearly see, from the illustrations.
    Mr. Chairman, my legislation is supported by the City of 
Vancouver, virtually every citizen, civic, and community 
organization in our region. The Save Pearson Air Museum 
Facebook Page now has more than 1,300 likes, dozens have 
gathered in protest of the current situation, and my office has 
been flooded with pleas by my constituents to pass this 
legislation.
    I urge the Committee to support this bill, and I ask that 
you help us preserve the treasures of Fort Vancouver. Thank 
you, and I yield back.
    [The prepared statement of Ms. Herrera Beutler follows:]
     Prepared Statement of The Honorable Jaime Herrera Beutler, a 
  Representative in Congress From the State of Washington, on H.R. 716
    Thank you Mr. Chairman,
    First I'd like to thank the Committee for its consideration of H.R. 
716, a land conveyance of the Pearson Air Museum and surrounding land 
from the National Park Service to the city of Vancouver, Washington.
    Here's what this bill is not. This is not an ideological driven 
bill attacking the Park Service, federal ownership of land, the 
administration, or the preservation of history. In fact, it is the 
opposite. This is a bill designed to maintain the quality and level of 
management that has made this site a nationally renowned example of 
public-private partnership and community access for almost 20 years.
    The Fort Vancouver National Historic Reserve was established in the 
Omnibus Parks and Public Lands Management Act of 1996. Bordered by 
freeways, an airport, and a busy rail line, this reserve includes the 7 
acre complex described in the bill on which the Pearson Air Museum is 
located. For all intents and purposes, the caretaker and manager of 
this museum has been the nonprofit Fort Vancouver National Trust. It 
has raised virtually all of the funds--privately--for the museum's 
upkeep, which totals nearly $10 million. Until last month, the museum 
was filled with privately-owned planes that highlighted the rich 
history of aviation in Southwest Washington. It has also housed 
countless education programs, and as one of our region's most popular 
venues, it has hosted more than 100 community events each year.
    This shining example of a well-maintained community treasure 
contrasts sharply with the shell of museum building that sits on the 
Ft. Vancouver land today. In the last year since I became involved in 
this unfortunate situation, our community has watched their access to 
this venue quickly disappear. Over a period of a few months, the 
National Park Service unilaterally began denying local community 
events: a charity concert to benefit military veterans, an annual all-
church picnic, and a youth soccer fair among them. I struggle to 
describe the Park Service's approach as anything other than anti-
public.
    Over the last year, my staff and I organized and attended countless 
meetings with staff from every level of the Park Service--from Director 
Jon Jarvis to the local level. Despite these talks, last month the Park 
Service decided to terminate a 30-year cooperative management 
agreement. When I say sudden, the Park Service sent a letter to the 
Trust--once its partner--demanding the immediate hand over of the 
museum's alarm code and keys.
    This is a situation Congress never intended. When the Park Service 
ended the agreement, the museum transformed into something 
unrecognizable by the community. It has been well-documented on cover 
after cover of my district's biggest newspaper. At the owners' 
requests, the contents were removed, and educational classes were 
either moved or cancelled. For weeks the aviation museum sat empty, and 
now it houses an old sailboat and a covered wagon.
    Perhaps most concerning is that it now appears the Park Service 
always intended to take sole control of the museum. An internal Park 
Service document unearthed by the Vancouver Columbian newspaper through 
FOIA suggests the Park Service was planning a takeover as early as 
2009. In the document I have given to committee staff and will submit 
to the record, the Park Service refers to eventual ``ownership'' and 
``management'' of the museum and its assets. I look forward to Mr. 
Frost's clarification of these comments.
    For my last point, I'd like to illustrate for the Committee the 
benefit of maintaining the successful local partnership in managing the 
Pearson Air Museum. Compare the difference in the photos:
    The first is Ft. Vancouver's East Barracks, which has for years 
been managed by the Park Service. They are boarded shut and perform no 
function other than an eye sore for Fort Vancouver.
    Compare that to the Pearson Museum--when it was still under Trust 
management.
    Mr. Chairman, my legislation is supported by the City of Vancouver 
and virtually every citizen, civic, and community organization in our 
region. The Save Pearson Air Museum Facebook page has more than 1,300 
likes. Dozens have gathered in protest of the current situation, and my 
office has been flooded with pleas by my constituents to pass this 
legislation. I urge the committee to support this bill and ask that you 
help us preserve the treasures of Fort Vancouver.
    Thank you. I yield back.
                                 ______
                                 
    Mr. Stewart. Thank you, Ms. Beutler.
    Mr. Jones, sir, the time is yours.

  STATEMENT OF THE HON. WALTER B. JONES, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Jones. Mr. Chairman, I thank you and the Ranking Member 
for this opportunity to testify on my bill, H.R. 819. This bill 
is about jobs, it is about taxpayers' rights to access the 
recreational areas they own, and it is about restoring balance 
and common sense to Park Service management.
    H.R. 819 would overturn a final rule implemented by the 
National Park Service in February of last year, as well as a 
2008 United States District Court-ordered consent decree. The 
rule and the consent decree excessively restrict taxpayers' 
access to Cape Hatteras National Recreational Area, and they 
are unnecessary to protect the wildlife.
    H.R. 819 would re-institute the Park Service's 2007 interim 
management strategy to govern visitors' access and species 
protection at Cape Hatteras. The interim strategy was backed by 
a 113-page biological opinion issued by the United States Fish 
and Wildlife which found that it would not jeopardize piping 
plover, sea turtles, or other species of concern.
    In addition to providing adequate protection for wildlife, 
H.R. 819 would give taxpayers more reasonable access to the 
lands they own. It would reopen the 26 miles of beach that are 
now permanently closed to motorized beach access, and give 
seashore managers flexibility to implement more balanced 
measures that maximize both recreational access and species 
protection.
    Mr. Chairman, we are going to hear a lot of claims today 
about how this bill isn't necessary, about how taxpayers have 
more than enough access to the seashore, and about how the 
local economy is doing just fine. That is not true. Tell that 
to the tackle shop owner in Buxton, who laid off a third of his 
employees because of an arbitrary government decision. Tell 
that to the motel owner on Hatteras who lost 65 percent of her 
customers after the Park Service decided to close the beach. 
Tell that to the taxpaying families from Virginia, 
Pennsylvania, or Ohio that canceled their vacation to the Outer 
Banks because they can no longer fish at this spot at Cape 
Point, where they came for years and years before the Park 
Service closed it off.
    Mr. Chairman, the bottom line here is that the Federal 
Government is unnecessarily blocking the public from a National 
Seashore created for their recreation and, in so doing, it is 
destroying jobs. We can fix this problem by enacting H.R. 819, 
and there is broad bipartisan, public support for doing so.
    I am grateful that North Carolina's two Senators, Senator 
Richard Burr and Senator Kay Hagan, came together last week to 
jointly introduce a Senate companion to H.R. 819. And I am very 
grateful to both Republican and Democrat for joining in this 
effort to protect the people of the Northeast and North 
Carolina.
    The bill is also supported by a wide variety of national 
sportsmen's fishing and access groups, including the American 
Sports Fishing Association, Coastal Conservation Association, 
Congressional Sportsmen's Foundation, National Marine 
Manufacturers, and Americans for Responsible Recreational 
Access.
    Mr. Chairman, you and the Ranking Member and the Committee 
staff will hear next on the third panel the Chairman, Warren 
Judge, of the North Carolina Dare Commissioners. This is 
another situation of an over-reach by a Federal Government 
agency, instead of trying to work with the taxpayers and coming 
up with a common-sense resolution. And I hope that this 
Committee will look seriously at moving this bill, H.R. 819, 
forward.
    And I thank you and the Ranking Member for the opportunity 
to address the Committee. Thank you.
    [The prepared statement of Mr. Jones follows:]
 Prepared Statement of The Honorable Walter B. Jones, a Representative 
       in Congress From the State of North Carolina, on H.R. 819
    Mr. Chairman, thank you very much for holding this hearing and 
allowing me to testify on my bill, H.R. 819.
    This bill is about jobs, it's about taxpayers' right to access the 
recreational areas they own, and it's about restoring balance and 
common sense to Park Service management.
    H.R. 819 would overturn a final rule implemented by the National 
Park Service (NPS) in February of last year, as well as a 2008 U.S. 
District Court-ordered consent decree.
    The rule and the consent decree excessively restrict taxpayers' 
access to Cape Hatteras National Recreational Area, and they are 
unnecessary to protect the wildlife.
    H.R. 819 would reinstitute the Park Service's 2007 Interim 
Management Strategy to govern visitor access and species protection at 
Cape Hatteras.
    The Interim Strategy was backed by a 113-page Biological Opinion 
issued by the U.S. Fish and Wildlife Service which found that it would 
not jeopardize piping plover, sea turtles or other species of concern.
    In addition to providing adequate protection for wildlife, H.R. 819 
would give taxpayers more reasonable access to the lands they own.
    It would reopen the 26 miles of beach that are now permanently 
closed to motorized beach access, and give seashore managers 
flexibility to implement more balanced measures that maximize both 
recreational access and species protection.
    Mr. Chairman, we're going to hear a lot of claims today about how 
this bill isn't necessary; about how taxpayers have more than enough 
access to the seashore; and about how the local economy is doing just 
fine.
    Well, let me tell you something: tell that to the tackle shop owner 
in Buxton who laid off a third of his employees because of an arbitrary 
government decision.
    Tell that to the motel owner on Hatteras who lost 65 percent of her 
customers after the Park Service decided to close the beach.
    Tell that to the tax-paying families from Virginia, Pennsylvania, 
or Ohio that cancelled their vacation to the Outer Banks because they 
can no longer fish at the spot at Cape Point where they came for years 
before the Park Service closed it off.
    Mr. Chairman, the bottom line here is that the Federal Government 
is unnecessarily blocking the public from a national seashore created 
for their recreation, and in so doing, it is destroying jobs.
    We can fix this problem by enacting H.R. 819, and there is broad, 
bipartisan public support for doing so.
    I am grateful that North Carolina Senators Richard Burr and Kay 
Hagan came together last week to jointly introduce a Senate companion 
to H.R. 819.
    The bill is also supported by a wide variety of national 
sportsmen's, fishing and access groups, including:

        <bullet>  The American Sportfishing Association;
        <bullet>  Coastal Conservation Association;
        <bullet>  Congressional Sportsmen's Foundation;
        <bullet>  National Marine Manufacturers; and
        <bullet>  Americans for Responsible Recreational Access.

    Mr. Chairman, this is a good bill, it's urgently needed, and I urge 
the Subcommittee to quickly take action to approve it. Thank you.
                                 ______
                                 
    Mr. Stewart. Thank you, Mr. Jones.
    Mr. Young, sir?

 STATEMENT OF THE HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF ALASKA

    Mr. Young. Mr. Chairman, I first want to thank the panel 
before I make my short presentation of my bill. I do thank you 
and Mr. Bishop for including the Vietnam Veterans Donor 
acknowledgment in today's hearing. I appreciate the Committee's 
attention toward this time-sensitive issue.
    Mr. Chairman, in 2003 Congress passed the Vietnam Veterans 
Memorial Visitors Center Act to authorize the construction of 
an education center at the Vietnam Wall. Not a single Member 
voted against it. We passed this bill with such strong support 
because every year an increasing number of the millions of 
visitors to the Wall, stand in awe of the moving display of the 
over 58,000 names, but who do not fully understand the context 
and importance of this memorial.
    Unfortunately, the Senate tossed a wrench, as usual, into 
the Vietnam Veterans Memorial Visitors Center, by prohibiting 
donor recognition in the education center. In spite of this 
restriction, the Vietnam Veterans Memorial Fund has raised over 
$40 million from private donors. Yet this amount falls far 
short of the funds needed to build the education center.
    Mr. Chairman, my bill, H.R. 588, is actually quite simple, 
and helps solve the fundraising problem for the center. My bill 
allows for the Vietnam Veterans Memorial Foundation to 
recognize the donors. Additionally, H.R. 588 dovetails exactly 
with existing Park Service guidelines, and ensures that donor 
recognition is discreet, unobtrusive, and does not contain any 
advertising or company logos.
    Mr. Chairman, it is ridiculous to force any organization to 
fundraise without the ability to recognize donors. How are they 
supposed to raise any money? Even the National Park Service 
understands the importance of donor recognition. I have 
personally seen a lot of benches in the National Parks across 
this country that have plaques on them, thanking people for 
their generous donation.
    Overall, my bill is supported by a number of veteran 
organizations, including the Veterans of Foreign Wars, among 
others. I would like to submit this letter in support of the 
VFW, for the record. Without objection, I hope that can be 
done.
    I would also like to welcome Jan Scruggs, President and 
Founder of the Vietnam Memorial's memorial fund, and I look 
forward to hearing testimony on this important bill. Mr. 
Chairman, I do thank you for having a hearing on this bill.
    [The prepared statement of Mr. Young follows:]
  Prepared Statement of The Honorable Don Young, a Representative in 
             Congress From the State of Alaska, on H.R. 588
    Mr. Chairman, thank you for including my bill, the Vietnam Veterans 
Donor Acknowledgement Act, in today's hearing. I appreciate the 
Committee's attention towards this time sensitive issue.
    In 2003, Congress passed the Vietnam Veterans Memorial Visitor 
Center Act to authorize the construction of an Education Center at the 
Vietnam Wall; not a single Member voted against it. We passed this bill 
with such strong support because every year an increasing number of the 
millions of visitors to the Wall stand in awe of the moving display of 
the over 58,000 names, but do not fully understand the context and 
importance of this memorial.
    Unfortunately, the Senate tossed a wrench into the Vietnam Veterans 
Memorial Visitor Center Act by prohibiting donor recognition in the 
Education Center. In spite of this restriction, the Vietnam Veterans 
Memorial Fund has raised over $40 million from private donors. Yet, 
this amount falls far short of the funds needed to build the Education 
Center.
    Mr. Chairman, my bill, H.R. 588, is actually quite simple and it 
helps solve the fundraising problem for this Center. My bill allows for 
the Vietnam Veterans Memorial Foundation to recognize donors. 
Additionally, H.R. 588 dovetails exactly with existing Parks Service 
guidelines and ensures that donor recognition is discreet, unobtrusive, 
and does not contain any advertising or company logos.
    Mr. Chairman, it is ridiculous to force any organization to 
fundraise without the ability to recognize donors. How are they 
supposed to raise any money?!? Even the National Parks Service 
understands the importance of donor recognition. I've personally seen a 
lot of benches in National Parks all across this country that have 
plaques on them thanking people for their generous donations.
    Overall, my bill is supported by a number of Veteran Organizations 
including the Veterans of Foreign Wars (VFW), among many others. I 
would like to submit this letter of support from the VFW into the 
record.
    I would also like to welcome Jan Scruggs, President and Founder of 
the Vietnam Veterans Memorial Fund. I look forward to hearing his 
testimony on this important bill.
    Mr. Chairman, thank you again for having a hearing on this bill.
                                 ______
                                 
    Mr. Stewart. Thank you, Mr. Young. And to all the members 
of the panel, thank you. And I ask unanimous consent that Ms. 
Herrera Beutler and Mr. Jones be permitted to sit on the dais 
with us and participate in the hearing.
    [No response.]
    Mr. Stewart. Hearing no objection, then so ordered. You are 
welcome to join us.
    Our second panel we are pleased to welcome Dr. Frost and 
Mr. Scruggs. Dr. Herbert Frost is the Associate Director for 
Natural Resource Stewardship and Science at the National Park 
Service. He will provide testimony on all three bills. Mr. Jan 
Scruggs is a member--I am sorry, is President of the Vietnam 
Veterans Memorial Fund, testifying on behalf of H.R. 588.
    Your written testimony will appear in full in the hearing 
record, so I ask that you keep your oral statement to 5 
minutes. And I suppose you know the rules on this, but when you 
begin to speak a green light will come on before you. After 4 
minutes, a yellow light will appear and you should begin to 
conclude your statement. At 5 minutes a red light will appear, 
and we ask that you conclude at that time.
    We will begin with Dr. Frost, then. Sir, please begin your 
testimony only on H.R. 588.

STATEMENT OF DR. HERBERT C. FROST, ASSOCIATE DIRECTOR, NATURAL 
 RESOURCE STEWARDSHIP AND SCIENCE, NATIONAL PARK SERVICE, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Dr. Frost. Thank you, Mr. Chairman, and thank you for the 
opportunity to appear before the Subcommittee to present the 
Department of the Interior's view on this bill today. I will 
submit our full statement of this bill for the record, and 
summarize the Department's view.
    The Department supports H.R. 588, as amended, in accordance 
with our testimony. This bill would amend this legislation that 
authorized the Vietnam Veterans Memorial to allow a display of 
donors that contributed to the Memorial's visitor center. We 
strongly recommend that this legislation be broadened to 
provide a donor recognition policy for commemorative works on 
lands under the jurisdiction of the Commemorative Works Act.
    We would like to work with the Committee, the General 
Services Administration, the Commission of Fine Arts, and the 
National Capital Planning Commission on amendments to this 
bill.
    The Commemorative Works Act forbids donor acknowledgment in 
any manner as part of the commemorative work or its site. We 
believe changes to this provision should be undertaken 
thoughtfully. We believe a change of guidance related to donor 
recognition should be considered for all memorials under the 
Commemorative Works Act, rather than by individual memorial 
exception. Proposed changes should conform to all applicable 
guidelines, including, but not limited to, National Park 
Service guidelines of donor recognitions.
    We believe that the following guidelines should be 
considered: an appropriate location for the donor recognition; 
attributes of the display; whether it is a physical or a 
digital recognition; and a requirement that the donor 
recognition is temporary, and the requirement the display does 
not include any advertising slogans or company logos.
    This concludes my statements; I will be happy to take 
questions.
    [The prepared statement of Dr. Frost follows:]
Prepared Statement of Dr. Hebert C. Frost, Associate Director, Natural 
     Resource Stewardship and Science, National Park Service, U.S. 
                       Department of the Interior
  h.r. 588.--to provide for donor contribution acknowledgements to be 
  displayed at the vietnam veterans memorial visitor center, and for 
                            other purposes.
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior regarding H.R. 588, a bill to provide 
for donor contribution acknowledgements to be displayed at the Vietnam 
Veterans Memorial Visitor Center, and for other purposes.
    The Department supports H.R. 588, as amended in accordance with 
this testimony. We strongly recommend that this legislation be 
broadened to provide a donor recognition policy for commemorative works 
on lands under jurisdiction of the Commemorative Works Act (CWA). We 
would like to work with the committee, the U.S. General Services 
Administration, the U.S. Commission of Fine Arts, and the National 
Capital Planning Commission on amendments to the bill.
    H.R. 588 would amend the legislation that authorized the Vietnam 
Veterans Memorial (Pub. L. 96-297) to allow a display of donors that 
contributed to the Vietnam Veterans Memorial Visitor Center. The 
display would have to meet certain criteria and would require the 
approval of the Secretary of the Interior. This legislation is 
necessary for a display of donors to be allowed because Congress 
directed, in 
Pub. L. 108-126, that the Vietnam Veterans Memorial Visitor Center be 
constructed in accordance with the CWA (40 U.S.C. Chapter 89), and the 
CWA (40 U.S.C. 8905(b)(7)) forbids donor acknowledgement in any manner 
as part of a commemorative work or its site.
    The CWA prohibition on donor recognition helps preserve the unique 
civic character of Washington's public realm, including commemorative 
works. Memorials honor events and figures of national significance and 
are often located in prominent historic and cultural settings within 
the nation's capital. Through the design process outlined in the CWA, 
we work with Congressionally-authorized sponsors to build memorials 
that appropriately convey commemorative themes and subjects for the 
benefit of all Americans. Donor recognition at a memorial site may 
detract from the memorial's design, historic setting and narrative. For 
these reasons and to promote fairness and parity in the process, we 
believe the CWA provision prohibiting donor recognition in a permanent 
manner has merit and changes to this provision should be undertaken 
thoughtfully.
    However, the Department acknowledges the challenge of funding new 
memorials. Given the reliance of the Congressionally-authorized 
memorial sponsors on the generosity of the public in order to establish 
and construct memorials that Congress has authorized, the Department 
recognizes the importance of acknowledging large donations for 
effective fundraising, and believes that donor recognition may be 
appropriate with specific guidelines.
    To promote a uniform process for all memorial sponsors and to 
ensure a strong design review, a change of guidance related to donor 
recognition should be carefully considered more broadly for all 
memorials under the CWA rather than by individual memorial exception. 
Any proposed changes should conform to all applicable guidelines for 
donor recognition, including but not limited to National Park Service 
Director's Order #21, the National Park Service Management Policies 
2006, and the National Mall and Memorial Parks Donor Recognition Plan 
(Mall Donor Recognition Plan).
    The Mall Donor Recognition Plan, adopted in 2011, applies only to 
structures and sites that are not covered by the CWA. The plan provides 
that donor recognition must be located on the interior of a facility, 
must be temporary and non-structural, must not detract from the visitor 
experience, and must not be affixed to historic structures or museum 
collections, benches, park furnishings, bricks or plantings. The plan 
currently sets a minimum $1 million donation for such recognition, 
although we anticipate that this minimum may need to be raised over 
time.
    Should the committee consider legislation that permits recognition 
of large donations for the Vietnam Veterans Memorial Visitor Center and 
future commemorative works on lands under jurisdiction of the CWA, we 
recommend that the committee consult with the Department and the other 
agencies with responsibilities for commemorative works to develop 
appropriate guidelines for donor recognition. Other agencies to consult 
include the U.S. General Services Administration, the U.S. Commission 
of Fine Arts, and the National Capital Planning Commission.

    We believe that the following should be considered in the 
development of the guidelines for donor recognition for commemorative 
works:
    <bullet>  appropriate location for the donor recognition;
    <bullet>  attributes of the display, whether physical or digital 
(such as a discreet statement or credit acknowledging the contribution, 
appropriately scaled for the setting and the commemorative work);
    <bullet>  a requirement that the donor recognition is temporary and 
is displayed for no more than 5--10 years; and
    <bullet>  a requirement that the display does not include any 
advertising slogans or company logos.

    Should the Congress move forward with a version of H.R. 588, the 
Department believes that certain specific provisions for approval of 
donor recognition in H.R. 588, in particular, subparagraphs (D), (E), 
(F) and (G) of amended section 40 U.S.C. 8905(b)(7) (from page 3, line 
4 through page 4, line 8) are unnecessary. This approval process, as 
described, would be redundant to the approval process already required 
by the CWA for the approval of the design of a memorial, and specifies 
an approval time frame that is unworkable. The Department strongly 
supports the current process as required by the CWA by which the design 
of commemorative works and related support facilities are considered by 
the National Capital Memorial Advisory Commission, reviewed and 
approved by the Commission of Fine Arts, the National Capital Planning 
Commission and the Secretary of the Interior. The review and approval 
of donor recognition displays within the National Mall and Memorial 
Parks can be seamlessly integrated with the existing approval process 
for commemorative works because these displays would be part of the 
plan of the memorial and its site.
    The Department would be happy to assist the committee working with 
the U.S. General Services Administration, the U.S. Commission of Fine 
Arts, and the National Capital Planning Commission, in drafting 
revisions to H.R. 588 in accordance with this statement.
    Mr. Chairman, this concludes my testimony. I would be glad to 
answer any questions that you or other members of the subcommittee may 
have.
  h.r. 716.--a bill to direct the secretary of the interior to convey 
  certain federal land to the city of vancouver, washington, and for 
                             other purposes
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior regarding H.R. 716, a bill to direct the 
Secretary of the Interior to convey certain federal land to the City of 
Vancouver, Washington.
    The Department strongly opposes the enactment of this legislation. 
H.R. 716 requires the conveyance to the City of Vancouver of seven 
acres of federal land within the boundaries of Fort Vancouver National 
Historic Site, including the park's main historic hangers, 
headquarters, and munitions building. Such a conveyance threatens the 
values and resources of the National Historic Site. We believe that 
continued management of this federal land by the National Park Service 
would be the best way to ensure the protection of the park's nationally 
significant cultural resources in perpetuity and to continue to provide 
top-quality education and interpretation of its unique history.
    The federal land within the boundaries of Fort Vancouver National 
Historic Site that would be conveyed to the City of Vancouver under 
H.R. 716 includes the Pearson Air Museum complex, which contains the 
main hangar and three historic structures dating to World War I or 
before. The federal land also includes archaeological sites associated 
with the Hudson's Bay Company multi-cultural fur trade post, containing 
resources from many indigenous peoples; the early U.S. Army Vancouver 
Barracks; and early Army aviation history tied to Pearson Field. These 
seven acres would be transferred to the City of Vancouver, Washington, 
without consideration, with the City of Vancouver paying only the cost 
of conveyance.
    Removing this property from federal ownership would also remove 
federal protections under cultural resources preservation laws such as 
the National Historic Preservation Act, the Archeological Resources 
Protection Act, the Native American Graves Repatriation Act, and the 
American Indian Religious Freedom Act.
    Fort Vancouver National Monument was authorized by Congress in 1948 
and established in 1958 to preserve cultural resources associated with, 
and to tell the story of, colonial fur trading, American settlement, 
and U.S. Army history in the Pacific Northwest. In 1961, the authorized 
boundaries were expanded to include adjacent areas and the park 
designation was changed to Fort Vancouver National Historic Site. In 
1972, the National Park Service purchased a 72-acre parcel of land 
within the boundary of Fort Vancouver National Historic Site from the 
City of Vancouver, which included the Pearson Air Museum complex. While 
there are over a dozen general aviation museums in the Northwest, the 
place-based history of Pearson Field makes the Pearson Air Museum 
complex a unique nationally-significant part of Fort Vancouver National 
Historic Site.
    In 1994, the City of Vancouver and the National Park Service 
entered into a Memorandum of Agreement to allow for the development of 
a new air museum within the historic site, and the park's General 
Management Plan was amended to conform to this mutual goal. In 1995, 
the National Park Service and the City of Vancouver entered into a 
cooperative agreement for operation of the air museum on behalf of the 
National Park Service. In 2005, the City entered into a sub-agreement 
with the Fort Vancouver National Trust to operate the museum on behalf 
of the City of Vancouver.
    For several years the Trust allowed special events to occur at the 
museum site without National Park Service review and outside of federal 
policies. The National Park Service worked for several years behind the 
scenes to resolve the handling of special events, but unfortunately 
these efforts were unsuccessful. Although the National Park Service is 
held accountable for events that occur on federal property, the Trust 
stated that it did not want to be subjected to federal rules and NPS 
oversight and they approved events that were in violation of NPS laws, 
regulations, and policies. In the summer of 2012, the Trust was in the 
process of charging fees and issuing permits for several large scale, 
multi-thousand person outdoor events when the NPS determined that 
aspects of these events conflicted with NPS law and policy. The 
National Park Service offered to work directly with the applicants to 
adapt their events in order to meet NPS laws and regulations.
    Since April 2012, the NPS and the Trust have been unable to agree 
to terms of a new cooperative agreement for operation of the museum 
that would adhere to NPS regulations, laws and policies. Consequently, 
the NPS and the City of Vancouver terminated their agreement on 
February 1, 2013, which resulted in the cancellation of the sub-
agreement with the Trust. The Trust no longer operates the museum.
    Our strong opposition to this bill is grounded in the fact that 
these seven acres and their cultural resources are integral to Fort 
Vancouver National Historic Site. Removal of this land from the 
management of the National Park Service would diminish the level of 
protection afforded to this area and would diminish the integrity of 
resources, including the reconstructed fur trade post, within the rest 
of the National Historic Site that are essential to the enabling 
legislation of the park. This bill would create a non-federal area 
within the boundaries of the park. These adjacent sites would be 
managed by different entities according to different standards for 
resource protection and special events management, and would create not 
only confusion for the public but also friction in their management. 
This would likely adversely affect the resources of the surrounding 
national park areas while creating a cumulative negative impact on the 
park, its setting, and the ability of the visitor to connect with and 
understand its historical significance in totality.
    Congress entrusted the National Park Service with the care and 
stewardship of Fort Vancouver National Historic Site. Pearson Air 
Museum has been a vital and valued part of the park, and for the past 
18 years, the National Park Service has worked with partners, including 
the City of Vancouver, to ensure that the museum's resources are 
preserved and that it is open and accessible to the public. The 
National Park Service understands the goal of local residents and the 
City of Vancouver to have the museum open and we have achieved that 
shared goal. The National Park Service reopened the museum on February 
27, 2013, and has waived admission for the public. We have developed 
temporary exhibits around the theme of historic transportation in the 
region and intend to refocus the exhibits on aviation when we secure 
the necessary artifacts and exhibits. We have contacted other aviation 
museums, organizations and private owners to explore housing loaned 
aviation artifacts.
    The National Park Service is also actively working with the public 
who are interested in holding special events at the site and we have 
already issued several permits for the near future.
    We look forward to continuing to work with the City of Vancouver to 
protect these nationally-significant resources and to serve their local 
residents. To that end, we have asked the City of Vancouver to 
reinstall the exhibits that were specifically designed for this museum. 
We have made several attempts to contact City officials through letters 
and phone calls and will continue to reach out to City officials in the 
hopes that they would like to work with us to see this museum operate 
to full capacity.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer questions that you or other members of the committee might have.
 h.r. 819.--to authorize pedestrian and motorized vehicular access in 
   cape hatteras national seashore recreational area, and for other 
                                purposes
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on H.R. 819, a bill entitled ``to authorize pedestrian 
and motorized vehicular access in Cape Hatteras National Seashore 
Recreational Area, and for other purposes.''
    The Department strongly opposes H.R. 819. This bill would reinstate 
the 2007 Interim Protected Species Management Strategy (Interim 
Strategy) governing off-road vehicle (ORV) use at Cape Hatteras 
National Seashore (Seashore).
    The Department supports allowing appropriate public use and access 
at the Seashore to the greatest extent possible, while also ensuring 
protection for the Seashore's wildlife and providing a variety of 
visitor use experiences, minimizing conflicts among various users, and 
promoting the safety of all visitors. We strongly believe that the 
final ORV Management Plan/Environmental Impact Statement (EIS) and 
special regulation are accomplishing these objectives far better than 
the defunct Interim Strategy. Contrary to some reports, there is not 
now and never has been a ban on ORVs at the Seashore. The great 
majority of the beach is open to ORVs, visitation is rising, and 
tourist revenues are at record levels. At the same time, beach-nesting 
birds and sea turtles are finally showing much-needed improvements.
    The Seashore stretches for about 67 miles along three islands of 
the Outer Banks of North Carolina. It is famous for its soft sandy 
beaches, outstanding natural beauty, and dynamic coastal processes that 
create important habitats, including breeding sites for many species of 
beach-nesting birds, among them the federally listed threatened piping 
plover, the state-listed threatened gull-billed tern, and a number of 
species of concern including the common tern, least tern, black 
skimmer, and the American oystercatcher. Long a popular recreation 
destination, Cape Hatteras attracts about 2.3 million visitors a year 
who come to walk the beach, swim, sail, fish, use ORVs, and enjoy the 
ambiance of the shore. In the towns that dot the Outer Banks, a major 
tourism industry has developed to serve visitors and local beachgoers, 
including fishermen. In 2011, visitors to the three islands spent 
approximately $121 million (an increase of 13 million dollars from 
2010), and supported about 1,700 jobs.
    Under the National Park Service Organic Act, the Endangered Species 
Act, the Migratory Bird Treaty Act, the Seashore's enabling act, and 
National Park Service (NPS) regulations and policies, the NPS has an 
affirmative responsibility to conserve and protect wildlife, as well as 
the other resources and values of the Seashore. Executive Order 11644 
(1972), amended by Executive Order 11989 (1977), requires the NPS to 
issue regulations to designate specific trails and areas for ORV use 
based upon resource protection, visitor safety, and minimization of 
conflicts among uses of agency lands.
    The special regulation that went into effect on February 15, 2012, 
brings the Seashore into compliance with applicable laws, policies, and 
Executive Orders after many years of non-compliance. In addition to 
resource impacts, the approved plan addresses past inconsistent 
management of ORV use, user conflicts, and safety concerns in a 
comprehensive and consistent manner.
    The Interim Strategy was never intended to be in place over the 
long-term. When it was developed, the Seashore had no consistent 
approach to species protection and no ORV management plan or special 
regulation in place. While the Interim Strategy took an initial step 
toward establishing a science-based approach, key elements such as 
buffer distances for American oystercatchers and colonial waterbirds, 
and the lack of night driving restrictions during sea turtle nesting 
season, were inconsistent with the best available science. The 2006 
U.S. Fish and Wildlife Service (USFWS) biological opinion for the 
Interim Strategy indicated that it would cause adverse effects to 
federally listed species, but found no jeopardy to those species mainly 
because of the limited duration of implementation (expected to be no 
later than the end of 2009). Similarly, the 2007 NPS Finding of No 
Significant Impact (FONSI) for the Interim Strategy indicated the 
action had the potential to adversely impact federally listed species 
and state-listed species of concern, but found that a more detailed 
analysis (an EIS) was not needed because of the limited period of time 
that the Interim Strategy would be implemented.
    After a lawsuit was filed against the Interim Strategy, a federal 
judge entered a Consent Decree for park management. The species-
specific buffer distances and the night driving restrictions contained 
in both the Consent Decree and in the plan/EIS are based on scientific 
studies and peer-reviewed management guidelines such as the USFWS 
Piping Plover and Loggerhead Turtle Recovery Plans, and the U.S. 
Geological Survey (USGS) Open-File Report 2009-1262 (also referred to 
as the ``USGS protocols,'') on the management of species of special 
concern at the Seashore. Buffer distances for state-listed species are 
based on relevant scientific studies recommended by the North Carolina 
Wildlife Resources Commission, USFWS, and USGS.
    Under the science-based species protection measures of the Consent 
Decree, many of which are incorporated into the ORV management plan and 
special regulation, a trend of improving conditions for beach nesting 
birds and sea turtles has emerged. Although breeding success depends on 
a number of factors including weather, predation, habitat availability, 
and level of human disturbance, there has been a striking improvement 
in the condition of protected beach-nesting wildlife species. The 
Seashore has experienced a record number of piping plover pairs and 
fledged chicks, American oystercatcher fledged chicks, least tern 
nests, and improved nesting results for other species of colonial 
waterbirds. The number of piping plover breeding pairs has increased 
from an annual average of 3.6 pairs from 2000 to 2007 under the Interim 
Strategy to an average of 11.75 pairs between 2008 and 2011 under the 
Consent Decree. In 2012, the NPS documented 15 piping plover breeding 
pairs. The number of sea turtle nests also significantly increased, 
from an annual average of 77.3 from 2000 to 2007 to an average of 129 
from 2008 to 2011. In 2012, sea turtle nesting in the Seashore climbed 
to an all-time high of 222.
    Although the prescribed buffers have resulted in temporary closures 
of some popular locations when breeding activity was occurring, even at 
the peak of the breeding season there have generally been many miles of 
open beach entirely unaffected by the species protection measures. 
Under the Consent Decree from 2007 to 2011, annual visitation at the 
Seashore continued at a level similar to that of 2006 to 2007. In 2012, 
visitation increased 17 percent from 2011, and it was a 6 percent 
increase from the average visitation between 2007 and 2011. Dare 
County, where the Seashore is located, experienced record occupancy and 
meal revenues in 2012, as reported by the Outer Banks Visitor Bureau, 
despite the impacts of Hurricane Sandy that closed or substantially 
limited traffic along North Carolina Highway 12 to Hatteras Island from 
late October to late December 2012. This occupancy revenue has 
continued to climb over the last several years as follows: 2009 ($318 
million), 2012 ($330 million), 2011 ($343 million), 2012 ($382 million 
through the end of November) while meals revenue has also increased as 
follows: 2009 ($185 million), 2010 ($188 million), 2011 ($191 million), 
and 2012 ($201 million though the end of November).
    The final ORV management plan and regulation provide long-term 
guidance for the management of ORV use and the protection of affected 
wildlife species at the Seashore. The plan not only provides diverse 
visitor experience opportunities, manage ORV use in a manner 
appropriate to a unit of the National Park System, and provide a 
science-based approach to the conservation of protected wildlife 
species, but also adapts to changing conditions over the life-span of 
the plan. It includes a 5-year periodic review process that will enable 
the NPS to systematically evaluate the plan's effectiveness and make 
any necessary changes.
    During the preparation of the environmental impact statement (EIS) 
for the management plan, the NPS evaluated the potential environmental 
impacts of long-term implementation of the Interim Strategy. The 
analysis determined that if the Interim Strategy were continued into 
the future, it would result in long-term, moderate to major adverse 
impacts to piping plovers, American oystercatchers, and colonial 
waterbirds, as well as long-term, major adverse impacts to sea turtles. 
Impacts to sea turtles and three species of colonial waterbirds had the 
potential to rise to the level of ``impairment,'' which would violate 
the National Park Service Organic Act.
    Moreover, if the Interim Strategy were to be reinstated, it could 
well be counterproductive to visitor access. Under the Interim 
Strategy, popular destinations such as Cape Point and the inlet spits 
still experienced resource protection closures. Several of the beach-
nesting bird species at the Seashore may renest several times during 
the same season if eggs or very young chicks are lost, which is more 
likely when there is a higher level of human disturbance in proximity 
to nests and chicks. Under the Consent Decree, with its science-based 
buffers, there has been a noticeable reduction in the number of these 
renesting attempts for piping plovers and American oystercatchers, 
which means the duration of closures is typically shorter. Because the 
Interim Strategy allows smaller buffers and more disturbance of nests 
and chicks at these key sites, it increases the likelihood that birds 
will renest one or more time at those sites, and so even though the 
closures may seem smaller, they may be in place for a longer time than 
under the ORV plan or Consent Decree. This is even more likely to be 
the case now, because the number of nesting birds has increased 
significantly since 2007.
    The Seashore has taken steps to enhance access in areas favored by 
beach fishermen. Specifically, a bypass below Ramp 44 allows ORV access 
to the eastern side of Cape Point and areas not closed during bird 
breeding season in the event of access blockage on the beach proper, 
whether from weather and tide events or resource closures. At Hatteras 
Inlet, at the end of Hatteras Island, a trail has been created and 
maintained to allow ORV access and the ability to park closer to what 
have traditionally been preferred fishing areas. In the proximity of 
Ramp 4, a pedestrian access trail adjacent to the Oregon Inlet Fishing 
Center to provide access for fishing in the ocean for those visitors 
without ORVs. Also, as a mitigation measure with the building of the 
new Bonner Bridge project, a new access ramp will be installed at 
approximately mile 2.5 that will expedite access to the northern end of 
the park. The Seashore is also in the final stages of completing an 
Environmental Assessment titled ``Proposal to Construct New Development 
that Facilitates Public Access'' which may include additional access 
points to areas that are traditionally closed off due to resource 
closure; these will enhance the fishing/beach driving opportunities.
    In addition to reinstating the Interim Strategy, H.R. 819 provides 
authority for additional restrictions only for species listed as 
``endangered'' under the Endangered Species Act of 1973, and only for 
the shortest possible time and on the smallest possible portions of the 
Seashore. This would conflict with numerous other laws and mandates 
including the National Park Service Organic Act, the Endangered Species 
Act, the Migratory Bird Treaty Act, the Seashore's enabling act, the 
aforementioned Executive Orders, and NPS regulations implementing these 
laws, which provide for the protection of other migratory bird species 
and other park resources.
    H.R. 819 also provides that the protection of endangered species at 
Cape Hatteras shall not be greater than the restrictions in effect for 
that species at any other national seashore. Species protection 
measures cannot reasonably be compared from seashore to seashore 
without considering the specific circumstances at each site and the 
context provided by the number and variety of protected species 
involved, the levels of ORV use, and the underlying restrictions 
provided by the respective ORV management plans and special 
regulations. Even though Cape Hatteras has a wider variety of beach 
nesting wildlife species than Cape Cod or Assateague, for example, its 
plan actually allows for a much higher level of ORV use on larger 
portions of the Seashore. It would be neither reasonable nor 
biologically sound for Cape Hatteras to use less protective measures if 
they were designed for a location where the level of ORV use is much 
lower to begin with. Nor does it appear that such an arbitrary approach 
could possibly comply with the ``peer-reviewed science'' requirement 
imposed elsewhere in the bill. The Cape Hatteras plan was specifically 
designed to be effective for the circumstances at Cape Hatteras.
    The bill would require, to the maximum extent possible, that 
pedestrian and vehicle access corridors be provided around closures 
implemented to protect wildlife nesting areas. This concept was 
thoroughly considered during the preparation of the plan and EIS. The 
plan already allows for such access corridors when not in conflict with 
species protection measures. For example, under the current regulation, 
the Seashore works with the communities and has the ability to allow 
access around a turtle nest when the alternative route is between the 
nest and dunes but does not cause impairment to the existing dunes/
vegetation.
    Shorebird nesting areas are often close to the shoreline because of 
the Seashore's typically narrow beaches. A concentration of nests occur 
near the inlets and Cape Point, and access corridors cannot always be 
allowed without defeating the fundamental purpose of such closures: 
protecting wildlife. Several species of shorebirds that nest at the 
Seashore have highly mobile chicks, which can move considerable 
distances from nests to foraging sites. Inadequate resource closures in 
the past have resulted in documented cases of human-caused loss or 
abandonment of nests and chick fatalities. Corridors that cut through a 
resource closure area would essentially undermine the function of the 
closure and render it compromised or even useless.
    Finally, the final ORV management plan/EIS and special regulation 
are the products of an intensive 5-year long planning process that 
included a high level of public participation through both the National 
Environmental Policy Act (NEPA) process and negotiated rulemaking, 
including four rounds of public comment opportunities. The Negotiated 
Rulemaking Advisory Committee's function was to assist directly in the 
development of special regulations for management of ORVs and met from 
2007 to 2009. Although the committee did not reach consensus on a 
proposed regulation, it provided a valuable forum for the discussion of 
ORV management and generated useful information for the NPS. The NPS 
received more than 15,000 individual comments on the draft plan/EIS and 
more than 21,000 individual comments on the proposed special 
regulation. In completing the final ORV management plan/EIS and special 
regulation, the NPS considered all comments, weighed competing 
interests and ensured compliance with all applicable laws.
    Currently, the ORV management plan/EIS and special regulation are 
the subject of a complaint that was filed by a coalition of ORV 
organizations with the US District Court in the District of Columbia on 
February 9, 2012. The Memorandum of Order to transfer the complaint to 
the U.S. District Court of North Carolina was issued on December 23, 
2012.
    Mr. Chairman, that concludes my testimony. I would be glad to 
answer any questions that you or other members of the subcommittee may 
have.
                                 ______
                                 
    Mr. Young [presiding]. Mr. Scruggs, you are up next.

STATEMENT OF JAN D. SCRUGGS, ESQ., PRESIDENT, VIETNAM VETERANS 
                         MEMORIAL FUND

    Mr. Scruggs. Well, Mr. Chairman, members of the Committee, 
a pleasure to be here. This is really a very special day in 
which we are working to straighten out a piece of legislation 
which was not really drafted to assist us in this very 
important task.
    We are building an education center at the Vietnam Veterans 
Memorial. This is really important for the Nation. This is a 
place where service will be celebrated. This is a place where 
the photographs of our fallen heroes who died, as the 
Congressman pointed out, who gave their lives for the Federal 
Government of the United States will be displayed. Yet, when 
this legislation was written, it was crafted in such a way that 
we could not only not receive any Federal funds, but, because 
of no donor recognition, we really can't get the private funds 
to get this built. So we merely need to get this underway.
    We had very wide support back in November, ceremonial 
groundbreaking, and very happy to have Dr. Joe Biden there, the 
leadership of the House and Senate. Both parties were a part of 
this groundbreaking, the leadership of the military. There is 
just wide support for this, because this will be a place where 
the military veterans of Vietnam will be recognized. It will 
also be a place displaying the photographs of the casualties 
from Iraq and Afghanistan until they get their own memorial one 
day.
    So, we have been the greatest partners, I think, that the 
Park Service has ever had, for over 30 years. You know, right 
now I have people at the Vietnam Veterans Memorial today. They 
are going to every light there, every gasket. They are 
measuring it, they will be replacing the gaskets. We have a 
lawn service program. Four times a year we send somebody to put 
the proper chemicals on the statues there.
    There is no end to what we do. In irrigation, we have 
irrigated the site and constantly we are putting money into it. 
As a matter of fact, I just gave the National Park Service 
$150,000. This is a contract that will allow the National Park 
Service people to select the photos and some of the items that 
have been left at the Memorial. So this will be a special 
place.
    And I just want to thank everybody on the Committee for 
having us here today. It is just such a magnificent 
opportunity.
    And I really must note the support of Congressman Young of 
Alaska. I went to him to help solve this problem, and he said 
he was going to give it his best shot. And we appreciate this 
day.
    [The prepared statement of Mr. Scruggs follows:]
Prepared Statement of Jan D. Scruggs, Esq. President and Founder of the 
  Vietnam Veterans Memorial Fund, on H.R. 588, Vietnam Veterans Donor 
                      Acknowledgement Act of 2013
I. Introduction
    I am Jan Scruggs, President and Founder of the Vietnam Veterans 
Memorial Fund. I am pleased and grateful to have the opportunity to 
speak today about the Vietnam Veterans Memorial Fund's Education Center 
at the Wall (``the Education Center'') and the critical need for H.R. 
588, the Vietnam Veterans Donor Acknowledgement Act of 2013 (``H.R. 
588''). Thank you for the opportunity to explain why this legislation 
is so important to the effort to build the Education Center.
II. The Education Center at the Wall
    The Education Center at The Wall will be a place on the National 
Mall where America's military heroes' service and sacrifice will never 
be forgotten. It will be an inspirational place, where visitors leave 
yearning to learn more. The Education Center will be an ideal 
complement to The Wall in honoring those who have selflessly served the 
nation and sacrificed their lives. It will provide a more complete 
picture of these patriots--the lives they lived and the lives they 
touched. It will bring into clearer focus and personalize their level 
of sacrifice and the price that is inevitable whenever our nation goes 
to war.
    Construction of the Education Center could not be more timely. The 
Nation is in the midst of recognizing the 50th anniversary of the 
Vietnam War. More than 400 Vietnam veterans die each day--American 
heroes who will not see the Education Center come to fruition. In fact, 
if we were to begin construction TODAY, almost 300,000 Vietnam-era 
veterans would pass before completion. So, it is imperative that this 
important project remain on track.
    In addition, The Education Center will be built by veterans. VVMF 
has entered into agreements with construction contractors to ensure 
that they will make a special effort to employ Afghanistan and Iraq 
veterans in building the Education Center. This will create 800 or more 
jobs for 18 to 24 months.
III. H.R. 588--The Donor Recognition Legislation--Why It is Needed
    The enabling legislation for the Education Center mandates that it 
be privately funded. The level of private donations received or pledged 
already has been impressive--over $40 million. This includes a $3.3 
million contribution from the government of Australia that was 
presented in 2011 to VVMF by the Australian Prime Minister and more 
than $16 million in in-kind contributions.
    That, however, will not be enough to complete the job.
    The contributions thus far total about 25 percent of the amount 
needed to complete the project. While vigorous fund-raising continues 
on a daily basis, the enabling legislation includes a restriction on 
donor recognition that inhibits a more successful effort among some of 
the potentially most generous donors. Some potential donors over the 
years have given donations elsewhere because of this issue. H.R. 588 is 
intended to remove that restriction while respecting the inviolability 
of the National Mall.
    The Education Center was authorized in 2003 as ``The Vietnam 
Veterans Memorial Visitor Center'' by the 108th Congress in Title I of 
Public Law 108-126 (``the Act'').\1\ Section 204 of Title II 
(``Commemorative Works'') of the Act (40 U.S.C. Section 8905(b)(7)), 
however, included the following restriction:
---------------------------------------------------------------------------
    \1\ See ATTACHMENT (''Att'') 1--Vietnam Veterans Memorial Visitor 
Center Authorization, Public Law 108-126--NOV. 17, 2003

        DONOR CONTRIBUTIONS.--Donor contributions to commemorative 
        works \2\ shall not be acknowledged in any manner as part of 
        the commemorative work or its site.
---------------------------------------------------------------------------
    \2\ Title 40, Section 8902(a)(1) defines ``commemorative work'' as 
``. . . any statue, sculpture, memorial, plaque, inscription, or other 
structure or landscape feature, including a garden or memorial grove, 
designed to perpetuate in a permanent manner the memory of an 
individual, group, event or significant element of American history, 
except that the term does not include any such item which is located 
within the interior of the structure or which is primarily used for 
other purposes.''

    H.R. 588 lifts this restriction, but does so in a manner entirely 
consistent with National Park Service Director's Order 21: Donations 
and Fund-Raising, dated June 11, 200.\3\
---------------------------------------------------------------------------
    \3\ See Att 2--U.S. Department of the Interior, National Park 
Service, Director's Order #21: Donations and Fundraising (July 11, 
2008). This Order provides in relevant part:
    10.2 In-Park Recognition. In some cases a gift may warrant in-park 
recognition. This section describes the in-park recognition options 
available to park managers. The form of donor recognition will likely 
occur in the park's visitor center or other similar facility or 
developed area.
     In-park recognition is typically provided in the form of a credit 
line or statement of appreciation by a park. A credit line is a short, 
discrete [sic], unobtrusive statement expressing appreciation typically 
found at the end if the material or item, or on a donor recognition 
plaque.
     To maintain NPS policy that parks be free of commercialism, 
advertising and marketing slogans and taglines may not appear under any 
circumstances.
---------------------------------------------------------------------------
IV. The Donor Recognition Permitted by H.R. 588 Underscores National 
        Park Service's Understanding and Appreciation of the Importance 
        of Donor Recognition
    We understand that the National Park Service may be updating their 
guidelines on donor recognition. The fact remains that the National 
Park Service has made it clear that donor recognition is important. In 
the section of the National Park Service website on ``Partnerships'' 
and ``Donor/Partner''\4\, that conclusion is explicit:
---------------------------------------------------------------------------
    \4\ See http://www.nps.gov/partnerships/donor-partner.htm (Att 4).

---------------------------------------------------------------------------
        Why recognize donors?

        Recognizing donors is key to successful fundraising. Donor 
        recognition is actually mutual appreciation. The donors first 
        express their respect, passion and appreciation for a NPS park 
        or program in the form of their contribution. We, in turn, 
        express our appreciation to the donors for their contributions. 
        People have many causes they can support and they have made our 
        parks and programs their giving priority. They deserve our full 
        recognition and appreciation.
        NPS managers need to recognize donors for their generosity and 
        support and report on the good work made possible by their 
        donations . . . .

    The National Park Service also understands that donor recognition 
can lead to even more successful fund-raising:\5\
---------------------------------------------------------------------------
    \5\ See http://www.nps.gov/partnerships/donor-partner.htm (Att 4).

---------------------------------------------------------------------------
        Cultivating relationships through the personal touch

        In addition to simple good manners and courtesy, recognizing 
        donors in meaningful ways is an effective means of cultivating 
        stronger relationships that may lead to additional, larger 
        gifts, and stronger personal engagement. Appropriate donor 
        recognition can strengthen a sense of connection, ownership and 
        commitment between your park or program and your donors because 
        it makes the act of giving more personal and rewarding . . . .

    The donor recognition envisioned for the Education Center also is 
consistent with the concept of partnering with private sector donors to 
share in the support of our nation's parks and memorials. In times of 
limited and decreasing budgets, this partnering approach is even more 
important.
V. The Donor Recognition Permitted By H.R. 588 Follows the Model 
        Already Present on the National Mall
    The donor recognition permitted by H.R. 588 would not be unique on 
the National Mall. The donor recognition would be similar to the 
recognition on the Franklin D. Roosevelt Memorial. As with that 
memorial, the recognition permitted by H.R. 588 would be discreet, 
unobtrusive and free from advertising or company logos. More important, 
the donor recognition envisioned for the Education Center will be 
inside this underground facility and will not be visible from the 
National Mall.
    Donor recognition in this form is entirely consistent with the 
essential nature of the Education Center which will truly be a place of 
learning and reflection about the values exemplified by the lives of 
those who have served and died for our country. Any donor recognition 
would have to be in harmony with this serious and thoughtful 
environment.
VI. H.R. 588 is Supported by Key Veterans and Veterans Support Groups
    I am gratified that H.R. 588 has the full support of the Veterans 
of Foreign Wars, the American Gold Star Mothers, the Iraq and 
Afghanistan Veterans of America, the Military Order of the Purple 
Heart, and Sons and Daughters in Touch.
VII. Conclusion
    The Vietnam Veterans Memorial Fund has undertaken this unique 
project with total dedication and commitment. When the Education Center 
is completed, it will provide an opportunity for visitors from around 
the world to more fully understand and appreciate the extraordinary 
sacrifice of those who have given their lives in the nation's defense. 
Visitors will not simply read their names. They will see these patriots 
and get to know them in ways not envisioned in any other facility on 
the National Mall.
    Over the past quarter century, VVMF has spent millions of its own 
privately-raised dollars for the upkeep and maintenance in the five 
acres around the Vietnam Veterans Memorial. We will continue to take on 
these expenses to ensure that this portion of the National Mall remains 
a beautiful, inspiring place for all Americans. We have a proven track 
record of partnering with the National Park Service in a positive and 
cost effective manner. We will do no less when it comes to the 
Education Center and donor recognition.
    Notwithstanding the fundraising success achieved already for the 
Education Center, more must be done. H.R. 588 will allow us to maximize 
our fund-raising effort with major donors in a way we know will make an 
enormous difference. We need the leverage this legislation can provide 
now. As more time passes, the costs of the project will only go up, not 
down. Without doubt, H.R. 588 will move us much closer to making this 
extraordinary and worthwhile project a reality.
    On behalf of the Vietnam Veterans Memorial Fund, I thank you for 
your time and consideration, and I respectfully request your strong 
support for H.R. 588.
                                 ______
                                 
    Mr. Bishop [presiding]. I appreciate the people who have--I 
apologize for being late, I am sorry about that. I had another 
Committee I had to do an introduction in. I appreciate 
Congressman Young and Stewart for leading. Thank you for being 
here. You finished your opening statements already? My, you are 
fast. Appreciate your opening statements. You are ready for 
questions?
    Mr. Young, I will turn to you. I told you you had to wait 
your turn, and this is your turn.
    Mr. Young. OK. Thank you, Mr. Chairman. Again, I want to 
thank you for having this hearing on my bill today.
    Mr. Scruggs, I want to thank you for the work you have 
done. It is an outstanding piece of work for this Nation and 
for the Vietnam veterans that were very much maligned. And, 
unfortunately, over a period of time we find out that those 
warriors that were involved, our soldiers, are people that 
didn't volunteer for the Army, they were drafted, and they were 
actually looked down upon by the American people. And I think 
this is an attempt to really apologize.
    And the idea of a visitors center--a wall is fine, and I 
recognize that. But to explain why that wall there is what you 
are doing, and this education center and raising money without 
being recognized is hard to do. And so, I have been a big 
supporter. I was there, we broke ground for this center, and I 
again want to congratulate you.
    But my understanding, this will still be property of the 
Federal Government. It is on Federal Government land. Is that 
correct?
    Mr. Scruggs. Yes, that is correct.
    Mr. Young. And you will display photos of the soldiers, 
that will be digitized, or just actually photographs? Or how--
--
    Mr. Scruggs. Yes----
    Mr. Young. How big will those have to be? There are a lot 
of them.
    Mr. Scruggs. These will be digitized. There will be a wall 
on which these photos are displayed, approximately twice the 
size of that wall.
    Mr. Young. OK. This will produce money for the Park 
Service, correct?
    Mr. Scruggs. Yes. We estimate between $3 to $5 million, if 
not more, can be raised on an annual basis. And this has been 
certified by Ernst and Young, the big accounting firm.
    Mr. Young. OK. And this bill is time-sensitive, is that 
correct?
    Mr. Scruggs. This bill is time-sensitive, you are correct. 
And we don't need another extension, we need to get this bill 
through so we can raise the money. There are an awful lot of 
people waiting for this to be built.
    Mr. Young. The employment that would be used at the 
visitors center, will they be veterans, or will they have to go 
through the Park Service, or will you do the hiring capability? 
How will that be done?
    Mr. Scruggs. We have instructed the construction managers 
to find ways to hire unemployed military veterans from Iraq and 
Afghanistan to build this through veteran-owned companies and 
other sources. So we want this to be built by the veterans of 
Iraq and Afghanistan.
    Mr. Young. Just out of curiosity, did you include Vietnam 
veterans in this program, or are they too old?
    Mr. Scruggs. Yes, yes. Those who are still working for a 
living, like myself, yes.
    Mr. Young. Well, I am a big supporter of this legislation, 
and hopefully the Committee will move it very quickly. And then 
you have the work on the other side of the dark hole. That is 
on the other side of the aisle. And so we have to keep pursuing 
this, and making sure it is done.
    Mr. Frost, I know you want to broaden this. You make 
suggestions. Again, you heard Mr. Scruggs say that this is a 
time-sensitive bill, and I don't want this thing to get bogged 
down. I suggest, respectfully, that you can come back to us 
later on and maybe we will move another bill. But this is 
really for the Vietnam education center, that is my suggestion. 
Don't push that too hard. I am being nice to the Park Service 
today, one of the few times in my life.
    Dr. Frost. We appreciate it.
    Mr. Young. Yes, good, because I am not happy with some of 
the conduct out of your realm of how the Park Service has never 
considered people as part of the parks. It has always been, 
``We are the government, you do as we tell you to do and shut 
up.'' And I have seen this in Alaska over and over and over 
again.
    And I am going to introduce legislation that we take over 
the management of the parks, because they are not managing the 
parks. They just have their little visitor--the Yukon Charley 
has 9 million acres of land. They use 100 acres of that land as 
a footprint. And none of the Alaskans can go into that park 
without asking the Park Service first. And I am saying, ``Come 
on. That is wrong.''
    That is not your problem, I just want you to know I want 
those people to hear this. The Park Service is badly managed 
with an arrogance you cannot believe. And I think that is not 
the right way to go. And I am glad to see you are working with 
Mr. Scruggs. I ask you to continue to do that. That is your 
role. And make sure this system is developed, this visitors 
center is finished. And with that you will be in my good graces 
for about 2 seconds. But that is long enough, believe me. I 
yield back.
    Mr. Bishop. Thank you. We let him go first because he has 
the best attitude toward you of anyone on the panel.
    [Laughter.]
    Mr. Bishop. The gentlelady from Guam.
    Ms. Bordallo. Thank you. Thank you, Mr. Chairman and 
Ranking Member Grijalva.
    I am a member of the House Armed Services Committee and a 
cosponsor of this bill. And I stand firm in recognizing the 
commitments and the sacrifices made by our soldiers. I want to 
thank Congressman Young for introducing this legislation. We 
have many veterans organizations on Guam, which I represent, 
and one of the most active is the Vietnam veterans 
organization.
    The education center under the Vietnam Veterans Memorial 
Wall would be a fitting testament to the soldiers who have 
given their lives to protect our country. And I just have a few 
questions for you, Mr. Scruggs. Can you describe the 
cooperation partnership between the Vietnam Veterans Memorial 
Fund and the National Park Service over the past decade?
    Mr. Scruggs. Over the past decade and over the past three 
decades, it has been a good and fruitful partnership. We have 
always been able to work things out, which is why the current 
desire to change this bill is incorrect. We have ways of 
working with the Park Service to get this donor recognition 
done. So we don't need to change this bill. It is very well 
written.
    Ms. Bordallo. Thank you. H.R. 588 calls for donor 
recognition. And I have to agree with Mr. Young. Donors 
normally like to be recognized. Sometimes there are cases where 
they do not want to be recognized. But, all in all, it is a 
nice thing to recognize the donors. So, this bill calls for the 
recognition to be done in a manner consistent with existing 
National Park Service guidelines. Do you anticipate any 
challenges or obstacles that would hinder your ability to work 
cooperatively with the National Park Service on this particular 
topic?
    Mr. Scruggs. No. As written, this legislation solves a 
problem that was created 10 years ago.
    Ms. Bordallo. And then my last question is can you explain 
how the education center will have an impact on villages--where 
I come from--and cities in my district?
    Mr. Scruggs. You see, the magnificent idea behind this is 
that when people go back to Guam or to Maui, which is very near 
you----
    Ms. Bordallo. That is right.
    Mr. Scruggs [continuing]. By the way, we have now all the 
photographs of the casualties from Maui. When they go back to 
their village, they will have to do one thing. In order to 
honor one of the casualties from Guam, they will have to do 
four hours of volunteer work. It can be at a church, it can be 
at a synagogue, it can be at a community center. So, when they 
come back to Guam, this will be about Guam, not about something 
in Washington, D.C.
    Ms. Bordallo. Now you mentioned you have a list of 
casualties from Maui----
    Mr. Scruggs. Yes.
    Ms. Bordallo [continuing]. From the State of Hawaii. Do you 
have that list from Guam?
    Mr. Scruggs. We have the list, and we have about a third of 
them. So we need some more help to get the rest. They----
    Ms. Bordallo. Good. You let my office know if you need any 
assistance in that area.
    Mr. Scruggs. Very nice, yes.
    Ms. Bordallo. All right. And again, many thanks to 
Congressman Young. I appreciate this bill. All right. And I 
yield back my time, Mr. Chairman.
    Mr. Bishop. Thank you. Ms. Herrera Beutler, do you have any 
questions on this bill?
    Ms. Herrera Beutler. I don't.
    Mr. Bishop. Ms. Hanabusa, on this bill?
    Ms. Hanabusa. Mr. Chair, I just have a short statement.
    Mr. Bishop. Please.
    Ms. Hanabusa. First of all, I am a spouse of a Vietnam 
veteran. And I would also like to join my colleague from Guam 
for thanking Mr. Young for allowing me to be a original 
cosponsor. And, Mr. Chair, I believe that this is a bill that 
has bipartisan strong support, and one that I would like to see 
that we will all move out of this Committee. Thank you, Mr. 
Chair.
    Mr. Bishop. Thank you. Mr. Horsford, on this bill?
    Mr. Horsford. No, Mr. Chairman, other than I would like to 
respectfully ask Mr. Young if I could sign on as a cosponsor.
    Mr. Young. You got it.
    Mr. Bishop. That easy? Isn't there cash involved or 
something?
    [Laughter.]
    Mr. Bishop. I think I saw your two nameplates in the other 
committee, as well, so thank you for being here.
    Ms. Shea-Porter, to this bill?
    Ms. Shea-Porter. Yes. I just wanted to thank you for 
bringing this up. I am the spouse of a Vietnam-era veteran, and 
I recall the era quite well. And I think doing this and doing 
it quickly now is appropriate, and I want to thank everybody 
for working in a bipartisan manner to honor the men and women.
    Mr. Bishop. Thank you. Mr. Ranking Member Grijalva?
    Mr. Grijalva. Just to thank Mr. Young, although the 
accolades are flowing today. Thank you very much for the 
legislation. Also, I think it is very important. At MLK and the 
Roosevelt Memorials, the donors are recognized. And I think 
that this should be OK. And I agree with Mr. Young, it needs to 
be expedited.
    From that Vietnam era, when my friends came back from 
service, they were treated as though they were the villains and 
they were the ones responsible for this war, not the 
policymakers. Thank God that has changed with time, and the 
warrior is acknowledged for his service. We debate the policy, 
but never the warrior any more.
    And I think this visitors center is very important. That 
war dictated many things in this country, not just the war. And 
to have that center there is important, because it is part of 
the redemption of treating these Vietnam veterans as they 
should have been treated when they first came home.
    So thank you very much. And the legislation is a good one, 
and needs to be expedited. I yield back.
    Mr. Bishop. Thank you. Are there any further questions for 
this panel?
    [No response.]
    Mr. Bishop. If not, we thank you for your presence here and 
your testimony. Thank Congressman Young for the bill, as well 
as helping out, sitting in, getting us started. I appreciate 
that.
    Mr. Scruggs, if you would like to stay, you are welcome to. 
Personally, I can't think of a reason why you would want to.
    [Laughter.]
    Mr. Bishop. But you can, if you would like to. We would 
like to ask Mr. Strahan if he would come up and join the panel. 
Mr. Frost, if you would stay, I would be appreciative of that.
    We will now go into House Bill 716, introduced by the 
gentlelady from Washington.
    Mr. Strahan, if you have a comment?
    Mr. Strahan. I do.
    Mr. Bishop. Thank you. You are, as I understand, the 
President of the Fort Vancouver National Trust.
    Mr. Strahan. Yes, I am.
    Mr. Bishop. You are recognize for 5 minutes for any kind of 
oral comments you have. Your written statement will be part of 
the record.

        STATEMENT OF ELSON STRAHAN, PRESIDENT AND CEO, 
                 FORT VANCOUVER NATIONAL TRUST

    Mr. Strahan. Thank you. Good morning, Chairman Bishop, 
Ranking Member Grijalva, and members of the Subcommittee. Thank 
you for inviting me to testify.
    I am here today to ask for your help to save the Pearson 
Air Museum. I work for the Fort Vancouver National Trust, which 
operated the museum on behalf of the City of Vancouver, 
Washington. Eighteen years ago, using community funds and city 
support--yes?
    Mr. Bishop. Can I interrupt you for a second? Is your mic 
on?
    Mr. Strahan. I have a green light.
    Mr. Bishop. Yes. Can you pull it closer to your mouth? It 
is hard to hear. Thank you.
    Mr. Strahan. OK. Eighteen years ago, using community 
funding and city support, the City of Vancouver built the 
museum on the corner of a larger area owned by the National 
Park Service. And therefore, the city's development and 
operation of the museum was guided by a cooperative agreement 
with the National Park Service.
    Until last month, the air museum was packed with classic 
planes, aviation exhibits, and hands-on simulators. With the 
help of community volunteers who had contributed over 5,000 
hours each year, it excelled in delivering programs designed to 
inspire and to educate about the golden age of aviation. It was 
a first-class air museum.
    Between general visitation, our educational programs and 
events, the museum had over 30,000 visitors a year. We hosted 
over 100 local community events annually at the museum. We 
believe that because the community built and funded the museum, 
the doors should be open and accessible to everyone in the 
community for special events like church picnics and benefit 
concerts for military families and our veterans, and for many 
area nonprofits.
    By making it available at low rental rates, we were also 
able to sustain operations. In fact, since the museum opened 
its doors in 1995, it has operated using a sustainability model 
with the purpose of independently supporting operations and 
educational programs without Federal funds.
    In February, the Park Service terminated the cooperative 
agreement and assumed control of the museum. We were given less 
than 48 hours notice to turn over the keys and alarm codes. 
Because we would not simply turn over to the NPS the exhibits 
we owned, or those on loan for which we had stewardship 
responsibility, we were effectively forced to vacate, leaving 
the museum empty.
    The NPS's termination was based on what appeared, from my 
perspective, to be arbitrary grounds. The community's 
partnership to operate the museum that had worked so well for 
so long was suddenly fraught with problems. For over a year we 
tried to work through all of the issues raised by NPS in order 
to save the museum ourselves. Our attempts failed.
    I understand that the Park Service must follow its own 
rules as it interprets them. But as my written comments 
reflect, the Park Service appears to be applying its rules 
inconsistently. They have characterized our permitting of an 
outdoor benefit concert for veterans and an annual community 
picnic for churches as violation of those regulations.
    All I can tell you is that events like these have been 
occurring at Fort Vancouver for many, many years. The Park 
Service was aware of and permitted them, such as Independence 
Day, with more than 35,000 attendees. In fact, the NPS even 
hosts events such as these, like the annual National Cross 
Country Championship, that draws hundreds of runners and has a 
severe impact on the grounds. Accordingly, NPS's new approach 
for events at Pearson is simply not right.
    The Trust has established a record of caring for historic 
properties, as the entire site, including city property, is on 
the Historic Register. In fact, my organization is already 
responsible for caring for the oldest building on the reserve, 
the city-owned Grant House, constructed in 1850, as well as the 
Marshall and O.O. Howard Houses, and all of Officers Row.
    We understand very well the importance of preserving and 
the standards for preserving our Nation's historic treasures. 
The community response to the loss of the museum has been 
stunning: protests, petitions, letters to the editor, op eds, 
and editorials from our city's daily newspaper calling on the 
Park Service to return the museum to the community which has 
built and sustained the asset. Today, the museum is no longer 
the vibrant air museum it once was.
    Included with my written statement are photographs that 
reflect that change. I have also included the maps of the area 
that provide a sense of the urban setting and location of the 
museum. The City and the Trust are ready to restore the museum 
to what it once was before the Park Service took it over: a 
valuable, community resource that could be operated without 
Federal funding. To do that we ask for your help in supporting 
H.R. 716. Thank you.
    [The prepared statement of Mr. Strahan follows:]
   Prepared Statement of Elson Strahan, President and CEO, Vancouver 
National Historic Reserve Trust, dba Fort Vancouver National Trust, on 
                                H.R. 716
I. Introduction
    Chairman Bishop, Ranking Member Grijalva, and Members of the 
Subcommittee, thank you for inviting me to testify. I am here today to 
ask for your help to save the Pearson Air Museum. I work for the Fort 
Vancouver National Trust, which operated the air museum on behalf of 
the City of Vancouver. Eighteen years ago, using community funding and 
city support, the City of Vancouver built the Pearson Air Museum 
adjacent to Pearson Airfield, a city-owned airport that is one of the 
oldest operating airfields in the United States. The air museum itself 
was built on the corner of a larger area that is owned by the National 
Park Service (``NPS''), and therefore the City's development and 
operation of the museum, on NPS grounds, was guided by a cooperative 
agreement.
    Until last month, the Pearson Air Museum was packed with dozens of 
classic planes, models, and hands-on flight simulators. It made lasting 
impressions on the over 30,000 people each year who came to visit, and 
with the help of community volunteers, it excelled at delivering 
educational programs designed to inspire and educate about the Golden 
Age of Aviation. The museum hosted after-school programs, summer camps, 
provided specialized tours for the deaf and blind, and used cutting 
edge approaches to teach aviation history in a way that also equipped 
students with Science, Technology, Engineering, and Mathematics (STEM) 
based, real life skills. It was a first class air museum, offered at a 
minimal cost.
    The Pearson Air Museum also hosted over 100 local community events 
annually. We believed that since the community built and funded the 
museum, the doors should be open to everyone for special community 
events--for example, benefit concerts for the military, church picnics, 
weddings and proms. By opening the doors of the museum to the 
community, at low rental rates, we were also able to sustain 
operations. Since the museum opened its doors in 1995, it has operated 
using a sustainability model with the purpose of independently 
supporting operations and educational programs without federal funds.
    Last month, Pearson Air Museum was vacated. We did not take that 
step lightly, but did so only because the NPS terminated the 
longstanding cooperative agreement that had been expected to last well 
into the next decade. NPS's termination was based on what appeared, 
frankly, to be arbitrary grounds. The community's partnership to 
operate the museum that had worked so well, for so long, was suddenly 
fraught with new problems. For over a year we tried to work through all 
the issues raised by the NPS in order to save the museum ourselves. Our 
attempts failed.
    Today, I am here to ask you to support H.R. 716. It will save the 
Pearson Air Museum by directing the Secretary of the Interior to convey 
the seven-acre air museum complex to the City of Vancouver. Our 
community is ready to restore the museum to what it once was. To do 
that, we ask for your help.
II. History of the Pearson Air Museum Complex
    The National Park Service property that is the subject of H.R. 716 
was originally owned by the City of Vancouver. In 1972, the City sold 
the NPS 72 acres of airfield property for $7,562 an acre, including the 
seven-acre parcel on which the Pearson Air Museum complex currently 
sits. This was motivated, in part, to allow the City to move active 
airport operations further away from the NPS's reconstruction of 
historic Fort Vancouver.
    The Pearson Air Museum complex, as it stands today, was developed 
in 1995, pursuant to a cooperative agreement between the City and the 
NPS. The NPS gave the community permission to build the air museum on a 
small parcel of NPS's larger historic site that was adjacent to the 
city-owned, and also historic, Pearson Airfield. The cooperative 
agreement expressly provided that the contract was ``to reflect the 
relationship between the Fort Vancouver National Historic Site and the 
City because the principal purpose of the relationship is to carry out 
a public purpose . . . rather than to acquire property or services for 
the direct benefit of the United States Government.'' The cooperative 
agreement was drafted to remain in effect until at least 2025, with 
renewals thereafter. In reliance on the cooperative agreement, the City 
and the community raised $4.2 million for capital investment in the 
museum complex.
    In 1996, Congress formally incorporated the larger 366-acre 
Vancouver National Historic Reserve, which the community refers to as 
the Fort Vancouver National Site, as a partnership between the NPS and 
the City of Vancouver. This included the Jack Murdock Aviation Center, 
the seven-acre complex on which the Pearson Air Museum hangars are 
located. A copy of that legislation is included in your materials. You 
will also find an aerial photo of the Reserve and a site map.
    For approximately 10 years, the Pearson Air Museum was managed and 
operated on behalf of the City by The Pearson Field Historical Society. 
In 2005, my organization, the Fort Vancouver National Trust, assumed 
this responsibility. Since 2005 there has been a minimum $2 million 
operating investment by the Trust and the City, and similar operational 
support was provided through the Pearson Society and City from 1995 
until 2005. I estimate the total community investments in the Pearson 
Air Museum to be well over $8 million, inclusive of initial capital 
contributions and operational support since the museum complex was 
developed. Over these past 18 years, the NPS has contributed negligible 
capital and operational support to the museum.
    The Pearson Air Museum's exhibits, including planes, were owned by 
the Trust or were on loan to the Trust by the local aviation community. 
The Trust's annual budget for Museum operations and educational 
programs was over $300,000. This capital commitment was augmented by 
our more than 35 community volunteers who contribute more than 5,000 
hours each year.
III. Education and Community Events at the Pearson Air Museum
    The Trust viewed its investment in the museum complex as mission 
driven for educational programs, and we have been extremely successful 
in developing a community asset that inspires and educates about the 
Golden Age of Aviation while equipping students with skills for their 
future. For example, we have worked with the regional high schools and 
other educational partners to provide cutting edge STEM (Science, 
Technology, Engineering and Math) curriculum that is steeped in history 
as part of a Careers in Aerospace program; established a partnership 
with Air Science Kids for their after-school program; developed a 
series of week-long aviation summer camps; created specialized tours 
for the Washington State School for the Blind and School for the Deaf, 
which are both located in Vancouver; and initiated an Aviation Merit 
Badge program for the Boy Scouts of America. A list of many of the 
programs developed, partnerships forged, and assets secured is included 
in your attachments.
    Since the Museum opened its doors in 1995, events were incorporated 
into a sustainability model to help support operations and educational 
programs. Each year, we facilitated over 100 community events, and we 
believe that since the community contributed the capital to build and 
operate the museum complex, the community should be able to utilize and 
enjoy the facilities through special events as well as general 
visitation. In fact, because of our low rental rates, the museum has 
been a primary event site for nonprofits such as the YWCA, Northwest 
Association of Blind Athletes, Southwest Washington Medical Center 
Foundation, March of Dimes, Rotary Foundation, Multiple Sclerosis 
Society, and the Chamber of Commerce, to name just a few.
IV. Loss of the Museum
    In early February, the NPS Superintendent Tracy Fortmann issued a 
letter to the City and the Trust that NPS was terminating the 
cooperative agreement, and the Superintendent announced that her staff 
would be assuming control of the Pearson Air Museum. The Trust was 
given less than 48 hours' notice to turn over keys and alarm codes. 
Because we could not simply turn over to a third party our exhibits and 
those on loan from generous donors for which the Trust had stewardship 
responsibility, we were effectively forced to vacate, leaving the 
museum empty. Today, the Pearson Air Museum contains some new NPS-owned 
exhibits--a boat, a tractor, a steam powered car--but it is no longer 
the air museum it once was. Included with my statement are photographs 
that reflect the change.
    The community response to the loss of the Pearson Air Museum has 
been stunning: protests, signs in the windows of local businesses, 
editorials and letters to the editor calling for transfer of the museum 
from the NPS to the City, children collecting signatures to send to 
their federal and local representatives. If you Google, ``Save Pearson 
Air Museum'' you will find postings that reflect the real sense of loss 
by the community.
    It is very disappointing that it came to this. While the 
partnership between the NPS, the City and the Trust was successful for 
many years, the relationship between the NPS and the Trust recently 
began to inexplicably deteriorate, and the Trust's Executive Committee 
could not understand why.
    Our Executive Committee flew to San Francisco to meet with Chris 
Lehnertz, the NPS Pacific West Regional Director, seeking to re-
establish a positive relationship. It was not a successful effort. The 
Regional Director told us that NPS regulations are the same for all NPS 
parks and that our site is no different than Yellowstone in this 
respect. The Director also told us that under those regulations the 
Superintendent was to have unilateral control of anything on NPS land. 
We understand the NPS must follow its own rules, as it interprets them; 
however, the position that the NPS has expressed with regard to the 
Pearson Air Museum will not work well for our community.
    During the discussion that led up to the termination of the 
cooperative agreement, we were asked to sign a new agreement that, 
among other provisions, would have required:

    <bullet>  The transfer of ownership and management of the Trust's 
collections and exhibits to the NPS.
    <bullet>  The Trust to agree to submit to the unilateral authority 
of the NPS Superintendent over all programs, activities and events.
    <bullet>  Current relationships and agreements the Trust had with 
education partners would be transferred to NPS management, and the NPS 
would also prohibit the Trust from entering into any other agreements 
with education partners.
    <bullet>  NPS authorization of all of the more than 100 events 
inside and outside the museum complex with very restrictive criteria 
for approvals.
    <bullet>  NPS approval of all Trust income and expenditures 
associated with the museum complex, even though the NPS would bear no 
financial responsibility for operational or capital support for the 
museum complex.

    A primary justification for the NPS termination of the current 
agreement was an assertion that the Trust was not acting in accordance 
with NPS laws and regulations because the Trust had approved certain 
events that the Park Service deemed inappropriate for the museum 
complex. These include an All Church Picnic, a USO benefit concert, and 
a benefit concert for veterans called the Night of the Patriot. In 
addition to being wonderful community events, we believed that they 
were especially well suited to the site because many of our area 
churches originated at Fort Vancouver and the Army had been on the site 
from 1849 until last year. The NPS effectively prohibited these outdoor 
events by imposing so many restrictions that they were no longer 
feasible to hold as planned. The determination by the NPS that these 
events were unsuitable for the site was perplexing to me, as events 
comparable to those being denied have been held since the museum opened 
in 1995 and elsewhere on NPS property.
    For example, one reason that a church picnic and the two benefit 
concerts were not allowed was because amplified music was deemed by the 
NPS to interfere with the tranquility of the site. The Reserve is in 
the middle of the City, and a highway, a freeway, and a rail line 
border the site. It is under the flight path of the nearby Portland 
International Airport and, of course, there is an active airfield on 
the site which has a runway that is parallel to the entire length of 
the Fort palisade. It is a wonderful gathering place, but it is far 
from tranquil.
    Further, the All Church Picnic, which is a community picnic that 
brings together church members from across the county, had been held 
successfully at the Museum site for the three previous summers. Last 
summer, the Chief Historian at the park suddenly informed picnic 
organizers that their event lacked a meaningful association with the 
park (where a number of the earliest churches in the Northwest were 
established) and effectively denied the event, forcing it to be 
canceled. This struck us as curious, since NPS had itself permitted 
other church events, with music, on its grounds.
    For many years the NPS has permitted Fourth of July celebrations to 
occur at the Reserve that draw 35,000 people, feature bands, amplified 
music, fireworks, and all of the types of activities that one would 
expect to find at an urban park. The NPS has also recruited and 
permitted a National Cross Country Championship on its property for the 
past 3 years, which last Fall involved driving some 500 metal ``T'' and 
flag string posts into the ground throughout the park to mark the 
course. At the same time the NPS has recently applied what has seemed 
like a very different set of standards to events proposed by the local 
community--raising concerns about ``archeological sensitivities'' of 
the grounds, amplified music, tranquility, and the number of community 
attendees--and in the last year, the NPS's permitting practices caused 
a number of long running, successful community events to be canceled.
    These are just a few examples that highlight what many in the local 
community believe to be are the contradictory, subjective, and 
arbitrary application of the NPS's regulations to events at the Pearson 
Air Museum over the past year. From our perspective, the new found 
concerns about long-running events seemed more like a justification to 
terminate the cooperative agreement and assume federal control of the 
air museum, than an even-handed application of the permitting policies 
that the NPS is entrusted to enforce.
V. Conclusion
    The Pearson Air Museum's exhibits are now in storage hangars at the 
nearby city-owned airfield and our museum staff, volunteers, and 
community members are working diligently to save the museum. H.R. 716 
gives us hope.
    In their film series, Ken Burns and Dayton Duncan asserted that the 
creation of our National Parks was ``America's best idea,'' and I 
agree. A primary focus of their film was on our natural resource parks, 
with their unsurpassed grandeur. Indeed, it is from these National 
Parks that many of the regulations governing use of our National Parks 
were created, and therein lies part of the challenge confronting our 
community. What H.R. 716 accomplishes is that it relieves the NPS of 
its regulatory burdens that appear to be preventing it from allowing 
the museum to flourish, as it had done for so many years.
    This legislation will save the Pearson Air Museum by directing the 
Secretary of the Interior to convey the seven-acre air museum complex 
to the City of Vancouver. Our community is ready to restore the museum 
so that it can continue to provide the educational programming and 
services on which the community has come to rely.
    Accordingly, the Trust and the City of Vancouver ask you to support 
H.R. 716.
                                 ______
                                 
                       Letter From Elson Strahan
                     Fort Vancouver National Trust,
                                     Vancouver, Washington,
                                                    March 19, 2013.
The Honorable Doc Hastings,
Chairman,
House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

The Honorable Edward J. Markey,
Ranking Member,
House Committee on Natural Resources,
1329 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Hastings and Ranking Member Markey:

    I appreciated the opportunity to testify in support of H.R. 716 
before the House Subcommittee on Public Lands and Environmental 
Regulation on March 14, 2013. Chairman Bishop and Ranking Member 
Grijalva, as well as the other members of the committee, were very 
thorough in their review of this proposed legislation. The bill would 
direct the Secretary of the Interior to convey the Pearson Aviation 
Museum complex, including the main and historic hangars, headquarters, 
and munitions building, and the approximately 7-acre complex site to 
the city of Vancouver, Washington. This correspondence is supplemental 
to the written testimony I submitted for the hearing.
    Although we were not surprised that the National Park Service 
opposes this legislation, I was quite surprised by the erroneous 
statements made by the NPS representative, Dr. Herbert Frost, in both 
his written and oral testimony. Dr. Frost indicated that removal of 
this land from the management of the National Park Service would 
diminish the level of protection afforded to this area and would 
diminish the integrity of resources. However, this site has in fact has 
been under City and Trust management since the community developed the 
museum complex 18 years ago. He also stated that this bill would create 
a non-Federal area within the boundaries of the park and that this 
presented a challenge because the City-owned and NPS-owned adjacent 
sites would be managed by different entities according to different 
standards for resource protection and special events management.
    While the transfer of the Pearson Air Museum property to the City 
would result in different entities owning and managing different 
properties, this would not be a new circumstance. The city of Vancouver 
owns Officers Row, the West Barracks, the Pearson Airport complex, and 
half of the Pearson Field runway, as well as Old Apple Tree Park, the 
Water Resources Education Center and adjoining wetlands. The Fort 
Vancouver National Trust has had a master lease to develop and manage 
Officers Row and the West Barracks, and also managed the Pearson Air 
Museum Complex on behalf of the City.
    The ``Omnibus Parks and Public Lands Management of 1966'' 
established the boundaries of the 366-acre Vancouver National Historic 
Reserve, which includes both National Park Service and city of 
Vancouver property. Thus, while H.R. 716 would create a non-Federal 
area within the boundaries of the federally incorporated Reserve, this 
is not a new development as the City already owns substantial portions 
of historic properties within the Reserve and through the incorporation 
of City and National Park properties as a National Historic Reserve the 
City has subjected itself to Federal standards, as well as parallel 
Washington State standards enforced through the Washington State 
Department of Archeology and Historic Preservation.
    I have attached a copy of a map showing the property ownership on 
the site as well as a more detailed site map. The total area 
incorporated within the footprint of the Reserve created by Federal 
legislation is under the protection of Federal standards.
    The Omnibus legislation provides that the Reserve is to be 
administered through a general management plan. In that adopted plan 
the City and the NPS stipulated that, while the different parts of the 
Reserve are managed pursuant to the laws of the respective authorities, 
for management purposes they have the same goals. All the land within 
the Reserve boundary is on the National Register of Historic Places and 
the City agreed that the management of their properties will be in 
accordance with the Secretary of the Interior's Standards and 
Guidelines for Archeology and Historic Preservation and the Directors 
Order No. 28, National Park Service Cultural Resources Management 
Guideline 1998. The City also agreed with the NPS that a principal goal 
of managing the area is ``Preservation of historic structures, physical 
assets, and cultural landscapes. ``
    Further, through a memorandum of agreement, the City has stipulated 
that the National Park Service is the designated the lead agency for 
the purposes of National Historic Preservation Act (NHPA) Section 106 
undertakings proposed by the City on City-owned or managed property 
within the Reserve. More specifically, the City has designated the 
Superintendent of the Fort Vancouver National Historic Site as the lead 
agency official with the legal responsibility for compliance with the 
Federal historic preservation and archeology regulations, which the 
Reserve legislation contemplated and to which the City has agreed, and 
which is compliant with 36 CFR 800: Protection of Historic Properties, 
which states: ``The agency official may be a State, local, or tribal 
government official who has been delegated legal responsibility for 
compliance with section 106 in accordance with Federal law.''
    Not only are the City and the Trust committed to respecting these 
properties in accordance with the Federal standards, we are bound by 
them. Within the perimeter of the Reserve all property is protected 
regardless of ownership. We have many examples to illustrate how the 
NPS, as the site's cultural resources expert, is routinely called upon 
by the City and the Trust whenever a proverbial shovel goes in the 
ground, or the historic fabric of a building is in need of repair or 
replacement.
    During his oral testimony, Dr. Frost also stated that the air 
museum property is adjacent to a Native American burial ground. This is 
also not true. The cemetery to which Dr. Frost refers is the cemetery 
established during the development of the Hudson's Bay Company 
operations and records do indicate that Native Americans and Native 
Hawaiians were buried in this cemetery.
    However, the cemetery is nowhere near the air museum grounds and is 
instead on the opposite end of the site in the East Barracks, which was 
recently transferred from the Army to the NPS. I have attached a map 
prepared by the National Park Service showing that the Hudson's Bay 
Cemetery boundary within the East Barracks, mapped through a joint 
NPS--U.S. Army survey from 2000 to 2003.
    I appreciate that the Cowlitz Indian Tribe and the Yakama Nation 
are understandably concerned by the written and oral testimony offered 
by Dr. Frost on behalf of the National Park Service indicating that the 
Federal protections would be removed if the air museum site was 
transferred to the City and that the air museum property is next to the 
Hudson's Bay Cemetery.

    Unfortunately, both assertions are gross misrepresentations of the 
facts.

    Furthermore, beyond the required compliance of the City already 
noted above, there are other controlling Federal regulations that 
provide the site protection of cultural resources associated with City-
owned property:

        <bullet> The American Indian Religious Freedom Act of 1978 
        requires all governmental agencies, including the City, ``to 
        eliminate interference with the free exercise of Native 
        religion.''
        <bullet> Under the Native American Graves Protection and 
        Repatriation Act of 1990, both Federal lands and private lands 
        that receive Federal funds are subject to NAGPRA. The Pearson 
        Air Museum did receive a $325,000 Federal appropriation and the 
        site is therefore subject to NAGPRA. Further, the City receives 
        multiple Federal funds and according to NAGPRA any local 
        government that receives Federal funds is automatically subject 
        to NAGPRA.
        <bullet> With respect to the Archeological Resources Protection 
        Act of 1979, since the City is already subject to section 106 
        of the NHPA the City is in compliance with the ARPA.

    Some of the erroneous information contained in Dr. Frost's written 
testimony was corrected during the hearing, but it is important to 
correct the written record so there is absolutely no confusion about 
the fact that the transfer of the museum property from the Park Service 
to the City will not compromise its protection under Federal standards 
and that the site is in fact not adjacent to Native ancestral remains, 
which are in a cemetery located in the East Barracks on the opposite 
side of the historic site, and owned by the National Park Service.
    Thank you for your consideration.
            Sincerely,
                                             Elson Strahan,
                                                 President and CEO.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
          Questions Submitted for the Record to Elson Strahan
     Questions Submitted for the Record by The Honorable Rob Bishop
    Question. What are the gross revenues from rental of the Pearson 
Air Museum for 2009, 2010, and 2011? Also, what are the gross revenues 
from the sale of items at the bookstore?
    Answer. Below are the gross and net rental revenues for the Pearson 
Air Museum. As we have finalized our numbers for 2012 I have also 
included this information. In addition, I am not only providing you 
with our gross retail revenues, I have also included the retail 
revenues net of cost of goods sold for the bookstore.

------------------------------------------------------------------------
     Pearson Air Museum          2009       2010       2011       2012
------------------------------------------------------------------------
Rental Revenue                  $82,400    $82,545    $83,778    $90,677
Expenses--Event Manager,        $68,510    $69,802    $77,335    $69,098
 Labor, Janitorial, Other
                             -------------------------------------------
Net Revenue                     $13,890    $12,743     $6,443    $21,579
------------------------------------------------------------------------

    Expenses include our events manager, who also assisted with 
staffing the Museum and working with our volunteers. This position, 
plus all of our other event related expenses, are not only fully 
covered through our rentals, but we also capture some excess revenue to 
help support Museum operations and education programs.
    As I noted in my testimony before the Subcommittee, since the 
Museum opened its doors in 1995, space rental was incorporated into a 
sustainability model as we hosted over 100 local community events each 
year. We believed that since the community contributed the capital to 
build and operate the museum complex, the community should be able to 
utilize and enjoy the facilities through special events as well as 
general visitation.
    Because of our comparatively low rental rates as contrasted with 
commercial venues, the museum has been a primary event site for 
nonprofits such as the YWCA, Northwest Association of Blind Athletes, 
Southwest Washington Medical Center Foundation, March of Dimes, Rotary 
Foundation, Multiple Sclerosis Society, and the Chamber of Commerce, to 
name just a few. However, as you will note with respect to our net 
revenue, events were certainly not our primary source of income. Events 
also provided the added benefit of introducing the Museum to guests who 
were part of our over 35,000 visitors each year, and we work to turn 
these event attendees in to general visitors, participants in our 
education programs, and donors.

------------------------------------------------------------------------
     Pearson Air Museum          2009       2010       2011       2012
------------------------------------------------------------------------
Retail Gross Revenue            $23,814    $22,934    $22,568    $22,904
Retail Revenues Net
    Cost of Goods Sold          $10,528    $10,718     $8,919     $8,362
------------------------------------------------------------------------

    While our retail bookstore serves to generate income, it is also an 
integral part of our educational programming. Accordingly, a primary 
focus on what we merchandise is how materials will contribute to the 
learning experience, as opposed to simply maximizing profit margin. The 
net revenue reported here is strictly the difference between the cost 
of the goods purchased and sold. Consequently, while net revenues do 
not fully cover our retail staff member, it does help offset this 
personnel cost. Just as our events manager assists with the management 
of the Museum, so too does our retail manager, and the net retail 
revenue helps to sustain this position.
    The balance of our funding comes from general donations, grants, 
and memberships. Nevertheless, the Trust has always subsidized the 
Museum but regards this as support of our core education and 
interpretation mission.
    Question. In a follow-up letter to the Committee you claim that the 
City and the Trust are required to comply with American Indian 
Religious Freedom Act of 1978, the Native American Graves Protection 
and Repatriation Act of 1990, and the National Historic Protection Act. 
Is this based on legal opinion provided to the Trust? If so, can you 
please provide that opinion.
    Answer. The Trust did not seek a legal opinion because the Trust 
and the City in practice have acted in accordance with these very 
important protective standards. However, subsequent to testifying 
before your committee, I participated in a meeting on March 26th 
initiated by Representative Herrera Beutler, which included several 
individuals representing the Cowlitz Tribe, which had filed a letter of 
concern about HR 716. The representatives were Dave Burlingame, 
Cultural Resource Department; Philip Harju, Legal Counsel; and William 
Iyall, Chairman. The meeting also included Vancouver's Mayor Pro Tem 
and the City Manager's Program and Policy Development Manager.
    During that meeting I noted our understanding that these Federal 
protective standards applied to the City's property, and to the Trust 
as the City's property manager, for the reasons stated in my 
supplemental testimony of March 19th. The response from these Cowlitz 
Tribal leaders was that our interpretation of the applicability of 
these federal laws was correct.
    However, these leaders indicated that from their experience local 
governments do not always willingly comply with these Federal laws and 
the tribes must sometimes resort to legal action to compel compliance, 
while the National Park Service much more readily acknowledges and 
abides by these regulations. Accordingly, while these representatives 
believe as we do that the City and Trust are bound by these protective 
regulations, they are simply more comfortable with land under the 
jurisdiction of the NPS. While we understand that some local 
jurisdictions may not readily comply with these Federal protective 
standards, the record of and the obligations assumed by the City of 
Vancouver and the Trust clearly demonstrate that we are in alignment 
with these laws.
    Beyond this general understanding, we are clearly bound to abide by 
these regulations for several reasons, as indicated in my letter of 
March 19, 2013:

        <bullet> The 1996 legislation establishing the Reserve requires 
        that the Reserve be administered through a general management 
        plan. All the land within the Reserve boundary is on the 
        National Register of Historic Places and in the general 
        management plan the City agreed that the protection of their 
        properties will be in accordance with the Secretary of the 
        Interior's Standards and Guidelines for Archeology and Historic 
        Preservation as well as the Directors Order No. 28, National 
        Park Service Cultural Resources Management Guideline 1998.
        <bullet> Through a memorandum of agreement, the City has 
        stipulated that the National Park Service is the designated 
        lead agency for the purposes of National Historic Preservation 
        Act (NHPA) Section 106 undertakings proposed by the City on 
        City-owned or managed property within the Reserve. The City has 
        also designated the Superintendent of the Fort Vancouver 
        National Historic Site as the lead agency official with the 
        legal responsibility for compliance with the federal historic 
        preservation and archeology regulations, compliant with 36 CFR 
        800: Protection of Historic Properties.

    I also noted the following:

        <bullet> We believe The American Indian Religious Freedom Act 
        of 1978 requires all governmental agencies, including the City, 
        ``to eliminate interference with the free exercise of Native 
        religion.''

    In asserting its applicability the following authority clarifies 
our obligation:
        <bullet> The American Indian Religious Freedom Act of 1978: 
        http://www.narf.org/pubs/nlr/nlr5-1.pdf Native American Relief 
        Fund Announcements Newsletter, Winter 1979:

                Page 7: This Act, however, applies only to Federal or 
                Federally-related activities. However, although there 
                must be a Federal connection, it does not have to be 
                direct Federal action itself for the Act to apply. 
                Federal funds which support organizations or colleges 
                whose activities are violating a Native group's 
                religious rights may be sufficient Federal connection 
                to invoke the Act.

    Of course, the City receives Federal funds and accordingly has an 
associated Federal connection that allows the act to be invoked.
    However, not only are the City--and the Trust as its agent--bound 
by this Federal law, the City has demonstrated leadership in promoting 
the free exercise of Native religion. For example, attached is a flyer 
for the 16th Annual Memorial to remember Chief Redheart's band, for 
which Nez Perce tribal members travel to the Fort Vancouver site to 
conduct a traditional memorial to honor their ancestors. After the 
ceremony, a traditional Native American meal is prepared and served by 
the Northwest Indian Veterans Association, which will be held in the 
City-owned Artillery Barracks. This ceremony was initiated by the City 
when Vancouver's Mayor traveled to Lapwai, Idaho to extend an 
invitation to the Nez Perce to come to Vancouver.
    With respect to the Native American Graves Protection and 
Repatriation Act of 1990, I stated that:

        <bullet> Both federal lands and private lands that receive 
        federal funds are subject to NAGPRA. Accordingly, we believe 
        that since the Pearson Air Museum did receive a $325,000 
        federal appropriation from the Department of Interior the site 
        is therefore subject to NAGPRA.

    More specifically, the following National Park Service citation 
validates our understanding that NAGPRA would be applicable if the Air 
Museum property was transferred to the City:

        <bullet> NAGRPA: http://www.nps.gov/nagpra/FAQ/INDEX.HTM
        -- Page 2: ``Who is responsible for complying with NAGPRA''--
        All public and private museums that have received Federal 
        funds, other than the Smithsonian Institution, are subject to 
        NAGPRA.
        -- 25 U.S.C. 3001 Definitions: (8) ``museums'' means any 
        institution or State or local government agency (including any 
        institution of higher learning) that receives Federal funds and 
        has possession of, or control over, Native American cultural 
        items. Such term does not include the Smithsonian or any other 
        Federal agency.

    Finally, I stated that:

        <bullet> With respect to the Archeological Resources Protection 
        Act of 1979, since the City is already subject to section 106 
        of the NHPA the City is in compliance with the ARPA.

    Language contained in the National Historic Preservation Act 
supports this conclusion:

        <bullet> National Historic Preservation Act of 1966: http://
        www.nps.gov/history/local-law/nhpa1966.htm:
                -- Section 2 (16 U.S.C. 470):
        It shall be the policy of the Federal Government, in 
        cooperation with other nations and in partnership with the 
        States, local governments, Indian tribes, and private 
        organizations and individuals to--
                (4) contribute to the preservation of nonfederally 
                owned prehistoric and historic resources and give 
                maximum encouragement to organizations and individuals 
                undertaking preservation by private means;
                (5) encourage the public and private preservation and 
                utilization of all usable element of the Nation's 
                historic built environment; and
                (6) assist State and local governments, Indian tribes 
                and Native Hawaiian organizations and the National 
                Trust for Historic Preservation in the United States to 
                expand and accelerate their historic preservation 
                programs and activities.
                                 ______
                                 
    Mr. Bishop. Thank you, Mr. Strahan.
    Mr. Frost, do you have a statement on this particular bill?
    Dr. Frost. Yes, I do.
    Dr. Frost. The Department strongly opposes the enactment of 
H.R. 716. This legislation requires the conveyance to the City 
of Vancouver of 7 acres of Federal land within the boundaries 
of Fort Vancouver National Historic Site.
    The bill would create a non-Federal area within the 
boundaries of the Park. These adjacent sites would be managed 
by different entities according to different standards for 
resource protection and special events management, and would 
create not only confusion for the public, but also friction in 
their management. This would likely adversely affect the 
resources of the surrounding National Park areas, while 
creating a cumulative negative effect on the Park, its setting, 
and the visitor understanding of its significance. Such a 
conveyance would threaten the values and resources of the 
National Historic Site by removing Federal protection under 
cultural resource preservation laws.
    Pearson Air Museum has been a vital and valued partner of 
the Park for the past 18 years. And the National Park Service 
has worked with the partners, including the City of Vancouver, 
to ensure that the museum's resources are preserved, and that 
it is open and accessible to the public. The National Park 
Service and the City of Vancouver dissolved their cooperative 
agreement on February 1, 2013, which canceled the subagreement 
the City of Vancouver had with the Fort Vancouver National 
Trust to operate the Pearson Air Museum and coordinate events 
on the surrounding 7-acre property.
    The National Park Service understands the goals of local 
residents in the City of Vancouver to have the Pearson Air 
Museum open, and we have achieved that shared goal. We are 
looking forward to working with the City of Vancouver to 
reinstall exhibits. We are also actively working with the 
public, who are interested in holding special events at the 
site. And we have already issued several permits in the near 
future. Thank you.
    Mr. Bishop. We appreciate both of you presenting your 
testimony. We will turn to questions on this particular bill to 
the Committee. Ms. Herrera Beutler, we will turn to you first.
    Do you have questions for this one?
    Mr. Young. Maybe.
    Mr. Bishop. All right. Let's start with you.
    Ms. Herrera Beutler. Thank you, Mr. Chairman. And I am 
going to make these brief, because I have a lot. And so please 
be brief in your answers. I am going to direct these first 
couple to Dr. Frost.
    Have you reviewed the FOIA document submitted by the 
Committee?
    Dr. Frost. I have not seen that, no.
    Ms. Herrera Beutler. OK. So we have heard now for months--
and you expressed it in your statement--that the Park Service 
has worked in earnest to find a solution to the disagreements 
between these interested parties. Now that it is public that 
the Park Service has been planning to take over the museum, 
which was built with private funds, and all of the property 
held in the museum, which is all private property, either owned 
or on loan to the Trust, do you still stand by the claims of 
the good faith discussions and negotiations here?
    Dr. Frost. As I understand it--and, like I said, I haven't 
seen the FOIA material--what you are referring to is that in 
2010 the City of Vancouver had given notice to the Park Service 
that it was going to be unable to operate the museum and the 
facility there in 2016. And so, we began preparations in 
advance of that. So it wasn't a takeover, but it was planning 
in anticipation of what the City had told us was going to 
happen in the future.
    Ms. Herrera Beutler. All right. And, Mr. Strahan, are you 
aware that that conversation was a planned event, or were you 
aware that they were talking about assuming responsibilities 
that you had?
    Mr. Strahan. I was not aware that they were planning on 
assuming responsibilities. As for the contract with the City, 
the reason that the City was going to have to terminate--or 
thought it might--the agreement that was supposed to go until 
2025 was because there was a financial requirement that they 
contribute approximately $75,000 in utilities and maintenance, 
and they were unable, because of the City budget, to do that.
    So, our organization stepped up and said we would cover the 
difference, as we have been paying for the museum all along. 
And at that point the City said there was no reason to cancel 
the agreement.
    Ms. Herrera Beutler. Great. Second question, again, to Dr. 
Frost. Your testimony states that removing the property from 
the Federal ownership would remove the Federal protections. 
According to the Trust, the entire site, including the City-
owned Officers Row, where my district office sits, and the West 
Barracks--not to be confused with the boarded-up East 
Barracks--is under the Secretary of the Interior standard, as 
the entire site is on the Register. Why would the museum be any 
different? And why would it be removed from those protections, 
if the other City-owned buildings are not?
    Dr. Frost. Well, I am not an expert on cultural resource 
law and policy, but I will give it my best. And we may have to 
get back with you. But, as I understand it, so this is going to 
be a transfer of title of land out of the hands of the Federal 
Government into the hands of a non-governmental organization. 
And, as a result of that, the Park Service could not manage--
the Federal Government couldn't have the same amount of 
oversight and management of those cultural resources.
    Ms. Herrera Beutler. So can I--have you ever been to Fort 
Vancouver?
    Dr. Frost. I have not.
    Ms. Herrera Beutler. You have not. OK. So when you look at 
those boarded-up pictures of the historic Army barracks that 
the Park Service is managing, would you say the Park Service is 
doing an acceptable job of maintaining the quality and the 
integrity of the resource, as compared with the buildings that 
the Trust manages, that is City-owned, the property that my 
office sits on? I can tell you it is in pristine historic 
condition. We are not even allowed to mess with the flowers, 
OK?
    So would you say that in that situation it is best for the 
Park Service to continue to manage that, when at this point we 
have now lost the educational interpretative services because 
the Park Service simply hasn't, doesn't--and we are not even 
sure has the money to--continue to provide them?
    Dr. Frost. Well, I think you just hit the key right there. 
I think, within the resources that we have available for Fort 
Vancouver National Historic Site, we are doing the best job 
that we can.
    Ms. Herrera Beutler. So wouldn't you say, at a time like 
this, across the Nation, when we are struggling, we know you 
don't have all the resources you need. We know that. Everybody 
is hurting. At this time, shouldn't we take extraordinary 
measures to maintain public-private partnerships, where there 
is an active partner that raises money to help facilitate this 
public resource? Wouldn't you say that this is what we want to 
preserve and replicate, not just board things up and say, 
``Well, my way or the highway''?
    Dr. Frost. I would agree with you 100 percent, but the key 
is not the partnership itself. I think we are fully vested in 
private-public partnership. It is the scale of the events that 
the partnership wants to do. And if it is a----
    Ms. Herrera Beutler. So let me jump in there, because one 
thing that the Park Service runs every year, I love, I have 
gone to since I was a kid, is the Fourth of July Celebration on 
those grounds. Hundreds of thousands of people have come. I 
don't think the Trust has ever done an event anywhere near that 
size. I guess I would say that you are kind of comparing--you 
are not comparing apples to apples here, if we are talking 
about footprint.
    Dr. Frost. I am not talking about footprint, per se. I am 
talking about the size and the scale, but also of the 
relationship of the event to why the Park was established. It 
is----
    Ms. Herrera Beutler. So can I----
    Mr. Bishop. All right. There will be another round that you 
can ask questions.
    Ms. Herrera Beutler. Thank you.
    Mr. Bishop. Can I just make one clarification here for the 
record? I think the gentleman stated that this would be 
conveyed to a private entity. Is that what your bill does? To a 
private entity, or to the City?
    Ms. Herrera Beutler. To the City. Thank you.
    Mr. Bishop. All right, thank you.
    Dr. Frost. My apologies.
    Mr. Bishop. Mr. Grijalva, do you have questions on this 
bill?
    Mr. Grijalva. Yes, if I may. Dr. Frost, the testimony from 
the Trust claims that events that were previously approved were 
no longer approved by the current superintendent. So my 
question. Is this a case of a change in Park leadership, or a 
change in the standards and operating procedures?
    Dr. Frost. Again, I think it goes back to when I started to 
answer the congresswoman's question, is that size and scale has 
effect, but it is also how the event relates back to the 
purpose of the Park. And if you can connect the purpose of the 
event to the purpose of the Park, and you can pull off the 
event within the regulations, guidelines, and laws that we have 
to follow, we are right there with them, wanting to do those 
types of events.
    And so, as these events have changed over time, and the 
trusts have been unwilling to meet our requirements that we are 
required by Federal law, policy, and regulation, that is where 
we come to the impasse. So, we want to work with the trusts, we 
want to work with the City. We want to have this partnership. 
But if it is a partnership, it has to be a true partnership. 
And so we have regulations and guidelines that have to be 
followed, and we just can't ignore those.
    Mr. Grijalva. OK. My question is to one of uniformity. Is 
it a uniform standard, or is it leadership interpretation, or 
decisionmaking by a different leader? I think that is----
    Dr. Frost. Well, I----
    Mr. Grijalva. It is kind of a crux question, to a great 
degree, but----
    Dr. Frost. Right.
    Mr. Grijalva. I will leave it. Mr. Strahan, how much income 
did the Trust receive from rental revenues?
    Mr. Strahan. Our budget is about $300,000 for operations of 
the museum. Currently we subsidize, of that amount, about 
$30,000 out of general trust revenue. The events account for 
about 36 percent of the operating revenue for the museum.
    Mr. Grijalva. OK. So were the revenues from the bookstore 
and the rental of the museum for other private or other public 
activities, is that the largest share of the total income for 
the Trust?
    Mr. Strahan. Yes, the 36 percent. But however, the 
remainder is made up--we had annual members of the museum, the 
bookstore you mentioned, as well as general admissions and 
other--just general contributions.
    Mr. Grijalva. The reason I ask that--well, we will follow 
up with a question, because----
    Mr. Strahan. OK.
    Mr. Grijalva [continuing]. As we added up the figures, it 
was much more than 36 percent. And we will follow up and get 
some clarification. Maybe it is our----
    Mr. Strahan. Happy to provide that.
    Mr. Grijalva [continuing]. Interpretation of the 990 Form, 
interpreting it differently.
    I yield back, Mr. Chairman.
    Mr. Strahan. If I may?
    Mr. Grijalva. Of course, please.
    Mr. Strahan. The 990 Form is for the Trust as an overall 
organization. We produce a variety of events. We have a 
Marshall lecture series. We manage the properties on Officers 
Row and the West Barracks. So the 990 Form, if you are looking 
at the aggregate, really is dealing with an entire----
    Mr. Grijalva. So when it says ``rental income'' in that 990 
Form, it is not--you are saying it is not just rental of the--
--
    Mr. Strahan. That is correct, Mr.----
    Mr. Grijalva [continuing]. This property, but----
    Mr. Strahan. That is correct.
    Mr. Grijalva. OK. Maybe we will clarify that, so that we 
have it for the record.
    Mr. Strahan. OK.
    Mr. Grijalva. Thank you. I yield back.
    Mr. Bishop. Thank you, Mr. Grijalva. Mr. Young, do you have 
questions?
    Mr. Young. This is for the Park Service. What regulations 
are you talking about? And are these new regulations?
    Dr. Frost. No, these are the regulations that, whenever we 
permit a special use, we have our special use permit 
regulations. And they are in the CFR. So any time we permit an 
activity on the mall, or anywhere across the country--and we do 
thousands of these--I mean they are the regulations that have 
been passed. And so it is nothing new, it is nothing that has 
been created----
    Mr. Young. This is what I am leading up to. This 
partnership has been going on for how many years, 18 years?
    Mr. Strahan. Correct.
    Mr. Young. So what different regulations are there that you 
are trying to implement now that the partnership doesn't work?
    Dr. Frost. I don't think the regulations have changed. I 
think it is the----
    Mr. Young. Then why did it work for 18 years?
    Dr. Frost. I think over the last 3 or 4 years the size, the 
scale, and the non-relationship of the event to the purposes of 
the--the reason why the Park was created was the difference. So 
it is not the regulations, it is the connection to the Park.
    Mr. Young. But what I am looking--why does this even occur 
when there was a working relationship benefiting the City and 
the Trust and the Park Service? I mean what changed, that all 
of a sudden we got some little genius--it wasn't you--at least 
it better not have been you.
    Dr. Frost. No, it was not me.
    Mr. Young. Whose brainchild was this, to say, ``Oh, we are 
going to change this now, and we are going to do this, because 
we are the Park Service''?
    Dr. Frost. Well, I don't think it was a sudden change. I 
think that, like I said, over the years I think that we had 
permitted activities for a number of years. And then one year 
the Trust came in with a request and we said that in our view 
it is not going to meet the standards that we require and the 
regulations in our policies. And so----
    Mr. Young. Yes.
    Dr. Frost. And we didn't say no at that point in time. And 
that was our mistake. And it has just sort of ramped up over 
time.
    And finally, we thought we would try to work behind the 
scenes, work closely with the Trust to try to resolve our 
differences, and that didn't work. And so, finally, this past 
year we sort of held the line and said, ``We are going to have 
to deny this activity if you don't scale it back to where we 
think it is,'' and that is where sort of the negotiations broke 
down.
    Mr. Young. Would you like to comment on that?
    Mr. Strahan. Yes, thank you very much. The regulations 
haven't changed. But, in fact, events have occurred for--the 
Independence Day Commemoration is in its 50th year. As far as 
the relevance to the site, all of the--well, not all, but most 
of the major churches in the community originated on that site: 
the Episcopal church, the Catholic church, with Mother Joseph, 
and the Protestant churches. So, our feeling was that since the 
churches originated on the site, it made sense for an all-
church picnic to occur there.
    The military has been on the site since 1849, until this 
last round of BRAC closures, and they left this last fall. So 
having a USO benefit concert or a concert, Night of the 
Patriot, to really assist Iraq and Afghan veterans and their 
families also seemed appropriate.
    So that is where we are puzzled by the issue of relevance 
and scale. As was already mentioned, Independence Day is over 
35,000 people. The Park Service permitted the NAIA National 
Cross County Championship, which has hundreds of participants, 
and is certainly a very large and impactful event.
    Mr. Young. And then you would say this decision was made 
arbitrarily by the Park Service, because the City supports it, 
the churches support it, the veterans support it, the people 
support it. The only people that object to this is the Park 
Service.
    And again, I think the whole Park Service has to be looked 
at by this Committee, Mr. Chairman, and the attitude. This is 
for people, not the Park Service. I mean if you have a 
regulation that doesn't meet the wishes of the people, who in 
the hell are you? That is the thing. I don't understand where 
this arrogance comes from. Comment on it. Where does it come 
from?
    Dr. Frost. Could I make a clarification? So we had actually 
agreed to permit the church function this year. That wasn't the 
issue. It was the other sort of--again, and this was really the 
scale thing. There were jumbotrons, there was going to be a 
band, there was going to be a stage with bands and things. And 
so the----
    Mr. Young. So, wait a minute. What is wrong with that? This 
is for the people. How does that demean the Park?
    Dr. Frost. Well, you have the historic--you have the area 
around the Pearson Museum, but then you have Fort Vancouver 
over here. And not everybody is here on the site, but you have 
other people over at Fort Vancouver, trying to understand the 
significance of Fort Vancouver, and its importance, and stuff. 
And so the influence of this event on the rest of the Park----
    Mr. Young. Well, but wait a minute. The rest of the Park? 
How does that----
    Mr. Bishop. All right.
    Mr. Young. No, wait a minute. I want to just finish--just a 
second. How does that affect----
    Mr. Bishop. You have five; go for it.
    Mr. Young. OK, thank you.
    Mr. Bishop. Because if you don't ask the question, I will. 
Go ahead.
    Mr. Young. OK, no, go ahead.
    Mr. Bishop. No, no, no. Go ahead.
    Mr. Young. How does it affect the Park? What is the damage 
to the Park?
    Dr. Frost. I won't say there is, but potentially there is 
some resource damage, in terms of the setting up and the taking 
down, and all that stuff. And I don't know how extensive that 
is.
    But it is not so much the Park, it is to the visitor 
experience. So the visitors that aren't participating in the 
event, that are participating in other aspects of the Park, 
trying to listen to a ranger activity or something like that, 
and you have a concert going on, and things like that, you have 
two competing interests there.
    Mr. Bishop. All right.
    Dr. Frost. And we are not saying----
    Mr. Young. All right, all right.
    Mr. Bishop. You got the answer there.
    Ms. Hanabusa, do you have questions on this particular 
bill?
    Ms. Hanabusa. Yes, I do. Mr. Strahan, is that----
    Mr. Strahan. Yes.
    Ms. Hanabusa. Am I saying that correctly?
    Mr. Strahan. That is fine, thank you.
    Ms. Hanabusa. Can you tell me, have you spoken to the City 
of Vancouver? And are they OK, is it within their procedures to 
accept the land, if transferred?
    Mr. Strahan. The city of--oh, to transfer? Yes. There is a 
letter in your packet from the City Manager indicating that.
    Ms. Hanabusa. And I heard earlier that part of the problem 
was they didn't want to pay the electrical cost, or something. 
I think that is what Mr. Frost said. So they are able to assume 
all of the necessary financial responsibilities.
    Mr. Strahan. The Trust is able to cover that element of the 
contract.
    Ms. Hanabusa. But the City of Vancouver is going to be the 
recipient of the land. So I want to know what the City's 
position is. If the Trust, for example, runs out of money, it 
is going to fall on the City. So has the City said that it has 
the contingency funds and is willing and able to, in fact, 
accept the responsibility of the Park Service lands, if they 
were to come over?
    Mr. Strahan. I presume that, since the City is supporting 
the legislation, they would certainly understand that there is 
an inherent risk and are willing to accept it.
    Ms. Hanabusa. But you don't know for sure if they have 
created an account or anything like that for this specific 
transfer.
    Mr. Strahan. No, I do not.
    Ms. Hanabusa. If it were to occur.
    Mr. Strahan. No.
    Ms. Hanabusa. OK. Mr. Frost, in reading your testimony, I 
was struck by the fact that you mentioned what we call NAGRA, 
the Native American Graves Repatriation Act, and the American 
Indian Religious Freedom Act, that you felt that somehow the 
transfer of these lands would remove Federal protections for 
the cultural resources and preservation of land.
    My one question is--well, my question is, why do you feel 
that is a potential threat? And, in addition to that, what part 
of the lands that would potentially transfer would raise this 
specific concern?
    Dr. Frost. So that land has been there for many hundreds of 
thousands of years, right? And so there are many layers that 
are on top of the land that--obviously, you have the Native 
American culture. That was there way before any of the white 
people showed up. And so there is that lens in which there is 
significant archeological data, not only on the 7 acres that we 
are talking about, but throughout the whole Park. On top of 
that, then you have the Hudson Bay Company that came in and 
built the Fort, and the whole understanding of the culture that 
happened there. Then you have the Army coming in and doing the 
work that they did.
    And so, with these many different layers, it is not as 
discreet. Cultural protection isn't as easy as drawing a line 
around an area and say, ``You can protect this and you can't 
protect that.'' If you don't understand it in context, it is 
basically useless.
    So, our concern is if this 7 acres is removed from Federal 
ownership, that our ability to protect those resources under 
those laws will be severely diminished, because we don't own 
the land any more. We don't have management of the land. It is 
going to be managed by the City of Vancouver, or possibly 
another entity. And so we still have the laws there, but the 
ability for us to get access and things like that, it just 
creates a bureaucracy that doesn't need to be created.
    Ms. Hanabusa. Well, my understanding is that these laws are 
there, and that the City of Vancouver wouldn't be able to 
simply ignore these laws just because of a transfer of the 
rights.
    So the other question I have is, are there specific 
cultural sites that you are concerned about that would be 
transferred in the 7 acres itself? Like a burial site for 
example, or some kind of a historic artifact of some sort? Is 
there something like that within the 7 acres?
    Dr. Frost. Absolutely. The historic fort footprint is much 
larger than just the standing re-creation of the fort. You have 
the whole complex of the fort, which is very large. And so you 
have all of the archeological records--I mean archeological 
significance that are within part of that 7 acres of the fort's 
footprint.
    In addition, I don't believe there are any burial sites. 
There is a Native American cemetery that is right adjacent to 
the 7 acres that, again, it concerns us about how the 
activities occur on those things, and the appropriateness of 
the activity's relation to the cemetery, and the other cultural 
aspects of the larger National Historic Site.
    Ms. Hanabusa. Thank you, Mr. Frost. Mr. Chair, my time is 
up. Thank you.
    Mr. Bishop. Thank you. Mr. Garcia, do you have a question 
to this particular bill? If not, I do have a couple of 
questions.
    I will start with Mr. Strahan, let me ask you a couple of 
questions, first, and then I will get to Mr. Frost. And one of 
the things you should know, Mr. Frost, is when you are in a 
hole you should quit digging.
    But you were given 48 hours to turn over the key?
    Mr. Strahan. Yes.
    Mr. Bishop. Was that the way it was supposed to have been?
    Mr. Strahan. No. Under the cooperative agreement, if the 
contract was terminated, then there was supposed to be 180 days 
for a transition to occur.
    Mr. Bishop. OK. I don't know if that number there--but 
there was supposed to be several--yes, some time.
    Can you tell me very succinctly what you have done to try 
and fix this situation with the Park Service on behalf of the 
Trust?
    Mr. Strahan. Mr. Chairman, clarification. To fix the 
situation with the Park Service?
    Mr. Bishop. Yes. What you have done to resolve this 
situation prior to legislation.
    Mr. Strahan. We have worked, Mr. Chairman, for the past 
year, trying to get this situation resolved with the Park 
Service. And what occurred was that the--in tandem with this--
was that the Park Service was proposing a new agreement to be 
signed. And when we wouldn't sign that agreement, then the 
current agreement was canceled. The new agreement would have 
required us to turn over all of our assets to the Park Service, 
to have the site unilaterally managed under the supervision of 
the Superintendent and a number of other issues. So that is why 
we couldn't sign the new agreement.
    Then the events issue came up, and that led to the 
termination of the current agreement. And we have moved our 
assets to hangars on Pearson Field.
    Mr. Bishop. All right. Let me go to Mr. Frost for just a 
second. Your statement was that there would be resources within 
Fort Vancouver that would be adversely impacted if this land 
were given back to the City, which seems to be in direct 
contradiction to what Director Jarvis has said, that you are 
within your boundaries. So I don't want to hear any crap about 
viewscapes or noisescapes, or anything like that.
    Is there some specific resource within Fort Vancouver Park, 
within the boundaries of that Park, which would negatively be 
impacted if this were to be going into the City? And I want it 
to be specific.
    Dr. Frost. Again, I think, as I said earlier, the 
archaeological resources----
    Mr. Bishop. What archaeological resources?
    Dr. Frost [continuing]. That are there as a result of the 
larger fort complex. Not the fort itself, but the larger fort 
complex, as a result--I mean Fort Vancouver was not just a 
fort, but there were outbuildings, there were other----
    Mr. Bishop. Within the boundaries of Fort Vancouver 
National Park?
    Dr. Frost. Yes.
    Mr. Bishop. So having the City own this is going to destroy 
the archaeology within the boundaries of the fort.
    Dr. Frost. Well, within that seven--not going to--we are 
not going----
    Mr. Bishop. How within the 7 acres? Just within Fort 
Vancouver National Park.
    Dr. Frost. But the 7 acres are within the boundaries of--so 
I guess I am not understanding your question.
    Mr. Bishop. Obviously. Look. Let me try and make this a 
statement, because I am getting very frustrated here. Both Ms. 
Hanabusa and Mr. Young came to the crux of what the question 
should be. This is not about policy, this is about personality. 
There are two bills we have in front of this Committee because 
the Park Service failed. It failed because the people on the 
ground who have that uniform of the Park Service on were 
authoritarian, arrogant, and autocratic. And that is a policy 
only reserved for the U.S. Senate. Only Harry Reid and his band 
of merry geezers can have that attitude.
    [Laughter.]
    Mr. Bishop. If the Park Service was willing to work with 
people, this would not be here. There is no reason this bill or 
the next bill should be here, except for the failure on the 
part of the Park Service. So your testimony you have given is a 
mass of platitudes that have no specific value to what we are 
talking about here. This worked very well before the Park 
Service got it, it worked very well until you had a change in 
leadership at the Park Service. It can work very well if the 
City has this land over again.
    And all the other complaints about it that were written in 
your testimony are silly. They are simply silly. You have not 
failed, but the Park Service has failed over here. And you 
should be ashamed of your record of activity up there. There is 
no reason a bill like this should ever come before the House. 
This should be solved easily and quickly at the local level. 
And the Park Service has failed.
    And that is why I said you are digging a deeper hole with 
all the efforts at trying to rationalize your way out of the 
failure that has happened up there. This should have been 
solved on the local level years ago, but it has not been. And I 
put the blame on the Park Service for this. Not on the Trust, 
but on the Park Service. And it seems like the best way of 
getting out of this is simply to remove the problem area, which 
is the Park Service. That is why I said Mr. Young was the 
nicest member of the panel in his attitude to what the Park 
Service has actually done.
    A second round of questions. I was the last----
    Ms. Herrera Beutler. Just a couple of clarifications. And I 
think, Mr. Chairman, you summed it up. It really comes down to 
the fact that this--it is such a shame that this is taking an 
Act of Congress. It should have been fixed. I personally have 
been involved in this since last May, when I started 
conversations with the Park Service Director, called her on the 
phone, said, ``We got a problem here locally, we got to fix 
it.'' And from that point, I have felt very strongly that the 
Park Service has resisted efforts.
    You refer to partnership--and I apologize; you probably 
don't know all the ins and outs of what has been happening--but 
you referred to partnership. This Trust, along with the City, 
has operated in partnership for, gosh, most of my life. I don't 
know what happened in the last 6 months to a year, and as we 
have seen from these FOIA documents, obviously the Park Service 
was moving to control the assets. They were moving behind the 
scenes. But the message publicly, even from the regional 
director to the Trust was, ``You are not partners, you are 
vendors.''
    So, you are saying partnership on one side, but they are 
getting a directly different message on the other. And that is 
part of why we are at this head we are. I do wish that the 
local director had had a chance to come out here, because I 
think it would shine some light on the personality problems 
that have taken place.
    I guess we can shoot down every single one of those 
premises you talked about, size, scale, and relationship to the 
Park. Look, I grew up going to this Park as a kid. I went to 
these Fourth of July picnics. I have taken part in these 
events. This is my community's backyard. We are there and 
growing because the fort started, because the Hudson Bay 
started, because it all grew. So we can prove relationship of 
churches or community events to this site. And when you talk 
about archaeological challenges, there is an airfield, an 
active airfield, planes come and go on these 7 acres.
    So, to say that there is something there that is going to 
be damaged if we transfer the ownership is really stretching 
it. I mean I watch these planes come and go, and you would 
think if there was a burial site under these 7 acres, those 
planes wouldn't be allowed to come and go, because Ms. Hanabusa 
is right, those laws are in place, regardless of whether you 
own it or the City owns it.
    And so, I guess I would ask, as we move forward, and having 
talked with Director Jarvis, he said, ``We want the partnership 
to work, we want the partnership to work.'' I think what has 
failed has been at that local level. Decisions became 
subjective, not based on standards. And I would ask that, as we 
move forward, that unless you have real specifics that can't 
be--specific objectives, not, as the Chairman alluded to, 
platitudes, that the Park Service would strongly consider just 
backing away on this one.
    Dr. Frost. Well, I will just say that we would--I would 
agree with you that we want the partnership with the City to 
work, too. Absolutely. You think I enjoy coming here?
    [Laughter.]
    Dr. Frost. But we want the partnership to work. It is a 
better situation on many different levels, as you well know, if 
the partnership works. And I think you are right, the local 
issues have sort of overtaken events. And hopefully we can 
resolve them. I don't know if we can. I know we haven't to 
date, but----
    Ms. Herrera Beutler. So can I speak to that?
    Dr. Frost [continuing]. I would say that we would be 
interested in trying to ``reinvigor'' those conversations to--
--
    Ms. Herrera Beutler. So let me speak to that.
    Dr. Frost. Yes.
    Ms. Herrera Beutler. When the Park Service closed or 
essentially effectively closed the museum by their actions, 
what, 30-plus days ago now, I got on the phone with Director 
Jarvis. And he said, ``I am giving them 30 days to make this 
work.''
    And I said, ``Great. I am going to introduce a bill, just 
in case.'' In those 30 days, from what I have been told, the 
City and the Park Service--or the Trust--have not been reached 
out to. In fact, the Park Service, rather than work with the 
Trust, put up a covered wagon, an old boat, and raised the Park 
Service flag over the museum and, in the same time, did not 
reach out to the Trust.
    So I am hearing a lot of partnership, partnership, but your 
actions are speaking so much louder than your words.
    Dr. Frost. And I can't speak to what has happened in the 
past 30 days.
    Ms. Herrera Beutler. All right. Well, with that, I guess I 
yield back.
    Mr. Bishop. Ms. Hanabusa, do you have any more questions? 
Mr. Grijalva?
    Mr. Grijalva. Yes. If I may yield to sponsor legislation, 
is there a companion piece of your legislation that is moving 
in the Senate?
    Ms. Herrera Beutler. It is not, although we have been 
working with our Senators' offices.
    And, actually, I don't know if you would let me to yield to 
Mr. Strahan, who has actually been working with both of our 
Senators' offices on that, they are aware.
    Mr. Strahan. Yes.
    Mr. Grijalva. If I may----
    Ms. Herrera Beutler. I don't think it is--I don't know that 
it is drafted. Or I don't know that it is in----
    Mr. Grijalva. Well, reclaiming my time, the point I am 
making is probably more directed at Dr. Frost. Given the fact 
that there is legislation here, and from the comments of the 
Chairman, it is legislation that he is going to move. And the 
absence of legislation in the Senate at this point, I think, 
affords the Park Service an opportunity. And I would urge the 
Park Service, so we don't begin to set some precedents here, 
that if something can be done and done expeditiously, I think 
it would be in everybody's best interest to do so. Thank you, 
Mr. Chairman.
    Dr. Frost. I will relay that message.
    Mr. Bishop. Do you have any other questions? Any other 
questions?
    [No response.]
    Mr. Bishop. Then we thank you, and I appreciate your 
response to Mr. Grijalva. The Park Service needs to prove that 
they deserve those 7 acres.
    Mr. Strahan, same thing as I did before. You are welcome to 
stay, if you would like to. Don't know why in the hell you 
would want to----
    Mr. Strahan. Thank you, Mr. Chairman----
    Mr. Bishop [continuing]. But you are welcome to stay. If we 
could ask----
    Mr. Strahan [continuing]. Mr. Ranking Member, members of 
the Committee, thank you.
    Mr. Bishop. Thank you very much. And once again, your 
written testimony is in the record. We appreciate your 
willingness to come here. Thank you, Representative.
    I would ask Mr. Frost to stay, and call up Warren Judge, 
who is the Chairman of the Dare County, North Carolina Board of 
Commissioners, as well as Derb Carter, who is at the Chapel 
Hill Office of the Southern Environmental Law Center, to join 
us at the panel.
    And I also invite Mr. Jones--who has had a chance to 
testify already, right--to join us on the panel, if he would 
like to. This is dealing with H.R. 819, another issue that 
would have been nice to have been resolved at some other venue 
than this one.
    So, let me just go down the panel this time. Mr. Frost, I 
gave you the last time last time. Why don't you go first this 
time on this particular bill?
    Dr. Frost. All right, thank you, Mr. Chairman. Let me make 
sure I have the right testimony here.
    The Department strongly opposes H.R. 819. This legislation 
would overturn the Offroad Vehicle Management Plan at Cape 
Hatteras National Seashore, and restate the defunct interim 
strategy. We believe that the final ORV management plan and the 
special regulation that is now in effect will allow the 
appropriate public use and access to the seashore to the 
greatest extent possible. At the same time, it will also ensure 
wildlife protection, provide a variety of visitor use 
experiences, and minimize conflicts among various users, and 
promote the safety of all visitors.
    Under the ORB management plan, the great majority of the 
beach is open to ORVs, visitation is rising, and tourist 
revenues are at record levels. At the same time, beach-nesting 
birds and sea turtles are finally showing much-needed 
improvement.
    This concludes my statement. Thank you.
    Mr. Bishop. Thank you. Mr.--it is Judge, correct?
    Mr. Judge. Yes, sir.
    Mr. Bishop. Commissioner, you are recognized. Once again, 
your written statement is part of the record. You have 5 
minutes for an oral statement. Please go.

    STATEMENT OF WARREN JUDGE, CHAIRMAN, DARE COUNTY, NORTH 
                CAROLINA BOARD OF COMMISSIONERS

    Mr. Judge. Thank you, thank you, Mr. Chairman. Chairman 
Bishop, Ranking Member Grijalva, and Congressman Jones, I come 
before you on behalf of the 33,000 people who call Dare County 
their home, and the millions who visit the Outer Banks of North 
Carolina each year from every State of our great Nation.
    Dare County is proud to be the centerpiece of the Cape 
Hatteras National Seashore Recreational Area. This special 
place has the distinction of being America's first national 
seashore, and was created for a different mission and purpose. 
It is unique, in that it was planned and purposefully designed 
to be a recreational area, a place where families could 
experience the joy of interacting with nature in this special 
way.
    H.R. 819 represents a practical solution for providing 
American taxpayers access to their national seashore, while at 
the same time assuring science-based protection of shore birds 
and sea turtles.
    H.R. 819 would reinstate a National Park Service management 
tool known as the ``interim plan.'' This was a fully vetted, 
comprehensive plan that provided reasonable recreational 
access, while at the same time safeguarded and managed 
protected resources. It has a NEPA review, and was backed up by 
a biological opinion issued by the U.S. Fish and Wildlife 
Service, finding that species of concern would not be 
jeopardized.
    This plan worked, and it gave the seashore superintendent 
the authority to use his or her professional judgment to make 
science-based, peer-reviewed adjustments in response to actual 
conditions at the seashore on a real-time basis. Unfortunately, 
after a small handful of special interest groups filed a 
lawsuit, the management plan was set aside, and a rigid and 
arbitrary consent decree was put into place. This consent 
decree never had a NEPA review or the healthy input of 
transparent, public participation through public hearings.
    Since the consent decree, I have seen firsthand how the 
people have suffered. Their county, like some of the places you 
represent, is a rural area where small businesses are the 
economic backbone of our community. Tourism is our primary 
industry. It is the engine that drives our economy. Many have 
experienced a dramatic drop in revenue that is directly related 
to the heavy-handed beach access restrictions that have caused 
a ripple effect, hurting businesses, employees, and families. 
This negative impact is most vivid for those nearest the 
closure areas.
    Dare County has a unique geography. As part of a long, thin 
stretch of barrier islands, it extends over 80 miles in length, 
or about the distance from Washington, D.C. to Richmond, 
Virginia. This helps you understand that even when tourism may 
be up in some neighborhoods that are far removed from Hatteras 
Island, it is still a fact that people near the closures are 
struggling to hold on to the American Dream. For critics to 
tell you that tourism on the Outer Banks has increased and 
everything is hunky dory, is like telling someone in Richmond 
that they should be happy that tourists are visiting the 
Nation's Capital.
    Another way the special interest groups try to razzle 
dazzle the American public is by drawing conclusions about 
resource management that are not based on scientific fact. You 
will hear them say that a certain species has seen X percent 
increase since the consent decree, and imply that it is reason 
for success. However, even the seashore superintendent is on 
record of saying that it is too early to draw the conclusion 
that it was the consent decree that caused the increase.
    History shows that successful resource management on the 
vulnerable Barrier Islands of the Outer Banks is a long-range 
process that is directly linked to two variables: first, 
weather; second, natural predators. When storms are mild the 
populations increase, and vice versa. That is why the 
relatively recent consent decree cannot be credited as the 
cause or the factor for bird and turtle increases with any 
scientific integrity or certainty, and then etched in stone 
with the new rule.
    The few who oppose H.R. 819 call themselves special 
interest groups, but they really are single interest groups. As 
elected officials, we do not have the luxury of representing 
just one single interest. Our calling is to do the greatest 
good for the largest number of people. Today I appeal to you, 
as an elected official, to do what is right for the diverse 
group of people who love the Cape Hatteras National Seashore 
Recreational Area. These include the families who cherish their 
tradition of working hard all year to go on an affordable 
vacation at our seashore. It includes many senior citizens and 
those with physical disabilities who desperately need access to 
the ocean our unique recreational area was designed to give.
    That is why I am urging you to enact H.R. 819, to reinstate 
a management plan that has worked. It is a good plan for 
protecting shore birds and sea turtles, it is good for the 
people. I respectfully ask you to help us preserve our culture, 
our history, and our way of life. Thank you.
    [The prepared statement of Mr. Judge follows:]
  Prepared Statement of Warren Judge, Chairman, Dare County Board of 
       Commissioners, County of Dare, North Carolina, on H.R. 819
    The regulations at the Cape Hatteras National Seashore Recreational 
Area are out of balance and unless remedied soon they will have 
permanent consequences. The livelihood and future of our people depends 
on the passage of H.R. 819. This bill would reinstate a proven and 
well-vetted plan that balances resource protection with reasonable 
recreational access consistent with the seashore's enabling 
legislation.
    The Cape Hatteras National Seashore Recreational Area (CHNSRA) was 
established as America's first national seashore with the promise that 
this unique area would always have recreational access for the people. 
Dare County North Carolina, known as the Outer Banks, is home to the 
Cape Hatteras National Seashore Recreational Area with most of the 
seashore being within Dare County, and a portion in Ocracoke in 
neighboring Hyde County.
    The people of Dare County have cooperated with the National Park 
Service (NPS) in developing America's seashore into a popular 
attraction with cultural and historical significance. At the urging of 
the NPS, people built businesses and infrastructure to support and 
promote tourism to the area. For generations the area flourished and 
the area became a popular tourism destination because of its world-
class fishing and a host of family-oriented recreational activities.
    The County of Dare through its elected leaders, and in concert with 
grassroots community partners, has actively participated in every phase 
of the Federal Government's planning and rulemaking process. We 
advocated for the ``Interim Management Strategy'' and participated in 
the negotiated rulemaking process. We also engaged in Public Hearings 
on the Draft Environmental Impact Statement (DEIS), Final Environmental 
Impact Statement, (FEIS) and ORV Management Plan. We, and others, 
offered practical solutions to address concerns required by Executive 
Orders 11644 and 11989 without compromising the area's unique culture 
and economy.
    The National Park Service's ORV Management Plan, and the Final 
Environmental Impact Statement upon which it is based, are seriously 
flawed. It lacks a sound scientific basis and reflects a distorted 
economic analysis. It also does not reflect the will of the people that 
was articulately expressed during public hearings.
    Throughout the public process, there was an outpouring of positive 
and substantive comments by the people of Dare County. Thousands of 
others, from across the nation, who love the Cape Hatteras National 
Seashore Recreational Area, joined us in this effort. We, the people, 
spoke as a virtually unanimous voice in recommending practical 
solutions for management of the seashore. However, the National Park 
Service did not listen to the clearly expressed will of the people and 
incorporate our concerns and suggestions.
    It has been our longstanding position that people and wildlife can 
live in harmony and that reasonable recreational access is consistent 
with proper resource management. For decades, we have maintained that 
meaningful access is fundamental to the visitor experience and the 
continued growth and economic vitality of the Outer Banks.
    The passage of H.R. 819 would reinstate the ``Interim Management 
Plan,'' a tool developed by the National Park Service that was in place 
before the consent decree and proven effective in balancing resource 
protection with responsible recreational access. The Interim Management 
Plan was fully vetted and had a National Environmental Policy Act 
(NEPA) review.
    A key provision of the Interim Plan is that it provides adaptive 
management techniques that give the Superintendent authority to use his 
or her best professional judgment in adapting corridors and routes as 
the physical characteristics of the beach change on a dynamic basis. 
This common sense approach allows the Superintendent to modify access 
by responding directly to changing conditions on a real time basis, 
rather than arbitrarily written mandates.
    For example, when buffers are established to protect a resource, 
once the species have begun moving away from the nesting area, the 
Superintendent could monitor and modify the established buffer on an 
on-going basis. This would ultimately provide more effective resource 
protection, while at the same time providing more access. This 
represents a win-win situation for both protected resources and the 
American public.
    This flexibility is vital because conditions at the seashore are 
dynamic and in a constant state of flux. As the landscape of the 
seashore changes due to weather and tide conditions the natural 
environment of the area changes as well. These changes can be assessed, 
analyzed, and adjusted as needed by the Superintendent.
    We believe the Superintendents of the CHNSRA, including the current 
one, are dedicated professionals with the ability and experience to 
manage the seashore in a responsible way. Depriving the Superintendent 
of this flexibility denies reasonable access without affording any 
resource protection benefit.
    Reinstating the Interim Management Plan will not remove all 
regulatory controls and create a reckless situation where the seashore 
would be unprotected. Nothing could be further from the truth. The 
Interim Plan has comprehensive rules that will allow the Superintendent 
to actively manage the seashore and better protect wildlife.
    The Interim Plan also had the benefit of citizen participation 
through Public Hearings. As a matter of principle, we believe the 
development of environmental policy is best done openly in the sunshine 
of full and transparent public review. The consent decree, put in place 
after a lawsuit by special interest groups, has never enjoyed public 
support due in large part that it was prepared behind closed doors 
without taxpayer input.
    Dare County has championed the cause of providing access for all 
users of the seashore. We strongly support pedestrian access and have 
long encouraged the National Park Service to add additional parking, 
walkovers and other infrastructure to enhance and improve the 
pedestrian visitor experience.
    We also recognize the physical reality that ORV use is the only 
practical way to gain access to some of the key recreational sites 
within this uniquely designed seashore. On first visit to the Cape 
Hatteras National Seashore Recreational Area, many are surprised to 
discover that without ORV access, people of all ages would have to hike 
large distances, of over a mile, to reach some of the remote 
recreational areas. Only the most athletic can traverse the hot sand 
carrying small children, recreational equipment, water and other vital 
supplies.
    Without ORV access, the physically disabled, the elderly, and the 
many who suffer from chronic medical conditions are unable to reach the 
seashore and enjoy the place that is supported by their tax dollars. 
This is inconsistent with the recreational purpose for which the CHNSRA 
was originally created. Mobility impaired visitors depend upon their 
vehicle not only for transportation to the seashore, but as a necessary 
lifeline in the event of a medical emergency, a sudden change of 
weather or temperature conditions, or need for toilet facilities. It is 
unfair that these people be restricted to the areas directly in front 
of the villages as is now provided in the ORV Management Plan.
    Highly restrictive beach closures have had a devastating impact on 
the community surrounding the seashore. Tourism is our primary 
industry. It is the engine that drives our economy. Family-owned 
businesses are the backbone of Dare County and those who offer service 
and hospitality to Outer Banks visitors are suffering because of 
restrictive closures.
    The negative impact has been the most vivid for those near the 
closure areas. When special interest groups claim that tourism has 
increased under the consent decree, they are guilty of not telling the 
entire story. Dare County is a large geographical area and even when 
tourism is up in a neighborhood that may be over an hour away from 
Hatteras Island, it is still a fact that people near the closures are 
struggling to survive.
    Our people are being forced to work harder, deplete their savings, 
and short-change their family's future. Meanwhile, by cherry-picking 
economic indicators, the special interest groups rationalize that 
tourism is up in spite of unprecedented closures. Sadly, even 
businesses whose revenue has stayed level or showed a modest increase 
have accomplished this at a costly price. Many have had to cut back 
employee hours, forego much-needed capital improvements, and sacrifice 
profits. Our small business owners do not ask for special favors or 
government handouts, just a fair opportunity to earn their part of the 
American dream.
SCIENCE TO REGULATE THE SEASHORE MUST HAVE INTEGRITY
    Dare County advocates the use of sound scientific decision making 
in governing the seashore. Throughout the regulatory process, we have 
worked closely with informed and dedicated groups such as CHAPA, OBPA, 
NCBBA, and the Cape Hatteras Anglers Club. These knowledgeable, 
grassroots organizations have been on the forefront of advancing 
science-based protection to achieve recovery plan goals while assuring 
reasonable access for people.
    In addition to working in partnership with community groups, Dare 
County has benefited from the support and council offered by concerned 
individuals in the scientific community, including Dr. Mike Berry. His 
views are highly respected and worthy of serious consideration. Dr. 
Berry was a senior manager and scientist with the U.S. Environmental 
Protection Agency (EPA) serving as the Deputy Director of the National 
Center for Environmental Assessment at Research Triangle Park, North 
Carolina. He also taught environmental science and policy at the 
University of North Carolina and is currently a writer and science 
advisor.
    Dr. Berry has long been a dedicated champion in advocating that the 
scientific process be the basis for determining public policy. He 
explains, ``Best available science as touted by environmental groups is 
opinion disguised as science.'' Following are nine (9) items identified 
by Dr. Berry and Dare County as important scientific principles and 
rationale to consider in evaluating the success of resource management 
in the Cape Hatteras National Seashore Recreational Area.

        (1) The Interim Management Plan fully titled Interim Protected 
        Species Management Strategy/Environmental Assessment was 
        publically discussed at great length and reviewed under the 
        NEPA provisions in 2006. It was signed into effect in July 2007 
        and published in the Federal Register.

        As indicated at page 30 in the Finding of No Significant Impact 
        Interim Management Strategy (See Attached) ``There are no 
        significant adverse impacts on public health, public safety, 
        threatened or endangered species, sites or districts listed in 
        or eligible for listing in the National Register of Historic 
        Places, or other unique characteristics of the region. In 
        addition, no highly uncertain or highly controversial impacts, 
        unique or unknown risks, significant cumulative effects, or 
        elements of precedence have been identified and implementing 
        the selected alternative (modified preferred alternative--
        Alternative D (Access/Research Component Focus) with Elements 
        of Alternative A) will not violate any federal, state, or local 
        environmental protection law. There will be no impairment of 
        park resources or values resulting from implementation of the 
        selected alternative.''

    The USFWS reviewed and concurred with the Interim Strategy and the 
Finding of No Significant Impact. In the Biological Opinion submitted 
to the NPS, August 14, 2006, USFWS states with regard to the Interim 
Plan,
    ``After reviewing the current status of the breeding population of 
the Atlantic Coast population of the piping plover, wintering 
population of the Atlantic Coast population of the piping plover, the 
wintering population of the Great Lakes population of the piping 
plover, the wintering population of the Great Plains population of the 
piping plover, seabeach amaranth, and loggerhead, green, leatherback, 
hawksbill, and kemp's ridley sea turtles, the environmental baseline 
for the action area, the effects of the proposed action and the 
cumulative effects, it is the USFWS's biological opinion that 
implementation of the Strategy, as proposed, is not likely to 
jeopardize the continued existence of these species.'' (See 
``Conclusion'' at page 75 of USFWS Opinion)
    The NPS rational for the management provisions of Interim Plan is 
indicated at page four in the Finding of No Significant Impact.
SELECTED ALTERNATIVE (MODIFIED PREFERRED ALTERNATIVE--ALTERNATIVE D 
        (ACCESS/RESEARCH COMPONENT FOCUS) WITH ELEMENTS OF ALTERNATIVE 
        A
    Based on the analysis presented in the strategy/EA, the NPS 
identified Alternative D--Access/Research Component Focus as the 
preferred alternative for implementation. The preferred alternative is 
described on pages 59-63 and in tables 1, 2, and 3 of the strategy/EA. 
However, after considering public comment on the strategy/EA; park 
field experience during the 2006 breeding season; the USFWS Amended 
Biological Opinion (2007) (attachment 1 to this FONSI); new research 
(``Effects of human recreation on the incubation behavior of American 
Oystercatchers'' by McGowan C.P. and T.R. Simons, Wilson Journal of 
Ornithology 118(4): 485-293, 2006); and professional judgment, NPS has 
decided to implement a combination of Alternative D--Access/Research 
Component Focus and some elements of Alternative A--Continuation of 
2004 Management that pertain to managing sensitive species that are not 
listed under the ESA (see tables 1, 2, and 3 of this document). The 
basic rationale for this choice is that alternative D, as modified by 
elements of alternative A, best provides for both protection of 
federally and non-federally listed species and for continued 
recreational use and access consistent with required management of 
protected species during the interim period, until a long-term ORV 
management plan/EIS/regulation is developed, approved, and implemented. 
The modified preferred alternative--Alternative D (Access/Research 
Component Focus) with Elements of Alternative A is incorporated into 
the strategy/EA by Errata (attachment 2 to this FONSI). All elements of 
the modified preferred alternative were fully assessed in the strategy/
EA under alternative A or alternative D.''
    As indicated in the Finding of No Significant Impact, the selected 
alternative proved for both public access to the seashore and resource 
protection based on professional judgment of NPS managers, and 
consistent with management suggestions of USGS.
    The Interim Plan established ``best professional judgment'' closure 
areas that did not previously exist. (See Pages 34-40 Finding of No 
Significant Impact.)
    (2) Prior to the implementation of the Interim Plan, there was 
concern voiced mainly by environmental activist organizations that 
species decline was occurring on the national seashore as the result of 
increased public access, mainly off road vehicles. For 5 consecutive 
years (2001-2006), published resource numbers were low compared to 
previous years and were often touted to indicate that species 
populations, particularly birds, were in decline due to anthropogenic 
causes. However, it is often not mentioned that during this same time 
period the Cape Hatteras National Seashore Recreational Area 
experienced back-to-back storms that produced a significant distorting 
and transforming effect on the seashore ecosystem.
    Due to the fact that the National Park Service, resource managers, 
and researchers had limited habitat specific research and monitoring 
data, the actual numbers of species, species behavior, and size of 
species populations at Cape Hatteras National Seashore Recreational 
Area were unknown and often simply speculated in the form of 
``professional judgment''. It is important to recognize that 
``judgments'' and ``opinions'' in the absence of data are not science.
    USGS, the research arm of the Department of Interior, in the 
introduction to the document titled Synthesis of Management, 
Monitoring, and Protection Protocols for Threatened for Endangered 
Species and Species of Special Concern at Cape Hatteras National 
Seashore, North Carolina made the following observation giving credence 
to the fact that the low bird counts published for a few years prior to 
2007 were most likely not indicative of the actual condition of 
species.
    ``Over the past decade, management of these natural resources has 
been inconsistent at CAHA, partially due to the lack of effective and 
consistent monitoring of the location, reproductive activity, mortality 
factors, and winter habitat use of these species.''
    Recognizing the lack of effective and consistent monitoring that 
existed prior to 2007, the Interim Plan established an enhanced and 
intensive resources monitoring program for birds and turtles that had 
not previously existed. Starting in 2007, NPS began seeking out, 
observing, and reporting birds at more heightened level than ever 
before. Since instituting the enhanced monitoring program in 2007, bird 
numbers have increased. (See Pages 34-40 in Finding of No Significant 
Impact.)
    (3) In April 2008, environmental activists organizations sued to 
overturn the Interim Plan, claiming that the plan was not based on 
sound science and closure boundary distances prescribe by USGS. The 
Southern Environmental Law Center, the Audubon Society, and Defenders 
of Wildlife, sued the National Park Service and convinced a federal 
judge without any oral argument or expert testimony to issue a consent 
decree to convert the most popular and frequented sections of the Cape 
Hatteras National Seashore Recreational Area into mile after mile of 
``Bird Use Area'' for a large part of the visitor season.
    The public was given no opportunity to review or comment on the 
poorly crafted environmental management provisions of the consent 
decree. The provisions were slapped together in a period of about 3 
weeks in April of 2008, behind closed doors, with no independent 
technical input and discussion.
    Closure boundaries for four bird species (Piping Plover, Least 
Tern, Colonial Water Birds, American Oystercatcher), none of which are 
endangered, have prevented thousands of hard working, tax paying 
citizens and visitors from around the world from entering into large 
areas of the seashore. Thousands of visitors are channeled into now 
much overcrowded sections of the seashore, threatening to overrun the 
carrying capacity of those ecosystems.
    The consequence of this non-public involved environmental decision 
is disastrous. As indicated in testimony this has had a devastating 
effect on the economy of Hatteras Island.
    The access denying provisions of the consent decree provisions, 
which are unnecessarily restrictive and not based on objective science 
assessment, have been incorporated with additions into the final ORV 
management plan that the proposed legislation S. 2372 is designed to 
overturn.
    (4) Environmental activists often referred to National Park Service 
annual resource reports in their self-promoting press releases, public 
testimony, and periodic presentations to the federal judge overseeing 
the consent decree. They use the reports to make claims that the public 
access restrictive resource closures of the consent decree, which they 
crafted and imposed without public review, are resulting in ``highest 
ever'' bird and turtle observations. The annual resource reports have 
never been independently reviewed or verified for accuracy.
    The National Park Service and the environmental activists groups 
are comparing numbers in these recent annual resource reports to 
questionable low bird count numbers published prior to 2007 that were 
not observed using the current level of intense and enhanced monitoring 
and measurement that has been in place since 2007. Such an ``apples and 
oranges'' comparison is in no way valid or useful in indicating 
statistical change.
    In the absence of an enhanced monitoring program prior to 2007, it 
is plausible that various bird counts were not as depleted and low as 
claimed by environmental activists but that they were simply not being 
observed, counted, and reported as at the current intense monitoring 
level. It is also plausible that any noted increase in bird counts 
since 2007 are due to a new enhanced program for seeking out, 
observing, and reporting birds rather than the creation of public 
access restrictive closures.
    At no time in the past 4 years has any federal official 
demonstrated through independent audit or review, the validity of these 
reports or taken a hard look at environmental activists claims. None of 
the annual reports related to the consent decree for 2008, 2009, 2010, 
and 2011 were ever peer reviewed or validated by competent independent 
science advisors in open public forum or openly discussed by interested 
parties.
    The bird and turtle numbers that environmental activists lawyers 
refer to come from annual National Park Service reports that are not 
consistent with the Presidential Directive for Science Integrity, and 
Department of Interior and National Park Service policies for 
scientific transparency and review. The reports do not indicate an 
author or a federal scientist who takes responsibility for the validity 
of the data. The public does not know who--by name, affiliation, and 
technical qualifications--made the observations and recorded the data. 
The public has no knowledge of chain of custody or quality assurance of 
the data. The public does not know who specifically wrote the reports. 
The public cannot get at the facts and verify claims.
    Resource documents indicate that previously in 2007, annual bird 
reports commissioned by the National Park Service were co-authored by 
Audubon Society members.
    (5) There is no statistically significant environmental benefit 
indicated because of the restrictive access provisions of the Consent 
Decree or the Final ORV Plan.
    Nowhere in any annual resource report of the past 4 years does 
National Park Service demonstrate or claim a cause and effect 
relationship between overly restrictive closures provided by the 
consent decree and bird and turtle production.
    Environmental activists and the National Park Service cannot 
demonstrate or prove that wildlife production of birds and turtles was 
improved under the overly restrictive provisions of the consent decree 
any more than would have occurred had the provisions of the publically 
reviewed Interim ORV Plan been allowed to move forward for 4 years.
    In recent court testimony, without qualification, the Seashore 
Superintendent said about birds and turtles, ``the trend is up''. The 
statement is something the judge that issued a consent decree that has 
denied extensive public access to the national seashore wants to hear 
even though at each of the Status Conferences before the judge, the 
Seashore Superintendent has explained to the Court that it is in fact 
too early to ascribe a cause/effect relationship.
    For turtles, production and sightings during the years of the 
consent decree are up all along the Atlantic Coast, not just the region 
governed by the consent decree. For birds, natural processes and 
variability alone can produce such a statistically insignificant 1 or 2 
year ``uptrend'' for a very small number of birds in previous years.
    (6) Data collected and published by NPS in recent years in no way 
supports the claim by environmentalists that ORVs reduce the 
productivity of birds. In fact, the data suggests that the Interim 
Management Plan, prepared with public input and review in 2005 and 
published in the federal register, was showing every sign of being 
effective at protecting birds and natural resources.
    The Interim Management Plan was set aside by the court and replaced 
by the consent decree that mandated extensive closures. The closures of 
recent years have been of exorbitantly high cost to the public, but 
have not contributed to an improvement in species production or safety. 
The consent decree has produced no natural resource benefit over and 
above the Interim Plan. In fact, in the same year the consent was 
issued, the fledge counts were higher under the Interim Plan than under 
the consent decree. In a matter of weeks after the issuance of the 
consent decree, the NPS in Washington and environmental activists in 
Senate testimony disingenuously credited the restrictions of consent 
decree, which had hardly been implemented, for improved bird counts 
that were most probably the consequence of the Interim Plan and 
enhanced monitoring implementation.
    (7) From a scientific viewpoint, ``best professional judgment'' 
closures are more effective and technically sound than closures imposed 
by the Consent Decree and Final ORV Regulation. Smaller closures limit 
the free movement of predators. They do not promote the food chain 
manipulation and transformation in the ecosystem to the same extent as 
the larger consent decree closures. The huge closure distances in the 
consent decree and final plan restrictions keep pedestrians and ORVs 
off the seashore while birds are nesting. At the same time, the 
extensive closures also provide for the proliferation and increased 
free movement of predators. In effect, the extensive closures create an 
ecological trap for birds in that large closure areas enhance 
predation.
    Data at page 10 of 2011 American Oystercatchers Report indicates 
that in 2008 under the Interim Plan, 22 percent of chicks were lost to 
predation. Under the consent decree boundary restrictions 58 percent 
were lost in 2009; 35 percent lost in 2010; and 42 percent lost in 
2011. Since the extraordinarily large consent decree boundaries have 
come into play, the predation tend is ``up''.
    Food chain manipulation is one way to promote unnatural bird 
production. The technical provisions of the consent decree have been 
the basis for the selective trapping and killing of bird predators. 
Aggressive predator control during the years of the consent decree is 
altering the ecosystem significantly for the sole benefit of selected 
bird species.
    (8) Over the past 40 years, federal agencies have adopted formal 
peer review policies to ensure they comply with the ``Hard Look 
Doctrine''. Federal Courts expect agencies to take a ``Hard Look'' at 
the science and not be informal or sloppy in their treatment of fact. 
The National Park Service has failed to ensure a valid science basis to 
a regulation that restricts public access to the national seashore. An 
independent review to determine the validity of the so-called 
``scientific fact'' never occurred during the consent decree 
proceedings of the past 4 years. As a result, the public lost access to 
the beaches of its national seashore. Such government inaction in 
responding to and collaborating with politically powerful special 
interests will only further public outrage and distrust of government.
    Many of the references used to justify the final ORV management 
plan are those of individuals and activists organizations who have 
supported litigation that denies public access. The major science 
references are authored by environmental activist organizations and 
individuals trying to shut down ORV access to the national seashore: 
Audubon, Blue Water, Hatteras Island Bird Club, etc. Many of the 
references are outdated, biased, contain incomplete and misleading 
information, and few have ever been reviewed in open forum. The main 
science references are unsuitable and inappropriate as the basis for a 
government regulation that restricts public access to the national 
seashore and have significant negative impacts on the Outer Banks 
economy.
    The so-called ``USGS Protocols'' continue to be touted as ``best 
available science'' in the development of the final ORV management plan 
for the Cape Hatteras Seashore Recreational Area. The USGS Protocols 
were cited as being ``in press'' 5 years after they first appeared on 
the Park Service website. There was no date on the document, no 
responsible federal official identified, no government document number. 
The final publication was not accessible, publically reviewed, or fully 
explained by government authority at the time the DEIS was submitted to 
the public for comment.
    In an introduction to the final release of the Protocols in March 
2010, USGS states ``Although no new original research or experimental 
work was conducted, this synthesis of the existing information was peer 
reviewed by over 15 experts with familiarity with these species. This 
report does not establish NPS management protocols but does highlight 
scientific information on the biology of these species to be considered 
by NPS managers who make resource management decisions at CAHA.'' 
(http://pubs.usgs.gov/of/2009/1262/).
    As indicated by USGS, the ``Protocols'' are really not hard and 
fast science based protocols but suggested considerations rendered by 
an ad hoc group. Such ad hoc suggestions can in no way be characterized 
as ``best available science''.
    The literature reviews found in the ``USGS Protocols'' as published 
in final are significantly out of date. Many citations are over 20 
years old and most are not related to the Cape Hatteras National 
Seashore Recreational Area. The public does not have access to the 
literature reviewed in this essential report and most of the citations 
are so insignificant they cannot even be found in major university 
libraries that have extensive environmental and natural resource 
publications such as the University of North Carolina at Chapel Hill.
    The following speaks volumes as to the lack of formality and 
serious purpose of the ``USGS Protocols'' currently used as the excuse 
for beach closures.

    <bullet>  There is no public record that the protocols, which have 
been the source of closures, have been officially peer reviewed 
following USGS peer review policy. http://www.usgs.gov/usgs-manual/500/
502-93.html
    <bullet>  There is no public file, docket, or documentation of peer 
review questions, comments, or author response.
    <bullet>  There is no indication that the protocols were ever 
published in a peer reviewed journal or publication or ever referred to 
as what they are, management guidelines and opinions as opposed to in-
depth science assessment.
    <bullet>  Scientists having any kind of conflict of interest 
association, whether through membership, collegial associations, 
funding, or grants must disclose the relationship. Some authors and 
reviewers of the protocols were members and associates of organizations 
now using the protocols to restrict public access to the beaches of the 
national park, a fact never disclosed openly and not in compliance with 
USGS peer review policy.

    As has been stated many times in public comment to the National 
Park Service, the best course of action to resolve the matter of valid 
science is to turn the science review and update over to the National 
Academy of Sciences or some other neutral party, to objectively, 
critically, and comprehensively review all relevant science, disclose 
the facts and restore some public trust in the scientific process used 
as the basis for environmental management decisions at Cape Hatteras 
National Seashore Recreational Area.
    Most importantly, for the restrictive provisions of the final ORV 
management plan, there is no indication that NPS ever plans to revisit 
the USGS Protocols and the science basis for closure boundaries.
    The NPS fails to take hard look at the science that might 
contradict its current justification for denial of public access to the 
Cape Hatteras National Seashore Recreational Area.
    (9) Nowhere is a specific science basis, study or data, ever 
presented, or published for a given bird management option, established 
solely for the Cape Hatteras National Seashore Recreational Area.
    Closure boundaries are overly restrictive at CHNSRA and are not 
used at other NPS properties. There has been no administrative or 
science based explanation given to the public for these uniquely 
restrictive closures
CONCLUSION
    The testimony outlined above carefully documents that there is not 
a cause effect relationship to the restrictive provisions of the 
consent decree. The special interest groups who want to severely limit 
recreational access rely on flawed science that lacks integrity, peer 
review, and without regard to the full consideration of the law, the 
economy, and public use. Now, more than ever, the people need federal 
agencies, such as the Park Service, to be held accountable for policies 
that have hurt the people.
    Dare County supports H.R. 819 as sound legislation that will 
benefit the residents and visitors of the Cape Hatteras National 
Seashore Recreational Area. We believe the Interim Management Plan, 
which would be reinstituted upon passage of H.R. 819, best balances 
resource protection with recreational access. It would allow access 
decisions to be made by the Park Superintendent, who is ultimately 
accountable to Congress, rather than the courts or a rigid and flawed 
ORV Management Plan.
    On behalf of the residents and visitors of Dare County North 
Carolina, we respectfully ask you to help us preserve our culture, our 
history, and our way of life by supporting H.R. 819.
                                 ______
                                 
           Questions Submitted for the Record to Warren Judge
    Question. In your Disclosure Form submitted to the Committee, you 
provided the response ``None that I am aware of'' to a question 
regarding lawsuits and petitions filed by you against the Federal 
Government in the current year and the previous 4 years. You provided 
the same answer, ``None that I am aware of'', to a second questions 
regarding lawsuits and petitions filed by the organization you 
represent.
    According to the docket of the U.S. District Court of the District 
of Columbia, Dare County is plaintiff to ongoing civil litigation 
involving critical habitat designation. The Defendants in the case are 
the United States Department of the Interior and the U.S. Fish and 
Wildlife Service. The Case number is 1:09-CV-00236-RCL.
    Please explain why the information you are required to disclose 
pursuant to the letter of invitation sent to you by the Chairman is 
incorrect.
    Answer. Our participation in the critical habitat designation 
matter began in around May of 2008. We provided comments and 
participated with the other named Plaintiffs in an effort to prevent 
the designation of large coastal areas as critical habitat and thereby 
allow further regulation that might prevent beach access. While I was 
aware that suit was filed and that Dare County was Plaintiff in that 
suit, I was not aware that it was filed in 2009, my belief was that it 
was filed in 2008 around the time we became involved and outside the 4 
year period you inquired about. I apologize for my error and certainly 
did not intend to mislead the committee in any way.
    Question. What concrete, measurable, publicly verifiable data do 
you have to substantiate your statement that the Park Service's 
management of off-road vehicles is causing any harm at all to the 
Hatteras Island economy?
    Answer. As outlined in my oral testimony on H.R. 819 before the 
Subcommittee, the management of off-road vehicles in the Cape Hatteras 
National Seashore Recreational Area has caused economic harm. This is 
most evident for small, family owned businesses near the closure areas.
    In a series of notarized affidavits, Dare County has documented the 
adverse economic impact on a variety of businesses encompassing a wide 
range of the business community including--automotive parts and repair, 
bait and tackle shops, campgrounds, charitable service providers, child 
care centers, fishing rod builders, marinas, motels, professional 
artists, restaurants, and retail establishments.
    Many of these businesses have had to lay-off valued employees, 
suffer cutbacks, and deplete their savings. Even those whose revenue 
stayed level or showed a modest increase have had to cut back employee 
hours notably for students and forego much-needed capital improvements. 
Following are three examples -
    Frank Folb, owner of Frank & Fran's, The Fisherman's Best Friend, 
has seen a dramatic revenue decline in a business that has historically 
prospered during every economic downturn in the past 22 years. He has 
been forced to eliminate employee hours which has caused a financial 
hardship for each of their families.
    Anne Bowers, owner and operator of Indian Town Gallery, has 
documented progressive business declines caused by beach closures that 
have caused a do-or-die struggle to survive.
    Steve Hissey, the Co-Manager of Teach's Lair Marine suffered a loss 
of $300 to $600 for every day that access was restricted to the 
seashore. This resulted in the lay-off of two people solely related to 
the closures.
    These are but a few of the real voices on the front lines of the 
beach access struggle. As explained during my oral testimony, Dare 
County has a unique geography. It is part of a long, thin stretch of 
barrier islands extending over 80 miles in length. In such a vast 
geographical region, even when tourism may be up one in one sector far 
removed from the beach closures, it does not reflect or mitigate the 
harm that those nearest the closures are experiencing.
    Those that would oppose this bill point to increases in gross 
occupancy tax numbers from Dare County or from Hatteras Island to argue 
that the Final Rules have had no impact on the economy. From a macro 
standpoint looking at the whole county, occupancy tax numbers are up. 
However if you look at the individual villages on Hatteras Island 
during the time of the most closures under the final rules, the numbers 
tell a different story.
    Changes in Gross Occupancy Sales by village from FY 10-11 versus 
FY11-12 (the first year of the final rules and which covers the spring 
and early summer when closures have the most impact) were as follows:

Buxton                                                         -$828,719
Frisco                                                           -$7,161
Rodanthe                                                       -$496,861
Salvo                                                          -$694,489
                                                       -----------------
Total                                                        -$2,027,230




Avon                                                          + $419,062
Waves                                                           + 76,119
Hat. Village                                                     + 7,761
                                                       -----------------
                                                              + $502,942

Total Occupancy Sales Lost on Hatteras Island in FY 10-       $1,524,288
 11 through FY11-12


    The Villages showing declines and Waves are most dependent on ORV 
access. One would expect them to be the hardest hit and occupancy sales 
except for Waves reflect that. In fact Buxton was at less than FY 05/06 
levels during that period. Avon is a bedroom community with multiple 
oceanfront dwellings and few restrictions on access. One would expect 
little impact from the rules in Avon and in fact Avon's sales 
increased. All six other towns in the county also had increased 
occupancy sales during this period. What's different about those towns, 
they have no restrictions on access to the beach and are not affected 
by the final rules.
    As an elected official, it is my duty and obligation to be a voice 
for those in my community who are suffering because of the harsh 
closures. The people have documented their loss not only by affidavit, 
but also by an outpouring of hundreds of comments that are recorded in 
the official record of Public Hearings conducted by the National Park 
Service
                                 ______
                                 
    Mr. Bishop. Thank you, Commissioner.
    Mr. Carter.

STATEMENT OF DERB S. CARTER, JR., DIRECTOR, CHAPEL HILL OFFICE, 
               SOUTHERN ENVIRONMENTAL LAW CENTER

    Mr. Carter. Chairman Bishop, members of the Subcommittee, 
Congressman Jones, thank you for the opportunity to testify on 
the proposed legislation to overturn the Offroad Vehicle 
Management Plan for Cape Hatteras National Seashore. I will 
summarize the key points in my written testimony.
    Before I begin I want to say that I spent some time a 
couple of weeks ago at the Walter Jones Center for the Sounds 
in Columbia, North Carolina. Those of us from Eastern North 
Carolina appreciate all that Congressman Jones and his father, 
former Congressman Jones, Senior, have done for our region. 
However, this is one bill on which we disagree.
    We support the balanced Offroad Vehicle Management Plan 
adopted by the National Park Service in February of last year 
to manage vehicle use on the beaches of Cape Hatteras National 
Seashore. The plan was nearly 40 years overdue, mandated by 
Executive Orders from President Nixon and President Carter. 
This plan went through 4 years of public review and comment, 
including a negotiated rulemaking with all stakeholders 
involved, and detailed environmental and economic analysis. 
Over 20,000 comments were submitted by the public on this 
proposed plan, the vast majority supporting the plan, or even 
more stringent offroad vehicle restrictions.
    We oppose H.R. 819, which would repeal that plan and 
reinstate policies that were resulting in significant harm to 
the wildlife and natural resources of this national seashore.
    The Park Service plan is a balanced plan that provides 
minimum protections for the seashore's natural resources. It 
accommodates visitors with different interests, and gives 
wildlife a chance. I am one of the 4 to 5 percent of the 
visitors to the seashore who drive on the beaches. I have 
regularly driven on the beaches of this seashore for over 35 
years. And I have seen the many changes: more and more 
vehicles, less and less wildlife, fewer vehicle-free areas for 
the 95 to 96 percent of the visitors who do not drive on the 
beaches, but come to this national seashore.
    The actual area of the seashore beach open to vehicles and 
pedestrians, pedestrians only, and temporarily closed for 
wildlife is depicted on this graphic, which simulates last 
year. The plan designates 41 miles of the seashore, 67 miles of 
beaches for year-round or seasonal ORV use. Since the plan was 
implemented beginning in February, the Park Service has issued 
over 9,000 annual permits for ORV use, and 23,000 weekly 
permits for ORV use. Twenty-six miles of beaches are designated 
as vehicle-free areas for pedestrians and families to enjoy who 
do not want to drive on the beach.
    Sea turtles are protected by restricting driving at night 
during the turtle nesting season, and breeding birds in 
sensitive areas are protected by buffers that are temporary and 
established if and only if birds are attempting to breed in an 
area.
    By all objective measures, the Park Service's plan has been 
a success. Visitation to the seashore has remained steady or 
increased over the past several years under the court-ordered 
ORV restrictions that began in 2008. In 2012, last year, the 
first year under this ORV plan, the seashore had over 2.3 
million visitors, the highest number of visitors since 2003. 
Dare County reports record occupancy numbers for hotels and 
rental houses. Occupancy tax receipts for Dare County from 
rental homes, hotels, and campgrounds have exceeded receipts 
ever since the consent decree and the plan were put in place, 
compared to the year 2007. Occupancy revenue from Hatteras 
Island, the area with the most area of seashore, was 7 percent 
higher in 2012 under this plan than it was in 2007, the plan 
that this bill would revert to.
    Since the court-imposed wildlife protection restrictions in 
2008, the number of colonial waterbird nests on the seashore 
have quadrupled, and the number of sea turtle nests have 
tripled, to a record 222 nests last year.
    In conclusion, the Park Service has developed a balanced 
management plan for all users of the seashore. Visitation to 
the seashore is up. Tourism in the surrounding communities is 
thriving. And wildlife is recovering. We respectfully request 
that the Subcommittee allow this management plan to work, to 
continue to work, and not favorably report H.R. 819. Thank you 
very much for the opportunity to testify.
    [The prepared statement of Mr. Carter follows:]
   Prepared Statement of Derb S. Carter, Jr., Director of the North 
Carolina Offices of the Southern Environmental Law Center, on Behalf of 
 Audubon North Carolina and Southern Environmental Law Center, on H.R. 
                                  819
    This testimony is submitted on behalf of Audubon North Carolina and 
Southern Environmental Law Center (SELC). In addition, SELC has 
represented Defenders of Wildlife in litigation prompting the 
rulemaking process, in the rulemaking process itself, and in 
intervening in litigation on the side of the National Park Service to 
defend the Final Rule that would be abolished by H.R. 819. SELC also 
represents National Parks Conservation Association in defending the 
Final Rule.
    We strongly oppose H.R. 819. We support of the National Park 
Service's Final Rule to manage off-road vehicle use on Cape Hatteras 
National Seashore in North Carolina. The bill would abolish the Final 
Rule which was adopted by the National Park Service after extensive 
public review and comment. The bill would eliminate sensible safeguards 
to preserve Cape Hatteras National Seashore for current visitors and 
future generations to explore and enjoy. In the one year of management 
under the Final Rule, visitation to the Seashore increased, tourism set 
record highs, and wildlife on the Seashore continued to rebound.

    Passage of H.R. 819 would ignore and undermine:

Extensive public involvement in adoption of the Final Rule:

    The public process informing the National Park Service's management 
plan included numerous public meetings, a negotiated rulemaking process 
that included opportunity for public comment at each meeting, and two 
public comments periods, during which 21,258 written comments were 
received on the draft Final Rule and its supporting environmental 
impact statement. The vast majority of commenters wrote in favor of 
stronger wildlife protections and more stringent off-road vehicle (ORV) 
restrictions than even those contained in the Final Rule. The National 
Park Service weighed all the comments and public input and struck a 
careful and fair balance among competing uses of the Seashore, which is 
embodied in the Final Rule. The Final Rule should be given a chance to 
succeed.

Detailed economic and environmental review:

    The Park Service's extensive review culminated in lengthy economic 
reports and cost-benefit analyses, an environmental impact statement 
that examined six alternatives to the Final Rule, and a detailed 
biological opinion issued by the U.S. Fish & Wildlife Service, all of 
which supported the Final Rule as it was written. The management 
measures in the Final Rule are based on a robust scientific record 
supported by leading experts.

Balanced access for pedestrians and ORV users provided by the Final 
Rule:

    The Final Rule provides a balanced approach to Seashore visitation, 
designating 41 miles (28 year-round and 13 seasonal) as ORV routes of 
the Seashore's 67 miles of beaches. Only 26 miles of beaches are 
designated as year-round vehicle-free areas for pedestrians, families, 
and wildlife, to promote pedestrian access and reduce user conflicts 
between motorized and non-motorized visitors. While limiting off-road 
vehicular traffic in these areas, the new plan will also provide new 
parking facilities and access ramps to facilitate visitor access to 
beaches.
    The Final Rule and management plan only closes beaches when 
necessary to protect nesting waterbirds and sea turtles from 
disturbance. Today, one hundred percent of the Seashore beaches are 
open to pedestrians and 61 percent of the beaches are open to ORV and 
pedestrian use. The remaining 39 percent of the beaches are reserved 
for pedestrian use only. During the breeding season for waterbirds 
(late April through July) only those areas where birds are attempting 
to nest are closed when prescribed disturbance buffers require closure. 
Once nesting is completed, these areas are opened.
    Most other national seashores either have regulations in place to 
manage and restrict ORV use or do not allow ORV use at all; only one 
national seashore continues to allow beach driving without a regulation 
in place. Four national seashores have long prohibited ORVs entirely, 
while four others have regulations restricting ORV use. All of those, 
except Padre Island, allow driving on a much smaller percentage of 
their beaches than does the Cape Hatteras Final Rule. Thus, the number 
of miles Cape Hatteras's beach set aside for ORV use in the Final Rule 
is significantly more extensive than most other national seashores.

The overwhelming weight of scientific authority:

    In contrast to the utter dearth of science to support H.R. 819, an 
extraordinary amount of scientific evidence shows that the Final Rule's 
beach driving restrictions are warranted and are the minimum necessary 
to preserve the natural resources of the Seashore for future 
generations. The rulemaking record includes hundreds of peer-reviewed 
articles, the peer-reviewed protocols developed by the government's own 
scientists at the U.S. Geological Survey, and the support of scientists 
at the U.S. Fish & Wildlife Service and the North Carolina Wildlife 
Resource Commission. Arguments for ORV use on the entire Seashore are 
not only contradicted by substantial scientific studies at the Seashore 
and other locations, they are not supported by any scientific evidence 
in the record.

Five years of thriving tourism:

    In the 4 years under reasonable wildlife protections and ORV 
restrictions similar to those implemented in the Final Rule \1\ and one 
year under the Final Rule, tourism has thrived, park visitation has 
held steady and increased in some years, and tourism revenues grew. 
Notably, in the last two years, new records have been set for visitor 
occupancy and tourism revenue in Dare County, North Carolina, where 
much of the Cape Hatteras National Seashore land is located.
---------------------------------------------------------------------------
    \1\ These wildlife protections were established in a consent decree 
was entered by the U.S. District Court for the Eastern District of 
North Carolina in the federal lawsuit entitled Defenders of Wildlife et 
al. v. National Park Service et al. (E.D.N.C. case no. 2:07-CV-45). It 
imposed protections and beach driving restrictions beginning in 2008 
that are very similar to those in the Final Rule.
---------------------------------------------------------------------------
    With the exception of 2011, when Hurricane Irene cut off access to 
Hatteras Island for nearly 2 months, visitation to Cape Hatteras 
National Seashore has remained steady or increased for the past 9 
years, from a low of 2,125,005 (in 2006) and a high of 2,302,040 in 
2012. In the first year of management under the Final Rule, Seashore 
visitation was the highest since 2003.

----------------------------------------------------------------------------------------------------------------
 Year                                  Cape Hatteras National Seashore visitation
----------------------------------------------------------------------------------------------------------------
2012                                                                                                  2,302,040
----------------------------------------------------------------------------------------------------------------
2011                                                                                                1,960,711 <SUP>*</SUP>
----------------------------------------------------------------------------------------------------------------
2010                                                                                                  2,193,292
----------------------------------------------------------------------------------------------------------------
2009                                                                                                  2,282,543
----------------------------------------------------------------------------------------------------------------
2008                                                                                                  2,146,392
----------------------------------------------------------------------------------------------------------------
2007                                                                                                  2,237,378
----------------------------------------------------------------------------------------------------------------
2006                                                                                                  2,125,005
----------------------------------------------------------------------------------------------------------------
2005                                                                                                  2,260,628
----------------------------------------------------------------------------------------------------------------
<SUP>*</SUP> Hurricane Irene cut access for nearly 2 months.

(See ``Annual Park Visitation'' Report for CAHA at http://
www.nature.nps.gov/stats/park.cfm)

    Dare County, NC, where the majority of the Seashore is located, 
reports that visitor occupancy tax receipts for each year under the 
court ordered ORV restrictions (2008 to 2012) exceeded receipts in 2007 
and prior years, with 2008, 2010, 2011, and 2012 setting successive 
records for all-time high receipts. Tourism revenue for Hyde County, NC 
(the Ocracoke Island portion of Cape Hatteras National Seashore) has 
held steady or increased since 2005, to a record high $31.69 million in 
2011. The chart below shows tourism revenue data for Hyde and Dare 
Counties, both before the court ordered ORV restrictions went into 
effect in 2008 and afterwards:

----------------------------------------------------------------------------------------------------------------
                Dare County tourism                               Hyde County tourism
    Year      expenditures  (millions    Dare County percent    expenditures  (millions    Hyde County percent
                    of dollars)         change from prior year        of dollars)         change from prior year
----------------------------------------------------------------------------------------------------------------
2011                          $877.18                   + 5.14                   $31.69                   + 2.6%
----------------------------------------------------------------------------------------------------------------
2010                          $834.29                   + 8.8%                   $30.90                  + 11.6%
----------------------------------------------------------------------------------------------------------------
2009                          $766.56                  (-1.4%)                   $27.70                  (-1.5%)
----------------------------------------------------------------------------------------------------------------
2008                          $777.41                   + 1.9%                   $28.11                   + 3.0%
----------------------------------------------------------------------------------------------------------------
2007                          $762.65                   + 8.6%                   $27.29                  (-4.1%)
----------------------------------------------------------------------------------------------------------------
2006                          $702.25                   + 8.7%                   $28.46                   + 3.5%
----------------------------------------------------------------------------------------------------------------
2005                          $646.08                   + 4.8%                   $27.49                   + 7.6%
----------------------------------------------------------------------------------------------------------------

(See North Carolina Department of Commerce reports on tourism revenue 
at: www.nccommerce.com/tourism/research/economic-impact/)

    The majority of the national seashore is on Hatteras Island in Dare 
County. Dare County reports that occupancy revenue from hotels, rental 
homes, campgrounds, etc. on Hatteras Island was 7 percent higher in 
2012 (the first year under the Final Rule) than in 2007 (the year that 
the Interim Management Strategy, to which HR 819 would return the 
Seashore, was in effect). This was true despite the fact that access to 
Hatteras Island was cut off after Hurricane Sandy for nearly 2 months 
in late 2012. Occupancy receipts have been steadily rising in recent 
years under reasonable wildlife protections and ORV restrictions 
similar to those implemented in the Final Rule. The Dare County 
Visitor's Bureau reports that Hatteras Island visitors spent a record-
setting $27.8 million on lodging during the month of July 2010 
(surpassing July 2009 by 18.5 percent). July 2011 occupancy receipts on 
Hatteras Island then set a new high of $29.6 million. Then July 2012 
set yet another new all-time occupancy high on Hatteras Island at 
$30,577,703. July has the maximum restriction on ORV use due to 
seasonal safety ORV closures in front of villages, breeding bird 
closures, and night driving restrictions for nesting sea turtles. The 
occupancy receipts for June and September 2012, the first year under 
the Final Rule, also exceeded the levels for the prior years posted on 
Dare County's Visitor's Bureau website, and may also represent all-time 
records. (See http://www.outerbanks.org/outerbanks-statistics/ (graphs 
for ``Occupancy by District'')).
    Although only 4-5 percent of Seashore visitors have an interest in 
driving on the beaches, these visitors have this opportunity at all 
times under the Final Rule. Since the Final Rule went into effect on 
February 15, 2012 (through March 4, 2013), the National Park Service 
has issued 32,893 permits to operate an ORV on Seashore beaches (9,086 
annual and 23,807 weekly permits). Permits require an applicant to view 
a short educational video on safe driving on the beaches. In the first 
year under the permit system instituted by the Final Rule, speeding 
violations on the beaches decreased by 88 percent from 200 in the prior 
year to 23.

Recovery of protected species under reasonable ORV restrictions:

    The various federally endangered, federally threatened, and state-
protected species of shorebirds, water birds, and sea turtles that live 
and/or breed on Cape Hatteras National Seashore beaches have rebounded 
in the 5 years under court ordered ORV restrictions and the Final Rule. 
These species are sensitive to human disturbance during the nesting 
season. All species had declined--and some had even disappeared from 
the Seashore--under the prior plan that H.R. 819 seeks to reinstate. 
Under the court ordered ORV restrictions and Final Rule, records have 
been set for the number of sea turtle nests, piping plover breeding 
pairs, piping plover fledge chicks, American oystercatcher fledged 
chicks, least tern nests, and gull-billed tern nests.
    Sea turtle nests on Seashore beaches have nearly tripled from 82 in 
2007 to a record 222 in 2012. The number of breeding pairs of 
threatened piping plovers increased from 6 pairs in 2007 to 15 in 2012. 
The number of nests of beach nesting colonial waterbirds including 
terns and black skimmers has quadrupled, from 314 nests in 2007 to 1314 
nests in 2012. By all measures, the ORV use restrictions during the 
nesting season from May to July have been an unqualified success in 
restoring wildlife to the Seashore.

----------------------------------------------------------------------------------------------------------------
                                             2007        2008        2009        2010        2011        2012
----------------------------------------------------------------------------------------------------------------
Sea turtle nests                                 82         112         104         153         147         222
----------------------------------------------------------------------------------------------------------------
Piping plover pairs                               6          11           9          12          15          15
----------------------------------------------------------------------------------------------------------------
Piping plover fledged chicks                      4           7           6          15          10          11
----------------------------------------------------------------------------------------------------------------
American oystercatcher pairs                     21          21          21          20          20          21
----------------------------------------------------------------------------------------------------------------
American oystercatcher fledged chicks            10          15          10          26          24          15
----------------------------------------------------------------------------------------------------------------
Colonial waterbird nests                        314         255         691         414       1,289       1,314
----------------------------------------------------------------------------------------------------------------

(See National Park Service, Cape Hatteras National Seashore Annual 
Reports 2012)

The requirements of numerous federal laws:

    Executive Order 11644 and 36 CFR Sec. 4.10 require all public land 
managers to adopt special regulations to authorize ORV use and requires 
that those plans not harm wildlife or degrade wildlife habitat.
    The Park Service Organic Act declares that national parks and 
seashores must be managed ``to conserve the scenery and the natural and 
historical objects and the wildlife therein and to provide for the 
enjoyment of the same in such a manner and by such means as will leave 
them unimpaired for the enjoyment of future generations.'' 16 U.S.C. 
Sec. 1. If a conflict exists between recreational uses and natural 
resource protection, natural resource protection predominates.
    The enabling legislation for Cape Hatteras National Seashore 
declares that it shall be ``permanently preserved as a primitive 
wilderness'' and that ``no development of the project or plan for the 
convenience of visitors shall be undertaken which would be incompatible 
[] with the preservation of the unique flora and fauna of the 
physiographic conditions now prevailing in the area.'' 16 U.S.C. 
Sec. 459a-2.
    The Endangered Species Act requires that all federal agencies 
provide for the recovery of endangered species. 16 U.S.C. Sec. 7(a)(1). 
H.R. 4094, in contrast, prescribes that any management plan for the 
Seashore only provide minimum protection to endangered species, but not 
recovery.
    The National Environmental Policy Act requires preparation of an 
environmental impact statement (EIS) for federal actions that 
significantly affect the environment. The Final Rule is supported by an 
EIS, but the Interim Strategy mandated by H.R. 4094 is not.
Conclusion
    In marked contrast to the National Park Service's Final Rule, H.R. 
819 would return Cape Hatteras National Seashore to the failed 
protocols of the Interim Protected Species Management Strategy that 
were proven to be devastating to birds, sea turtles, other natural 
resources, and the public's enjoyment of the Cape Hatteras National 
Seashore beaches prior to the introduction of the consent decree. Even 
the Interim Strategy itself states that it was not developed as a long-
term solution for managing ORV use at Cape Hatteras National Seashore, 
but rather expressly and repeatedly states that it was intended only to 
be implemented temporarily until the Final Rule was in place. The 
Biological Opinion for the Interim Strategy reiterates that it will 
negatively impact the natural resources of the Seashore in the long-
term.

        In contrast to the Final Rule, the Interim Strategy that H.R. 
        819 seeks to reinstate:

    1. Was not supported by the same degree of public participation and 
            contradicts the wishes of the vast majority of people who 
            commented on the Final Rule;
    2. Is not supported by any data or evidence that it will have a 
            greater positive impact (or avoid a negative impact) on 
            tourism than the Final Rule;
    3. Is not supported by an environmental impact statement or 
            extensive economic studies, as the Final Rule is;
    4. Will reserve an extraordinary percentage of the miles of 
            Seashore beaches for a small minority of park users, to the 
            exclusion of the majority of park users who prefer to enjoy 
            the Seashore without the danger, visual blight, noise, and 
            odor of trucks monopolizing the beach;
    5. Is not supported by the great weight of scientific literature, 
            as the Final Rule is;
    6. Was responsible, in part, for the decline in population of the 
            many protected species at the Seashore by 2007; and
    7. Will violate and undermine the requirements of the federal laws 
            listed above.

    In sum, the National Park Service's Final Rule is a balanced plan 
to manage ORV use on Cape Hatteras National Seashore while providing 
areas for wildlife, and the vast majority of visitors who come to walk 
and not drive on the Seashore's beaches.
    Please oppose H.R. 819, and instead support the National Park 
Service's balanced and common sense management plan for Cape Hatteras 
National Seashore.
                                 ______
                                 
    Mr. Bishop. We thank both of you for coming here and giving 
your testimony. We will turn it over to the panel for 
questions.
    Mr. Jones, do you have some questions to start us off?
    Mr. Jones. Yes, Mr. Chairman. Thank you very much. Mr. 
Carter, thank you for your kind words about my father and 
myself, as well.
    Mr. Chairman, I have been in Congress for 19 years. And the 
first bill that I introduced was to protect the horses down at 
Shackleford Banks. That dealt with the Park Service, not Fish 
and Wildlife. Erskine Bowles, who was chief of staff to 
President Clinton, was fighting the Department of the Interior, 
because those horses were going to ruin the vegetation at 
Shackleford Banks. Dr. Pilkey at Duke University said, ``These 
horses will destroy the vegetation.'' It's not true. It has 
never happened. The horses are existing down there with 
whatever insects, ducks, or birds--they are living together. I 
mean it is just unbelievable.
    Since then, this decree was signed by a Federal judge, that 
is true. But Dr. Frost, my comments earlier--and I want to ask 
you--when I said that the Park Service in 2007 had an interim 
management strategy to govern visitors' access, species 
protection, the strategy was backed by a 113-page biological 
opinion issued by the United States Fish and Wildlife, which 
found that it would not jeopardize piping plover, sea turtles, 
and other species. Do you remember that report?
    Dr. Frost. I don't remember that report, personally. But as 
I understand it, the biological opinion that was issued on the 
interim report was issued--there was no jeopardy found, because 
it was an interim plan. It was only designed to be in place for 
1 or 2 years, until we could do the final planning.
    Mr. Jones. Dr. Frost, let me say that in the 19 years I 
have been in office--and this was one plan that even the 
residents of Dare County were not happy with, but they agreed 
to it. And then the extremists, which are destroying America--I 
wish that the piping plover could pay taxes, by the way. I 
don't think they can. I wish the sea turtles could pay taxes, 
but they can't. But the American people have a right to these 
recreational areas.
    And, yes, I would agree in protecting the species. I worked 
hard to protect the red wolf down in Terrell County. But I will 
tell you this. If there is not a balance, then one day we won't 
protect the endangered species, because there will be no tax 
money. That is where this thing is headed. And if the 
extremists had not filed a court order regarding the interim--
the plan in 2007 or 2008 that the people in Dare County agreed 
to, if the judge had not been involved in it, the lawsuits had 
not been filed, we would not even be here today, because you 
all would have worked together, you would have agreed. And 
again, the people in Dare County weren't really happy, but they 
said, ``We will work with the Park Service on this.''
    So, my comment, before I close, Mr. Chairman, I want Mr. 
Judge to respond to the good news from Mr. Carter. I didn't 
realize that the good news was so good for that part of Dare 
County.
    Mr. Judge. Thank you, Congressman. And it is not. This is a 
question of macro versus micro economics. As I stated in my 
oral testimony, if things are going great in D.C., it doesn't 
necessarily mean they are going great in Richmond. And that is 
the distance we have from our two boundaries, the northern 
boundary to the southern boundary of our county.
    The village of Buxton, you see that--Cape Point is on the 
screen right there, and that is the Cape Point Campground. That 
is July 31st of this past summer. The business is gone. The 
village of Buxton, in the summer time, it sometimes looks like 
it is January, it looks like it is a ghost town. And that 
affects rental homes, it affects hotels, motels, it affects the 
shops and the storekeepers. It affects gasoline sales, 
everything.
    That village is based on that point, right there, the most 
sought-after piece of beach on the East Coast, and possibly the 
entire world, for surf fishing, for surfing. At that point you 
have the confluence--you have the ocean coming at you two 
different ways. It is just a wonderful thing to sit there and 
watch it happen. And just to the west of that, as you see it 
goes to the left of your screen, is South Beach, a south-facing 
beach. It is protected because of the Point, and it is a huge 
family vacation destination, because the Atlantic waters are a 
little bit calmer there.
    And, yes, sir, Congressman, that is--we can sit here and 
look at the great success that Dare County has because of the 
thousands of hard-working entrepreneurs. But just because the 
village of Duck on the northernmost part of our county 
experiences double-digit growth does not make a lot of sense, 
nor does it help, the people of Hatteras Island, the village of 
Buxton, and Frisco.
    Mr. Bishop. All right. We will have another round of 
questions, if possible.
    I am intrigued by--you say you have horses down there? You 
have horses down there?
    Mr. Jones. Well, we have horses down at Shackleford Banks, 
and we have horses in Corolla, which is Currituck, which----
    Mr. Bishop. I have about 30,000 head on BLM lands in the 
West, if you would like to take them.
    Mr. Jones. Well, you are going to have to talk to the Park 
Service, because we are fighting them now over the horses in 
Corolla.
    Mr. Bishop. You got horses coming down there.
    Mr. Judge. They would have to get a permit, sir.
    Mr. Bishop. Not if you go at night. Mr. Grijalva?
    Mr. Grijalva. Commissioner, as a consequence of the lawsuit 
that my colleague was referencing, everyone signed it. There 
was a consent decree, and everybody signed it. And the final 
rule, as I understand it, reflected many of the 
recommendations.
    Mr. Judge, did you sign off on this consent decree?
    Mr. Judge. Yes, and that is a wonderful question, Ranking 
Member, and I appreciate the opportunity to respond to that. 
Yes, I did. I chaired the Dare County Board of Commissioners. 
My six colleagues and I, after a painful discussion, we did 
sign off on it. There are a couple of gentlemen on the back row 
in this hearing room today who thought I was crazy when I came 
home that day.
    But our alternative was this, sir. It was to agree to the 
consent decree or close down the Cape Hatteras National 
Seashore. When the very first hearing on this was held on April 
4th in 2007 or 2008, excuse my memory, the judge opened the 
hearing that he is ready to rule, he is ready to close the 
seashore to the public until it can be done.
    So, yes, sir. A question of being shot in the head or shot 
in the foot, it was a painful decision to make. I had to go to 
Hatteras Island and stand before hundreds of people and defend 
it.
    Mr. Grijalva. Yes. Having been a supervisor, a county 
supervisor back home, I have had to shoot myself in the foot a 
couple of times on some stuff. But nevertheless, you end up 
with a binding signature at the end of the day.
    Mr. Carter, how do you reconcile the Hatteras Islands 
occupancy rate with the anecdotes that Commissioner Judge made 
in terms of the economic disparity as a consequence of the 
policy there?
    Mr. Carter. Representative, the only information that we 
can go on in terms of how the economy has responded to these 
actions on Cape Hatteras Seashore is to look at data that is 
actually provided by the county, itself, to the State of North 
Carolina, based on their ability to levy a special tax for 
occupancy. That requires the counties, who take advantage of 
that, to report monthly their occupancy tax, which reflects 
their rate of occupancy, obviously.
    So, we rely on that information. We have provided that to 
the Committee. That is all we can really go on. I guess maybe 
the lawyer in me--what I have heard in terms of specific 
effects and specific instances, as a lawyer, in court that is 
called hearsay, and it is basically not probative. And the only 
thing that we can rely on is this objective information that, 
in fact, in this case, is provided by the county itself.
    And we have actually taken a step of trying to take that 
down to Hatteras Island and the area that would be potentially 
most affected by this, because it has the greatest area of 
seashore.
    Mr. Grijalva. Mr. Carter, this bill puts in place an 
interim plan that was rejected by the court. And so, if that 
interim plan was insufficient for the court, what becomes the 
legal consequences of this, to become law?
    Mr. Carter. Well, the court agreed to the consent decree 
that was signed by all the parties involved: the conservation 
organizations that filed the lawsuit, the county, the ORV 
groups, and the Park Service. So it, in effect, did override 
the interim plan that this would revert to.
    The problem with the interim plan, and the reason the 
lawsuit was filed, was that we considered it to be in violation 
of the Organic Act, the Enabling Act for Cape Hatteras National 
Seashore, the Endangered Species Act, in terms of its effect on 
listed species on the seashore. If we went back to that interim 
plan, all of those issues would still exist, in terms of the--
--
    Mr. Grijalva. OK.
    Mr. Carter [continuing]. Basic fact that this plan does not 
comply with the laws that underlie the management of the 
National Parks, generally Cape Hatteras National Seashore, 
specifically the executive orders that require certain things 
be done regarding ORV use on our public lands----
    Mr. Grijalva. So we opened the box.
    Mr. Carter. Oh, the box--yes.
    Mr. Grijalva. Yes, OK.
    Mr. Carter. The lid would be totally opened, correct.
    Mr. Grijalva. OK. Thank you.
    Mr. Bishop. Thank you. Mr. Holt, do you have questions to 
this particular bill?
    Dr. Holt. Yes, I would like to have the time. First, I 
believe that the Ranking Member wanted to pursue some other 
questioning. Is that right?
    Mr. Grijalva. Make a comment.
    Dr. Holt. I would yield to the Ranking Member----
    Mr. Grijalva. Thank you so much, Mr.----
    Dr. Holt [continuing]. For the time he needs.
    Mr. Grijalva. The comments about the consent decree and the 
judge that approved this consent decree, Mr. Carter, isn't it 
correct that he was appointed--nominated, appointed--to the 
Federal court, he was nominated by President Reagan? And then 
for the court of appeals, renominated again by President Bush, 
and then again by the other President Bush. Because I wanted to 
find out about that because one of the points being that this 
judge had an unreasonable consent decree that people had to 
sign.
    It seems to me that, given the lineage of the appointments 
and who nominated them, in terms of Presidents, that he would 
be seeing this kind of very reasonable to economic impact and 
business effects of any decision he made. I don't want to--
given judicial temperament and all that, I think it was a judge 
that probably, in this instance, couldn't be called somebody 
that was entirely on the side of any environmental concern that 
might have come up at the time.
    It was just a comment, and I will leave it at that, and 
yield back to my friend. And thank you.
    Dr. Holt. I thank the gentleman.
    Mr. Carter, I have arrived here and missed some of the 
hearing, but this is an important question for me. I have heard 
from many people over recent years about the restriction of 
vehicles on Cape Hatteras Beach. I have heard from people who 
feel that it would be harmful to property values and harmful to 
tourism. And I realize that we have a responsibility here to do 
more than just look after local economies.
    But since that was raised so much in the phone calls that I 
received, and the letters that I received, and because I 
promised my constituents and others who contacted me that I 
would give this all due consideration, let me ask you to 
summarize what I believe you have already said. What has been 
the effect on the economy, and what can you say is the effect 
on property values of the vehicle restrictions?
    Mr. Carter. Well, I can't speak to property values, so I 
will take that off.
    In terms of looking at the economy of the area as reflected 
in standardized reports that reflect economic activity, which 
is primarily based on tourism--this is a tourist area, it is a 
national seashore, it is a beach, that is why people visit--one 
thing that is important to understand is a very small number of 
people who come to this seashore come to drive on the beaches. 
I am one of them. And it is estimated to be about 4 to 5 
percent of the visitors have any interest in driving on the 
beach. The rest come to enjoy the beach.
    If you look at the economic data reported by Dare County 
from its tourism tax and Department of Commerce figures, since 
these restrictions have gone in place under the court-ordered 
ORV restrictions, and through the first year of the management 
plan last year, tourism revenues have remained steady or 
increased, and actual visitation at the Park--you may have 
missed this piece of the testimony--visitation at the Park last 
year, under the first year of the plan, was the highest it has 
been since the year 2003.
    Dr. Holt. OK. And we don't have time enough--window of time 
to talk about property values yet, I suppose. Is that right?
    Mr. Carter. That is correct.
    Dr. Holt. OK.
    Mr. Carter. And, of course, that would be compelling, in--
--
    Dr. Holt. Now--of course a principal reason for these 
regulations was to look after the natural life, the wildlife, 
and biological, ecological health of the seashore. The numbers 
there, as I understand it, are unmistakable, that with the 
restrictions, wildlife is prospering. Am I correct in that?
    Mr. Carter. That is correct. The Park Service required us 
to provide annual reports of surveys of all of the key species 
on the seashore. We have compiled that, looking back to before 
the restrictions were put in place, up until the restrictions 
were put in place, and afterwards.
    And the trends are unmistakable. Essentially, every species 
on the seashore has benefited. The numbers are going up. And it 
is all because we have done something to prevent disturbance at 
the key period of the year, when they are trying to occupy an 
area, reproduce, nest----
    Dr. Holt. Thank you.
    Mr. Carter [continuing]. On the seashore.
    Dr. Holt. Thank you, Mr. Chairman.
    Mr. Bishop. Thank you. I have a couple of questions. I 
appreciate Mr. Grijalva pointing out that even Republicans can 
appoint judges. That is very kind of you.
    [Laughter.]
    Mr. Bishop. So Mr. Judge, let me get the priority, or at 
least the chronology right. You were working on a solution. 
Then came the lawsuits, then came the consent decree. That was 
the order in which things occurred. Am I correct in that 
chronology?
    Mr. Judge. It began in 2005 with a public hearing process. 
It led to an interim plan in 2007. On the eve of the beginning 
of negotiated rulemaking, Southern Environmental Law Center 
filed suit on behalf of its clients, which resulted in a 
consent decree in April the following year. And then we went 
through the hoax of negotiated rulemaking for 2 years, and have 
what we have today.
    Mr. Bishop. All right. Mr. Judge, look. According to the 
testimony that we have had today, or have been given, 39 
percent of the beaches are closed to ORVs, and the rest is 
completely open to pedestrians. How come that is not 
sufficient? Does this accurately portray the visitor access?
    Mr. Judge. Well, no, sir. There are sections of beach that, 
while they record them as open to vehicular access, they are 
unaccessible to vehicular access, because there is a buffer on 
the north and the south boundaries. So they log it as open, 
they record it as open, but it is unaccessible, because of 
buffers from other locations on both the north and the south 
side.
    The most popular areas of the beach for the vehicles are 
Oregon Inlet Spit, which is basically not allowed to us ever 
again, Cape Point, and then Hatteras Inlet Spit. And we are not 
talking--everybody likes to talk about driving on the beach, 
driving on the beach. It is access.
    This Cape Hatteras National Seashore Recreational Area was 
designed to be accessed by a car. There are 11 accesses, there 
are 805 parking spaces. You have a daily population of 50,000 
people. Unless you are affluent enough to rent one of the few 
ocean-front houses, you have got to either walk miles or you 
drive your car to the beach, you drive it across 1 of the 11 
access points, you park, you get out, and you enjoy the day. It 
is not this highway thoroughfare that it was originally 
designed for by the Park, as to how you got up and down, 
because you didn't have a road.
    So, statistics can make any argument for any side. But 
where the people want to go, they cannot get there.
    Mr. Bishop. I appreciate that. I think staff have been down 
to this place, and loved it. No one was there. Perfect 
situation. Never stood in line for anything.
    So, I am assuming that your answer to my last question 
would answer the other particular question. If I listen to the 
Park Service testimony, everything is fine, business is 
booming, little creatures are stirring and mating and 
multiplying. Everything is going upward. But that is, you are 
telling me, is picking bits and pieces of the picture, and does 
not attribute to the complete overall view of what is taking 
place?
    Mr. Judge. Absolutely. July 31, 2012, look at all those 
empty--I mean there is only a dozen campers in there at Cape 
Point at Buxton at that most crucial and the biggest visitation 
part of Hatteras Island. Nobody talks about the cyclical nature 
of reproduction of the sea turtles and of the birds. Nobody 
talks about the fact that we are at the southernmost mating 
area and the northernmost wintering area for the piping plover. 
You are not going to have but so many piping plover to be 
there.
    Their County Board of Commissioners stands and supports 
preservation of all species, from bird to man, and vegetables 
and plants. But we also want to share the beach. That is all we 
are asking for, sir, is to share the beach.
    Mr. Bishop. Thank you. Mr. Frost, once again, this bill 
should not have been here this year or last year. And it is 
another effort where the Park Service needs to deal with the 
local community in a much more rational way than we are doing 
right now. This is another failure of the Park Service.
    The Park Service quotes a Michigan State study that says 
how they are pumping hundreds of millions of dollars into local 
communities by their presence being there. That is picking and 
choosing the criteria one more time. And like the last bill, 
this one should not be before Congress. It should have been 
solved at a different level by different people with different 
results, and dealing with the local communities.
    Are there any other questions? Mr. Jones, do you have more 
questions for this panel?
    Mr. Jones. I will be very brief, Mr. Chairman and Ranking 
Member, Mr. Holt included. This area of Dare County is at the 
end of the county. I will say south. It is made up of villages. 
You don't have a Wal-Mart. Yes, you have some drugstores and 
some grocery stores. And the majority of people that live in 
that area of Dare County are your hardworking people, many of 
them are fishermen. They don't have a lot of money. Yes, the 
people that visit bring money, which helps the economy, I 
realize that. But this again comes right down to a simple 
situation of where is the balance between the Federal 
Government and the people? There is no balance.
    If the Southern Law Center had not filed suit, this thing 
would have been worked out. I mean in fairness to the Park 
Service, they were being sued. They had to reach a decision.
    But this, again, is another example of the over-reach by 
the Federal Government. And for the sake of the people of Dare 
County, I hope--and it will probably have to go back through 
the court system, and America is financially broke, I am sure 
that the Park Service right now is worried about sequestration 
and furloughing people and changing--but this whole thing needs 
to be worked out. It needs to be worked out. And all this bill 
would do, obviously, is give the people a chance to have a 
voice to defend their right, as taxpayers. So thank you for 
holding this hearing.
    Mr. Bishop. Thank you. Mr. Grijalva, do you have any other 
questions? Mr. Holt, do you have any other questions?
    Dr. Holt. No. I thank the Chair and I am pleased to have 
this hearing under the gaze and the name of Walter Jones. Thank 
you.
    Mr. Bishop. I don't even know how to respond to that one. 
OK.
    Gentlemen, I appreciate your effort of coming up this way 
to give us testimony. Thank you, Mr. Frost, for sticking around 
for all three bills. I appreciate that. Commissioner Judge, 
thank you for coming up here. Mr. Carter, at the same time, we 
appreciate your time and your effort. Appreciate all the 
Members who have asked questions and presented them. It has 
been a very informative hearing.
    With that, unless there are other questions, other issues, 
once again I would ask all the people who have testified, even 
those who aren't here, that we may have further questions. We 
may send them to you in writing. If you would respond to that, 
we would be appreciative.
    With that, this hearing is adjourned.
    [Whereupon, at 11:55 a.m., the Subcommittee was adjourned.]

            [Additional Materials Submitted for the Record]

           Letter Submitted for the Record by Eric J. Holmes
                                 City of Vancouver,
                          Vancouver, WA, February 13, 2013.

The Honorable Jaime Herrera Beutler,
United States House of Representatives,
1130 Longworth House Office Building,
Washington, DC 20515.
    Dear Representative Herrera Beutler:
    Thank you for your strong interest and support of Pearson Air 
Museum. Ensuring public access to this unique asset is a high priority 
for the City of Vancouver and your efforts in Congress are truly 
appreciated.
    I have reviewed your proposed legislation that would transfer the 
building and 7 acres surrounding Pearson Air Museum to the City of 
Vancouver for long term stewardship and operation.
    This approach would satisfy the city's interest in ensuring that 
the Pearson Air Museum Complex continues to be managed in a way that 
serves the original intent of providing the widest and best possible 
use for citizens and visitors alike. The City supports this approach 
and the legislation you have drafted. Please know that I would be happy 
to serve as a witness in support of the bill should the need arise.
    Again, I appreciate your hard work on an issue that is so important 
to our community.
            Sincerely,
                                            Eric J. Holmes,
                                                      City Manager.
                                 ______
                                 
   Letter Submitted for the Record by Representative Paul Tine, 6th 
                                District
                   North Carolina General Assembly,
                                  House of Representatives,
                                        Raleigh, NC, March 7, 2013.
The Honorable Warren Judge, Chairman,
Dare County Board of Commissioners
P.O. Box 1000,
Manteo, North Carolina 27954.
    Dear Mr. Judge:
    Your letter of March 6, 2013, soliciting my support of H.R. 819 
recently introduced in the United States House of Representatives is 
well received. H.R. 819 would restore balance and common sense to 
management of Cape Hatteras National Seashore Recreational Area 
(CHNSRA) by overturning the National Park Service's Final Rule and 
Consent Decree that have excessively restricted human access to CHNSRA.
    Residents and visitors deserve access to our most precious natural 
resources, and I wholeheartedly support H.R. 819. Its passage is 
important to restore the promise made to the people enacted by Congress 
in 1937.
    I am proud to have you represent Dare County on this important 
issue and offer any assistance that you or the Board may need.
            Sincerely,
                                                 Paul Tine.
                                 ______
                                 
          Letter Submitted for the Record by Senator Bill Cook
                   North Carolina General Assembly,
                Senate Chamber, State Legislative Building,
                                       Raleigh, NC, March 11, 2013.
United States House of Representatives,
Subcommittee on Public Lands and Environmental Regulation,
1017 Longworth House Office Building,
Washington, DC 20515.
    Dear Committee Members:
    I write to you in support of House Resolution 819, introduced by 
Congressman Walter Jones. This act is needed to preserve access to Cape 
Hatteras National Seashore Recreational Area, and to ensure that people 
are not unreasonably restricted in their access of the seashore.
    Furthermore, this resolution has the support of the people of the 
area, and it would continue to encourage tourists to visit our 
beautiful seashore. I encourage you to support this resolution and 
allow folks continued access to the beautiful beach and ocean with 
which God has blessed us.
    Thank you for your consideration.
            Sincerely,
                                         Senator Bill Cook,
                                  North Carolina Senate District 1.
                                 ______
                                 
     Statement Submitted for the Record by the County of Currituck
 resolution supporting h.r. 819 preserving access to the cape hatteras 
                national seashore recreational area act
    WHEREAS, H.R. 819 introduced by Congressman Walter Jones (NC-3) to 
preserve access to the Cape Hatteras National Seashore Recreational 
Area, reintroduces a previous bill that passed the House of 
Representatives in the last Congress but failed it make it out of 
Senate committee; and
    WHEREAS, H.R. 819 would restore balance and common sense to Park 
Service management by overturning a final rule implemented by the 
National Park Service in mid-February 2012, as well as the 2008 U.S. 
District court approved Consent Decree, both of which excessively 
restrict human access to the Recreational Area; and
    WHEREAS, H.R. 819 would assure taxpayers the right to access the 
recreational areas they own by reinstituting the Park Service's 2007 
Interim Management Strategy, which was backed up by a 113 page 
Biological Opinion issued by the U.S. Fish and Wildlife Service finding 
that species of concern, including piping plover and sea turtles, would 
not be jeopardized; and
    WHEREAS, the Cape Hatteras National Seashore Recreational Area 
(CHNSRA) was created by Congress in 1937 as America's first National 
Seashore with the promise that people would always have access for 
recreation; and
    WHEREAS, a tourism based economy has been developed on Bodie 
Island, Hatteras Island and Ocracoke Island, where access to the 
beaches of this area has always been the defining element of the 
visitor's complete seashore experience and the foundation of the area's 
economic base upon which thousands of families depend for their 
livelihood; and
    NOW THEREFORE BE IT RESOLVED that the Currituck County Board of 
Commissioners supports open public access to the Cape Hatteras National 
Seashore Recreational Area consistent with the promises made in the 
enabling legislation and supports H.R. 819 as effective legislation 
that would balance resource management with recreational access for 
Currituck County and Dare County's residents and visitors.
    ADOPTED this the 4th day of March 2013.
                                            S. Paul O'Neal,
                                                  Chairman.
                                 ______
                                 
       Statement Submitted for the Record From The Town of Manteo
 resolution 2013-02 supporting h.r. 819 preserving access to the cape 
            hatteras national seashore recreational area act
    WHEREAS, H.R. 819 introduced by Congressman Walter Jones (NC-3) to 
preserve access to the Cape Hatteras National Seashore Recreational 
Area, reintroduces a previous bill that passed the House of 
Representatives in the last Congress but failed it make it out of 
Senate committee; and
    WHEREAS, H.R. 819 would restore balance and common sense to Park 
Service management by overturning a final rule implemented by the 
National Park Service in mid-February 2012, as well as the 2008 U.S. 
District court approved Consent Decree, both of which excessively 
restrict human access to the Recreational Area; and
    WHEREAS, H.R. 819 would assure taxpayers the right to access the 
recreational areas they own by reinstituting the Park Service's 2007 
Interim Management Strategy, which was backed up by a 113-page 
Biological Opinion issued by the U.S. Fish and Wildlife Service finding 
that species of concern, including piping plover and sea turtles, would 
not be jeopardized; and
    WHEREAS, the Cape Hatteras National Seashore Recreational Area 
(CHNSRA) was created by Congress in 1937 as America's first National 
Seashore with the promise that people would always have access for 
recreation; and
    WHEREAS, a tourism based economy has been developed on Bodie 
Island, Hatteras Island and Ocracoke Island, where access to the 
beaches of this area has always been the defining element of the 
visitor's complete seashore experience and the foundation of the area's 
economic base upon which thousands of families depend for their 
livelihood; and
    NOW THEREFORE BE IT RESOLVED that the Town of Manteo Board of 
Commissioners supports open public access to the Cape Hatteras National 
Seashore Recreational Area consistent with the promises made in the 
enabling legislation and supports H.R. 819 as effective legislation 
that would balance resource management with recreational access for 
Dare County's residents and visitors.
    This 6th day of March 2013.
                                             Jamie Daniels,
                                                             Mayor.
                                 ______
                                 
          Letter Submitted for the Record by Jeanette M. Bader
                                 City of Vancouver,
                             Vancouver, WA, March 19, 2013.
The Honorable Doc Hastings,
Chairman, House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

The Honorable Edward Markey,
Ranking Member, House Committee on Natural Resources,
1329 Longworth House Office Building,
Washington, DC 20515.
    Dear Chairman Hastings and Ranking Member Markey:
    Thank you for your consideration of H.R. 716 concerning the 
ownership of Pearson Air Museum, which is part of the Vancouver 
National Historic Reserve. Although the City of Vancouver is profoundly 
disappointed that the National Park Service and the Fort Vancouver 
Trust were not able to come to a mutually acceptable agreement for the 
operation of Pearson Air Museum, we feel that it is in the community's 
best interest to resolve this issue in a way that allows the Museum to 
continue to operate much as it has for the last 11 years.
    The City of Vancouver is willing to accept ownership of the Pearson 
Air Museum complex including the four buildings and surrounding seven 
acres should Congress deem this the best course of action. I understand 
concern has been raised about the City's willingness to protect the 
archeological and cultural resources of the site. There are federal 
regulations relating to protection of cultural resources that as a non-
federal agency, the City is not required to follow including the 
National Historic Preservation Act of and the Archeological Resources 
Protection Act. However, when the U.S. Army transferred ownership of 
the West Barracks to the City of Vancouver in 2007, these same types of 
concerns were raised about the City's ability to appropriately care for 
and respect the cultural and archeological resources of that property. 
Those concerns were successfully addressed through restrictions in the 
deed of ownership, restrictions that were agreed to by the National 
Park Service and the Tribes. The City would be willing to agree to 
similar restrictions in the deed of ownership for Pearson Air Museum.
    The City of Vancouver, as befits one of the oldest non-native 
settlements in the Pacific Northwest, also has some of the state's most 
stringent archeology regulations and, notwithstanding the national 
register listing, our own archeology ordinance (VMC 20.710 
Archaeological Resources Protection) would require that any work done 
on the Historic Reserve have an archaeological resource survey prepared 
which requires notification of interested tribes.
    In addition, we have a Memorandum of Agreement (MOA) with the 
National Park Service to handle all archeology work on City-owned 
property within in the Vancouver National Historic Reserve. If the City 
were to become the owners of Pearson Air Museum, that MOA would also 
apply to the Air Museum property. The City also has an MOA with the 
National Park Service to handle any issues related to the Native 
American Graves Repatriation Act (NAGPRA) that affect City-owned 
property within the Vancouver National Historic Reserve. Both the 
archeology and NAGPRA agreements could be extended to cover Pearson Air 
Museum but would need to have agreement by the Park Service.
    The City of Vancouver is extremely proud of our heritage and is 
actively engaged in work to preserve and protect the Vancouver National 
Historic Reserve--which includes Pearson Air Museum. The City was 
responsible for the construction of the Museum and played a lead role 
in raising over $3 million for the project. Through our agreement with 
the National Park Service to build and operate the Museum, which was 
recently terminated, we have been responsible for the maintenance of 
the building and grounds since the Museum opened. We are proud of 
Pearson Air Museum and committed to continue its operation as a 
community and educational facility while preserving the historic 
character and integrity of the site.
    I am happy to provide additional information or assurances as 
needed and can be reached at (360) 487-8606 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0d676c63236f6c69687f4d6e647974626b7b6c636e62787b687f23787e">[email&#160;protected]</a>
            Sincerely,
                                 Jeanette M. Bader, M.P.A.,
                              Program & Policy Development Manager.
                                 ______
                                 
    Letter Submitted for the Record by General Gordon R. Sullivan, 
                       United States Army (Ret.)
             Association of the United States Army,
                       Arlington, Virginia, March 13, 2013.
The Honorable Don Young,
United States House of Representatives,
2314 Rayburn House Office Building,
Washington, DC 20515.
    Dear Representative Young:
    On behalf of the members of the Association of the United States 
Army, I write thank you for introducing H.R. 588, the Vietnam Veterans 
Donor Acknowledgement Act of 2013. This legislation would amend the 
Commemorative Work Act (CWA) to allow recognition of private donors who 
contribute to the visitor center at the Vietnam Veterans Memorial. Such 
acknowledgement will help provide needed funding to complete 
construction of the Vietnam Veterans Memorial Visitor Center.
    AUSA strongly supports the enactment of this legislation, and we 
look forward to working with you to ensure that the story of the 
service and sacrifice of Vietnam veterans will be told in perpetuity 
through the efforts of those who create the visitor center.
    Thank you for your leadership on this issue and your unwavering 
support of our Nation's veterans.
                                        Gordon R. Sullivan,
                                              General. USA Retired.
                                 ______
                                 
        Statement Submitted for the Record by the Yakama Nation
h.r. 716--legislation to transfer federal land within the ft. vancouver 
 national historic site and the vancouver national historic reserve to 
                         the city of vancouver
    Chairman Bishop, Ranking Member Grijalva and distinguished members 
of the Subcommittee on Public Lands and Environmental Regulation,
    Thank you for accepting this testimony of the Yakama Nation for the 
hearing record on H.R. 716 and for considering our views.
    We are hesitant to oppose legislation introduced by a member of the 
Washington State Congressional Delegation as we have always prided 
ourselves in reaching out and working with members of our State's 
delegation and indeed with all Members of Congress whenever we can. We 
view Indian matters as being a totally non-partisan issue as the Treaty 
of 1855 that our ancestors signed with the United States was not with 
Democrats or Republicans but with the Federal Government as a whole and 
it was ratified on a bi-partisan basis by the United States Senate and 
signed by the President of the United States. The provisions in that 
Treaty guide us in much of our interactions with the local, State and 
Federal governments to this day.
    We must stand with our ancestors who are, to this day, buried at 
Ft. Vancouver and where many significant Yakama artifacts are still 
uncovered on a regular basis. We therefore oppose H.R. 716 and ask the 
honorable members of this Subcommittee to not report it out or allow 
further action, at least not without some important changes.
    The area now known as Fort Vancouver was used extensively by the 
Yakama people for thousands of years prior to the establishment of the 
Fort. It is an area of great historical importance to our people where 
we fished, hunted, gathered food and medicines and did extensive 
trading. The fact that the Klickitat Trail exists to this day, 
connecting Fort Simcoe on the Yakama Reservation to Ft. Vancouver is 
testimonial to our long connection. The fact that our people are buried 
there makes this area sacred to us and a place that must be revered. I 
am sure you feel the same way about cemeteries that house your 
ancestors, the difference being our connections go back not a few 
hundred years but to time immemorial. Indian artifacts found at Ft. 
Vancouver go back many thousands of years. Fort Vancouver as we now 
know it was established in 1825 and was the Hudson Bay Company's 
administrative center and principal supply depot. It is difficult to 
imagine any place in the Pacific Northwest of more historical 
importance to a multitude of cultures than Ft. Vancouver. It is hard to 
imagine that a multi-cultural village thrived at that time with 
inhabitants of over 35 different ethnic and tribal groups including the 
Yakama people. It is a testimonial to the power of the Hudson Bay 
Company and its trading prowess that Ft. Vancouver's village housed 
native people as from as far away as Hawaii to the west and the 
Iroquois to the east. Between 1824 and 1860 Ft. Vancouver was perhaps 
the preeminent trading post in the Pacific Northwest and was visited 
regularly by our Yakama ancestors. From 1860 to 1948 during periods of 
occupation of Ft. Vancouver by the U.S. Army, members of my Tribe and 
others were kept as prisoners in the Barracks. Some died and were 
buried there and the Barracks exist until this day, preserved and 
protected by the National Park Service.
    In just the past decade alone, there have been three repatriations 
of remains of Indian people who were unintentionally dug up during 
construction projects at Ft. Vancouver and who were then properly 
buried in the cemetery following the traditions our people have 
practiced for thousands and thousands of years. Having been properly 
interred the spirits of those unearthed can now rest.
    It is only because Ft. Vancouver is Federal land that we are 
consulted when remains are inadvertently unearthed. Because Ft. 
Vancouver is federal there are essential Federal laws that the Congress 
enacted that are applicable. These include:

    <bullet>  The National Historic Preservation Act of 1966 (16 U.S.C. 
470)
    <bullet>  The American Indian Religious Freedom Act. of 1978 (42 
U.S.C. 1996)
    <bullet>  The Archeological Resources Protection Act of 1979 (16 
U.S.C. 470aa-mm)
    <bullet>  The Native American Graves Protection and Repatriation 
Act of 1990 (25 U.S.C. 3001)

    Additionally, the Obama Administration, as had every 
administration, Republican and Democrat, including and since Richard 
Nixon's, has agreed to deal with Indian tribes on a Government-to-
Government basis. The present Administration issued an Executive 
Memorandum on November 5, 2009, concurring with Executive Order 13175 
issued on November 6, 2000, directing that Federal agencies treat 
Indian tribes on a governmental basis and to undertake consultation 
with tribes affected by agency actions.
    We are pleased that the staff at Ft. Vancouver understand the 
importance of these Federal laws and that they regularly reach out to 
officials and archeologists of the Yakama Nation when artifacts are 
uncovered as happens quite often. Unless the transfer legislation were 
to somehow require the City of Vancouver to comply with these Federal 
statutes (which normally would not apply on private land), our 
interests, and those of many others, at Ft. Vancouver will not be 
protected by H.R. 716. We should point out that any transfer of Federal 
land is considered a Federal undertaking and under section 106 of the 
National Historic Preservation Act, the Yakama Nation and other Tribes 
must be consulted.
    The acres proposed to be transferred have not been archeologically 
investigated but based on previous findings throughout Ft. Vancouver 
they are likely to contain artifacts of importance to our people. 
Additionally, within the proposed transfer, the area north of the 
Headquarters Building; a U.S. Army component; and deposits connected to 
a World War I kiln in the Spruce Mill, near the hangar, have known 
archeological resources that should continue to be protected by some of 
the above referenced Federal laws.
    We have tried to follow the back and forth between the National 
Park Service and the Fort Vancouver National Trust (``Trust'') and find 
it difficult to believe that this dispute cannot be resolved short of 
ripping key acreage from the heart of Ft. Vancouver and transferring it 
to the city. While the work of the Trust should be appreciated by all 
who enjoy Ft. Vancouver, the leaders of the Trust seem to have an 
attitude that because they contributed funds, sweat equity, staffing 
and objects to the Pearson Air Museum that they, in some de facto 
sense, own it or that they should be allowed to operate it in any 
manner they deem appropriate regardless of whether such actions are 
fundamentally contrary to long standing regulations that guide the 
operation of all National Parks. Many National Parks have components 
that have been paid for via donations or operated cooperatively without 
the private partner suggesting that they don't want to follow Federal 
law or policy which the Trust has publicly stated. The NPS on the other 
hand, should endeavor to be as flexible as it can be in accommodating 
the interests of its neighbors and partners. If activities that were 
once allowed are now going to be prohibited or greatly curtailed, the 
onus is on the Park to demonstrate by clear and convincing evidence 
that such activities will be injurious to the Park, to visitors or to 
other overriding Federal interests.
    Perhaps Congresswoman Herrera Beutler and the bi-partisan 
leadership of this committee could solicit the help of the successful 
mediators now working at the Interior Department's Office of 
Collaborative Action and Dispute Resolution (CADR) and the U.S. 
Institute for Environmental Conflict Resolution, a program of the Udall 
Foundation. We are aware of examples wherein these two groups were able 
to mediate disputes more acrimonious than this one.
    Until all aspects of professional mediation have been tried, this 
legislation is premature and creates precedent that we find alarming. 
Will the Congress simply remove acres within National Parks every time 
a contractor on that acreage and the host Park Superintendent disagree 
on procedures? We urge the committee to reject this legislation and 
seek the help of these good mediators.
    Thank you.
                                 ______
                                 
Letter Submitted for the Record by the Veterans of Foreign Wars of the 
                             United States
                                                    March 12, 2013.
The Honorable Don Young,
2314 Rayburn House Office Building,
Washington, D.C. 20515.
    Dear Congressman Young:

    On behalf of the 2 million members of the Veterans of Foreign Wars 
of the United States (VFW) and our Auxiliaries we are pleased to offer 
our strong support for H.R. 588, the ``Vietnam Veterans Donor 
Acknowledgement Act of 2013.''
    Each year millions of visitors stand before the Vietnam Memorial 
Wall to pay homage to a friend or loved one, or to see and feel the 
ultimate sacrifice and cost of war. The Wall is both a classroom to 
learn and a sacred place to grieve and heal. There are 58,272 names 
engraved on the Wall, each with a story that is not being told.
    H.R. 588 will allow donors to the Vietnam Veterans Memorial Visitor 
Center to be acknowledged for their contributions to the Center, 
allowing for needed funding to complete its construction to provide a 
place for these stories to be told. The VFW strongly supports the 
enactment this legislation and we look forward to working with you to 
ensure the Wall that heals can tell of the lives that were lost during 
the Vietnam War.
    Thank you again for your leadership on this issue and your 
unwavering support of our Nation's veterans.
            Sincerely,
                                         Robert E, Wallace,
                         Executive Director, VFW Washington Office.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
